                     A Message from the
                     Inspector General
                     A Challenge Realized

                     A
                                s I approach the end of my 7-year term, I can look back and appreciate the chal-
                                lenge given to us by Congress in January 1996, when we were directed to create
                                an independent Office of Inspector General for the U.S. Postal Service. Never
                     before had such an independent office existed within the Postal Service, but we chal-
                     lenged ourselves to be the first and the best. We learned that being the first at something
KARLA W. CORCORAN    brings with it inherent difficulties, the need for total commitment, a spirit for risk taking,
 Inspector General   and exciting opportunities for growth.
                           To recognize opportunity is the difference between success and failure. We embraced
                     the challenges, remained steadfast, took calculated risks, and worked tirelessly to build an
                     innovative, results-oriented organization based on our values of teamwork, leadership,
                     communication, creativity, and conceptualization. We wanted to build an organization
                     that could stand on its own to ensure its independence, but that also would meet the
                     needs of the Postal Service and its stakeholders, not our own. It would have been much
                     less challenging – and some would say more to their liking – to do things the traditional,
                     bureaucratic way. But we thought the easy way out was not in the best interest of our
                     stakeholders, so we tried something a little different in the hopes of developing an
                     organization that was a lot more effective. And I think, in just six years since our inception,
                     we have established an organization that we all can be proud of. What we tried was not
                     supposed to be weird or controversial.
                           Our ideas were based on sound, modern principles of organizational management.
                     These ideas were not widely used in the federal government: pay banding, pay for perfor-
                     mance, and values, to name a few. We held true to our belief that new ideas and progres-
                     sive thinking were necessary for us to keep pace with the Postal Service as it faced chal-
                     lenges posed by the current business climate. As Franklin D. Roosevelt said, “It is com-
                     mon sense to take a method and try it. If it fails admit it frankly and try another. But above
                     all, try something.” Some things worked and they are still working; some things didn’t
                     work, and we tried something different. But we tried, and we keep on trying to do what
                     Congress asked us to do only a few years ago. What we were able to accomplish in six short
                     years transcends our expectations and will stand as a legacy in years to come.
                           We knew that the Postal Service was different — it needed to generate revenues and
                     produce results every day. So we set out to create an office to fit the needs of the Postal
                     Service and its stakeholders. We performed strategic audits and investigations that added
                     value to its bottom line and identified needed improvements in Postal Service operations.
                     We believe our results prove our worth many times over. We are convinced that our audit
                     and investigative productivity were due in part to our values-based organization that rec-
                     ognizes and rewards the performance and accomplishments of our entire audit, investiga-
                     tive, and support staff.
                           This reporting period, two major events occurred affecting the Postal Service – the
                     establishment of the President’s Commission on the United States Postal Service and the
                     legislation that lowers Civil Service Retirement Fund payments for the Postal Service. We
                     have worked with the Commission, which is tasked with examining the state of the Postal
                     Service and recommending legislative and administrative steps to help ensure its future
                     viability. We submitted written comments and have offered any assistance we can. The
                     recent windfall the Postal Service received with the lowering of its payments to the Civil
                 Service Retirement Fund by about $6 billion in FY 2003 and FY 2004 has certainly had the
                 short-term benefit of relieving its current financial pressure and forestalling a rate increase.
                 However, many long-term challenges still remain and need to be addressed.
                       We were also pleased to see the establishment of the U.S. House of Representatives
                 Special Panel on Postal Reform and Oversight, which is chaired by Representative John
                 McHugh. The eight-member bipartisan panel was created in part to work with the President’s
                 Commission but also to address reform and oversight issues. We, of course, stand ready to
                 assist the panel.
                       This, our thirteenth Semiannual Report, sets forth the significant activities and
                 accomplishments of this office and the Inspection Service from October 1, 2002, through
                 March 31, 2003. It details our efforts to combat fraud, waste, abuse, and mismanagement
                 within the Postal Service; and fulfills our reporting requirement under the Inspector
                 General Act and Inspection Service requirements under the Mail Order Consumer
                 Protection Act. In this reporting period, the Office of Inspector General issued 210 audit
                 reports, 65 management advisory reports and other products, and closed 191 investigations.
                 This last six months’ work clearly illustrates our productivity as well as the diversity and
                 value of our accomplishments. As we move into the next six months, we recommit our-
                 selves to carrying on this tradition and surpassing our goals.
                       We would like to welcome Governor Albert V. Casey, who recently became a member
                 of the Board of Governors and replaces Governor Ernesta Ballard as Chair of the Audit
                 Committee. We bid farewell to Governor Ballard and wish her well in her future endeavors.
                 Governor James C. Miller, III is the most recent addition to the Board, and we welcome
                 the opportunity to work with him.
                       We also want to thank several members of our senior management, who are pursuing
                 new opportunities, for their outstanding contributions to the OIG: Bob Emmons, Assistant
                 Inspector General for Audit, who is now Inspector General at the Pension Benefit Guar-
                 anty Corporation; and Donna Edsall, Deputy Assistant Inspector General for Technology,
                 who joined the Air Force Audit Agency in California. We would also like to thank all our
                 staff who have been called to military duty. We look forward to their safe return.
                       In closing, I would like to share with you some words from poet Inez Clark
                 Thorson, which remind us of our obligation to stand firm in our convictions regardless
                 of the consequences:
                                    The man who cannot settle in his mind
                                    Where he should stand, but merely stays astride
                                    The fence, is certain in the end to prove
                                    Himself of little worth to either side.
                                    But he alone will be of value who,
                                    Though sometimes pressure may be brought to bear,
                                    Knows in his heart where he should stand and then,
                                    Despite the consequences, stands firmly there.
                    We look forward to continuing to work with Congress, the Governors, the Postmaster
                 General, and Postal Service management and staff to improve postal operations.

                      Sincerely,




                      Karla W. Corcoran
                      April 30, 2003



PAGE 2   A MESSAGE FROM THE INSPECTOR GENERAL
Table of Contents
EXECUTIVE SUMMARY............................................................................................5
MAJOR MANAGEMENT ISSUES FACING THE POSTAL SERVICE ..........................11
PERFORMANCE REVIEWS ......................................................................................19
   Office of Inspector General ........................................................................20
   ◆ Accepting and Processing Reviews ........................................................20
   ◆ Transportation and Delivery Reviews ....................................................23
   ◆ Marketing Reviews ..................................................................................26
   ◆ Legislative, Regulatory & Policy Reviews..............................................26
   Inspection Service........................................................................................28
FINANCIAL MANAGEMENT REVIEWS ..................................................................29
   Office of Inspector General ........................................................................30
   ◆ Financial Opinion Audits ......................................................................30
   ◆ Financial-Related Reviews......................................................................32
   ◆ Contracting and Facilities Reviews ........................................................34
   ◆ Legislative, Regulatory & Policy Reviews..............................................38
   Inspection Service........................................................................................40
TECHNOLOGY REVIEWS ......................................................................................41
   Office of Inspector General ........................................................................42
   ◆ Developmental Reviews..........................................................................42
   ◆ Information Systems Reviews ................................................................43
   ◆ eCommerce Reviews ..............................................................................45
   ◆ Computer Intrusion Investigation Activities ........................................45
   ◆ Legislative, Regulatory & Policy Reviews..............................................46
   Inspection Service........................................................................................47
LABOR MANAGEMENT REVIEWS ........................................................................49
   Office of Inspector General ........................................................................50
   ◆ Workplace Environment Reviews ..........................................................50
   ◆ Human Resource Process Reviews ........................................................50
   ◆ Health Care Reviews ..............................................................................51
   ◆ Legislative, Regulatory & Policy Reviews..............................................54
   Inspection Service........................................................................................55
OVERSIGHT OF THE INSPECTION SERVICE AND
OTHER SIGNIFICANT ACTIVITIES ........................................................................57
   Office of Inspector General ........................................................................58
   ◆ Oversight Reviews ..................................................................................58
   ◆ Other Significant Reviews ......................................................................59
   ◆ Other Significant Activities....................................................................59
   ◆ Legislative, Regulatory & Policy Reviews..............................................59
   Inspection Service........................................................................................61
                                                                                                                  PAGE 3
         CUSTOMER SERVICE ............................................................................................63
            Office of Inspector General ........................................................................64
            ◆ External Communications ......................................................................64
            ◆ Specialized Services ................................................................................68
            ◆ Computer-Assisted Assessment Techniques..........................................68
            Inspection Service........................................................................................70
         GOALS AND STRATEGIES ....................................................................................71
           Office of Inspector General ........................................................................72
           Inspection Service........................................................................................76
         ORGANIZATIONAL DYNAMICS ............................................................................77
           Office of Inspector General ........................................................................78
           ◆ Notable OIG Achievements ..................................................................81
           ◆ Challenges Facing the OIG ....................................................................84
           Inspection Service........................................................................................87
         ORGANIZATIONAL STRUCTURE ..........................................................................89
           Office of Inspector General ........................................................................91
           ◆ OIG Field Locations ................................................................................94
           Inspection Service........................................................................................95
         APPENDICES ........................................................................................................97
            Appendix A - Reports Issued to Postal Management ..............................98
            Appendix B - Findings of Questioned Costs ..........................................107
            Appendix C - Recommendations That Funds Be Put to Better Use....109
            Appendix D - Reports with Significant Recommendations Pending
                            Corrective Actions ............................................................110
            Appendix E - Investigative Statistics ......................................................113
            Appendix F - Summary of Postal Service Investigative Activities
                             Under Title 39 USC § 3013 ............................................114
            Appendix G - Closed Congressional and
                             Board of Governors’ Inquiries ..........................................117




PAGE 4   TABLE OF CONTENTS
Executive Summary




 Are copies of previous Semiannual Reports to
 Congress available?
 Yes, electronic copies of previous Semiannual
 Reports to Congress can be accessed at website
 www.uspsoig.gov and printed copies can be obtained
 by contacting the OIG.




                                           PAGE 5
         This Executive Summary highlights the                  Service is included in this report in order to pre-
         Office of Inspector General (OIG) and                  sent Congress and the Governors a unified
         Inspection Service accomplishments from                report of the Postal Service’s efforts to combat
         October 1, 2002, through March 31,                     fraud, waste, abuse, and mismanagement.
         2003, that are contained in this                            In this, the OIG’s thirteenth Semiannual
         Semiannual Report to Congress.                         Report, the work has been categorized into
                                                                eight subject areas: performance, financial
                                                                management, technology, labor management,
         EXECUTIVE SUMMARY                                      oversight of the Inspection Service and other
                                                                significant reviews, customer service, organiza-


         T
                 his Executive Summary provides a syn-          tional dynamics, and organizational structure.
                 opsis of the work reported during this 6-      These eight areas include OIG work addressing
                 month period. This Semiannual Report           the following 10 major management issues fac-
         addresses the major issues facing the Postal Ser-      ing the Postal Service:
         vice and the work performed by the OIG that
                                                                ◆    physical security and safeguarding the
         helps improve postal operations. It also provides
                                                                     mail;
         a general overview of Inspection Service opera-
         tions and specific examples of work related to         ◆    maintaining customer confidence;
         the detection and prevention of fraud, waste,          ◆    improving financial performance and
         abuse, and mismanagement.                                   accountability;
              The OIG is responsible for conducting all         ◆    resolving workforce and workplace issues;
         audits of Postal Service programs and opera-
                                                                ◆    controlling workers’ compensation costs;
         tions. In addition, the OIG, along with the
         Inspection Service, conducts investigations to         ◆    managing acquisitions and contracts;
         prevent and detect fraud, waste, abuse, and mis-       ◆    leveraging technology;
         management affecting the Postal Service. Both
                                                                ◆    improving the quality of information for
         conduct investigations that play a vital role in            making decisions;
         helping the Postal Service make improvements.
                                                                ◆    safeguarding the integrity, confidentiality,
         Work performed by the OIG and the Inspection




                         The OIG management committee: (Standing, left to right): Kirt West, Colleen
                         McAntee, Ronald Merryman, Gladis Griffith, Wayne Goleski, Ronald Stith,
                         Mary Demory and Daniel O’Rourke. (Sitting, left to right): Thomas Coogan,
                         Karla Corcoran and John Seeba.




PAGE 6   EXECUTIVE SUMMARY
    and availability of information; and                 funded the Postal Museum by $1.75 mil-
◆   balancing public service and commercial              lion over a 4-year period.
    enterprise.                                      ◆   Identifying improvements needed in the
                                                         Postal Service’s architectural and engi-
     The following highlights the accomplish-
                                                         neering design services process to track
ments of the OIG and Inspection Service under
                                                         and monitor fees and provide better
the specific subject areas:
                                                         oversight of design work.
(1) Performance focuses on the critical core         ◆   Investigating a tort claim for over
business processes needed to succeed in a com-           $1 million filed against the Postal Ser-
petitive environment. The OIG conducted 22               vice for alleged injuries resulting from an
reviews in this area, including projects that will       accident involving a postal vehicle. The
help save the Postal Service nearly $38 million          OIG investigation revealed the police
in current and future years. Some examples               report documented no apparent injuries
include:                                                 to the individual. Subsequently, the
                                                         claim was denied by the Postal Service.
◆   Concluding that the Postal Service over-
    stated demand for mail processing equip-         ◆   Investigating a $1.4 million tort claim
    ment, resulting in approximately $9 mil-             filed against the Postal Service for
    lion in excess equipment parts.                      alleged injuries resulting from a trip-and-
                                                         fall accident at a postal facility. The
◆   Identifying that eliminating mishandling
                                                         OIG investigation disclosed the individ-
    of Address Change Service mail could
                                                         ual ignored warnings from a Postal Ser-
    potentially save $14 million.
                                                         vice employee concerning a potential
◆   Discovering a Postal Service contractor              hazard.
    abandoned a trailer full of mail, delaying
                                                     ◆   Investigating a former postal employee
    delivery for over 60 days. The contractor
                                                         for defrauding the Postal Service. The
    paid damages totaling $51,000, which
                                                         employee created fictitious invoices and
    included the cost of the investigation.
                                                         forged postal documentation as part of an
◆   Disclosing a former Postal Service                   embezzlement scheme. The former
    mechanic was removed from duty after                 Postal Service employee was sentenced
    improperly receiving nearly $65,000 in               to 18 months in prison and ordered to
    payments from a Postal Service contrac-              pay over $220,000 in restitution.
    tor. The Postal Service has debarred the
                                                     ◆   Investigating six Postal Service employ-
    contractor involved in the vehicle parts
                                                         ees for misuse of government credit
    scheme for a period of 3 years.
                                                         cards. One individual pled guilty to
     The Inspection Service conducted numer-             criminal charges, and administrative
ous investigations in the area of mail theft,            action was taken against five others,
resulting in arrests of over 348 employees and           which included two removals, a demo-
almost 3,043 non-employees or contractors.               tion, a 30-day suspension, and a letter of
                                                         warning.
(2) Financial Management incorporates finan-
                                                     ◆   Participating in a joint investigation
cial opinion work, financial-related reviews,
                                                         with the Department of Justice task force
and contracting and facilities reviews. The
                                                         to uncover a fraudulent testing scheme
OIG completed 183 audits and reviews that
                                                         involving Postal Service and other gov-
identified over $13.4 million in questioned and
                                                         ernment agency underground storage
unsupported costs. In addition, the OIG com-             tanks. The investigation resulted in a
pleted 153 investigations, which resulted in             company being placed on probation and
14 convictions, 7 indictments, and $4 million            ordered to pay $1 million in criminal
in fines, recoveries, and restitutions, of which         fines and nearly $1.3 million in restitu-
$1.5 million was directed to the Postal Service.         tion, of which $245,000 will be returned
Some examples of OIG work in this area                   to the Postal Service.
included:                                            ◆   Investigating a contractor that received
◆   Determining the Postal Service over-                 an erroneous payment of nearly


                                                                                                       PAGE 7
                                        $680,000. The contractor pled guilty to            improve the safety, security, and reliabili-
                                        one count of theft of government proper-           ty of international mail products. The
                                        ty and four counts of money laundering.            Postal Security Action Group focuses on
                                        The contractor was sentenced to 78                 problems and issues affecting safety, secu-
                                        months imprisonment and 36 months                  rity and integrity of international com-
                                        probation, and ordered to pay $593,000             munication products.
                                        in restitution.
                                                                                       (4) Labor Management focuses on issues related
                                    ◆   Revealing that an individual filed a false     to workplace environment, human resources,
                                        claim against the Postal Service for a         and health care. During this reporting period,
Who determines what the OIG
                                        broken ankle sustained at a post office.       the OIG conducted 12 reviews and 102 inquiries
audits or investigates?                 The OIG’s investigation revealed a wit-        in this area, which included:
The OIG receives requests to            ness for the injured individual made false
                                        statements to federal investigators about      ◆   Disclosing that some Postal Service
conduct audits and investigations
                                        the alleged injury. The untruthful wit-            employees on the workers’ compensation
from many sources. However, the                                                            periodic rolls are at the age at which
                                        ness was indicted on two counts of mak-
OIG independently determines            ing false statements.                              some federal employees are eligible for
what it audits or investigates.                                                            voluntary retirement. Legislative reform
                                        In addition to other work, the Inspection          may allow eligible postal employees to
                                    Service reported:                                      retire under an applicable retirement pro-
                                    ◆   Revenue investigations that resulted in            gram, which may give financial relief to
                                        30 arrests and 30 successful criminal con-         the Postal Service.
                                        victions.                                      ◆   Disclosing that 2 of 18 district offices
                                    ◆   Initiating 233 employee embezzlement               reviewed had not appropriately disci-
                                        investigations, which documented losses            plined or taken action against employees
                                        of over $3.2 million.                              responsible for sexual harassment or
                                                                                           inappropriate actions or comments.
                                    (3) Technology encompasses reviews of devel-
                                    opmental systems, computer security, electron-     ◆   Finding that contracting procedures were
                                    ic commerce, and computer intrusion detec-             not always followed with a health care
                                                                                           provider.
                                    tion activities. The OIG performed nine
                                    reviews in this area. Some of the more signifi-    ◆   Determining that the Postal Service’s
                                    cant OIG activities included:                          Injury Compensation Control Office did
                                                                                           not effectively monitor death benefit
                                    ◆   Establishing that unless PostalOne! pro-           claim files, which may have resulted in
                                        gram management tracks its performance             an estimated $1.3 million in questionable
                                        in accordance with Postal Service poli-            benefits being paid to survivors.
                                        cies and ensures compliance, the project
                                        may not meet projected savings.                ◆   Disclosing that a hostile work environ-
                                                                                           ment may have existed in one district,
                                    ◆   Concluding the Postal Automated Redi-              resulting in a Postal Service supervisor
                                        rection System Phase One may not yield             being placed on a performance improve-
                                        anticipated returns on investment                  ment plan.
                                        because the study used to support the
                                        project was statistically unsound.             ◆   Determining that some managers respon-
                                                                                           sible for sexual harassment or inappropri-
                                    ◆   Revealing potential vulnerabilities on             ate actions or comments were not con-
                                        selected servers at Postal Service Head-           sidered for exclusion from the Pay for
                                        quarters that could result in a loss of con-       Performance Program.
                                        fidentiality, integrity, and availability of
                                        vital operational systems.                     ◆   Concluding that all 18 district offices
                                                                                           reviewed had adequate policies and pro-
                                        In addition to other work, the Inspection          cedures in place to prevent sexual harass-
                                    Service reported it:                                   ment.
                                    ◆   Participated in two international groups       ◆   Discovering that four individuals com-
                                        that focus on security. The International          mitted insurance fraud by filing fraudu-
                                        Affairs Group develops initiatives to              lent medical claims to a federal employ-


                         PAGE 8     EXECUTIVE SUMMARY
    ees’ health benefit program. The OIG           review related to Postal Service operations as
    participated in a joint task force to inves-   highlighted below:
    tigate false medical claims. As a result of
                                                   ◆   Finding the Postal Inspection Service has
    the joint investigation, three of the four
                                                       expended over $2.7 million on a fraud
    were ordered to pay restitution totaling
                                                       complaint system that will become
    approximately $990,000 to the victims’
                                                       redundant.
    health care plans. Two of the four indi-
    viduals were sentenced to serve a com-         ◆   Determining the Postal Service Transfor-
    bined prison term of 66 months.                    mation Plan is helpful in identifying and
                                                       addressing the challenges facing the
◆   Disclosing that two individuals were con-
                                                       Postal Service, but a comprehensive
    victed in a health care fraud scheme
                                                       implementation plan had not been final-
    involving filing false claims on behalf of
                                                       ized at the time of the audit.
    Postal Service employees. The defen-
    dants were sentenced to 9 months and                The Inspection Service conducts numer-
    21 months in prison, respectively, 3 years     ous investigations covering significant issues in
    supervised release, and were ordered to        the areas of physical security; narcotics offenses
    pay over $78,000 in restitution to the         and trafficking; child exploitation; prohibited
    victims.                                       mailings; postal burglaries; mail fraud, including
    During this period, significant Inspection     fraud against consumers, fraud against business-
Service work included the following in the area    es, and fraud against government; and money
of workers’ compensation fraud:                    laundering.

◆   Sentencing of a former Postal Service          (6) Customer Service focuses on the OIG and
    clerk to 1-year probation and restitution      the Inspection Service efforts to provide cus-
    of over $5,000 for mail fraud. As a result     tomer service, including support functions to
    of the investigation, over $21,000 in          enhance service to internal customers and
    workers’ compensation funds was recov-         Hotline operations.
    ered for the Postal Service.
                                                   (7) Organizational Dynamics focuses on the
◆   Convicting a former Postal Service letter      OIG and the Inspection Service vision, values,
    carrier on 11 counts of mail fraud and 2
                                                   culture, and diversity.
    counts of workers’ compensation fraud.
◆   Sentencing a former letter carrier in Ore-     (8) Organizational Structure focuses on the
    gon to 3 months incarceration, 3 months        OIG and the Inspection Service headquarters
    home detention, 5 years probation, and         and field structure.
    court ordered restitution of over $29,000
    for workers’ compensation fraud.
◆   Revealing a Postal Service employee
    receiving workers’ compensation was re-
    fueling company vehicles, transporting
    drivers, and driving a contract route.
    The employee resigned from the Postal
    Service, was ordered to pay over $42,000
    in restitution, sentenced to 4 months
    home confinement, 2 years probation, 50
    hours community service, and a special
    assessment of $100. In addition, the
    individual has been permanently
    debarred from receiving future workers’
    compensation benefits.
(5) Oversight of the Inspection Service and
Other Significant Activities. During this
reporting period, the OIG completed one
review of the Inspection Service and one other


                                                                                                        PAGE 9
PAGE 10   EXECUTIVE SUMMARY
Major Management Issues
Facing the Postal Service




     What is a 7-day letter?
     The Inspector General Act provides that whenever
     the Inspector General becomes aware of particularly
     serious or flagrant problems, abuses, or deficiencies
     relating to the administration of programs and
     operations of the agency, the Inspector General
     should immediately notify the head of the agency.
     The head of the agency then has seven calendar days
     to transmit the Inspector General report, including
     comments, to the appropriate committees or subcom-
     mittees of Congress.



                                                PAGE 11
                                                                                                   challenges, the OIG has independently identi-
                                              MAJOR MANAGEMENT                                     fied the following major management issues:
                                              ISSUES FACING THE                                    ◆   physical security and safeguarding the
                                              POSTAL SERVICE                                           mail;



                                              T
                                                       he Postal Service needs to identify spe-    ◆   maintaining customer confidence;
                                                       cific long-term strategies to better bal-
                                                                                                   ◆   improving financial performance and
                                                       ance its statutory mandate of providing         accountability;
                                              universal service with its need to remain a
                                                                                                   ◆   resolving workforce and workplace issues;
How does the OIG promote                      viable commercial enterprise. At stake, accord-
                                              ing to the Postal Service, is every American’s       ◆   controlling workers’ compensation costs;
open communication                            right to send and receive mail. The Postal           ◆   managing acquisitions and contracts;
throughout the organization?                  Service’s April 2002 Transformation Plan began
                                                                                                   ◆   leveraging technology;
In addition to e-mail and voice               that process. As it proceeds with transforma-
                                              tion, the Postal Service continues to face signif-   ◆   improving the quality of information for
mail, the OIG uses video telecon-
                                              icant challenges, including financial concerns,          making decisions;
ferencing, all-hands meetings,
                                              security threats, and labor management issues.       ◆   safeguarding the integrity, confidentiality,
teambuilding, and field office
                                              The Postmaster General testified before                  and availability of information; and
visits to foster communication
                                              Congress that the Postal Service’s current finan-    ◆   balancing public service and commercial
throughout the organization.                  cial situation is improving and would improve            enterprise.
                                              further with the passage of the Postal Civil
                                                                                                        These issues generally reflect the issues
                                              Service Retirement System Funding Reform
                                                                                                   the OIG has identified in past years. These
                                              Act of 2003. This Act was signed into law.
                                                                                                   major issues, their significance, and the key
                                              However, the OIG believes that the current and
                                                                                                   OIG projects addressing them are included in
                                              long-term financial prospects facing the Postal
                                                                                                   this section.
                                              Service are a critical issue that must be
                                              addressed.                                           PHYSICAL SECURITY AND
                                                   Congress is placing increased emphasis on       SAFEGUARDING THE MAIL
                                              the Postal Service due to the significant chal-           With nearly 38,000 facilities and approxi-
                                              lenges it is facing. Postal Service oversight in     mately 203 billion pieces of mail delivered each
                                              the current Congress has been raised to the full     year, the Postal Service faces the enormous
                                              committee level in the House and the Senate.         challenge of moving the mail efficiently and
                                              In the House, a bipartisan Special Panel on          economically while effectively safeguarding
                                              Postal Reform and Oversight has been estab-          postal employees, customers, and the mail.
                                              lished. The Postal Service and its stakeholders      Historically, the Postal Service has dealt with
                                              should be encouraged by the support of the           numerous disasters, both natural and man-
                                              President and Congress in addressing the future      made, which have interfered with mail delivery.
                                              of the mail.                                         However, the October 2001 anthrax attacks
                                                   The President has established a                 through the mail exposed a new danger, and led
     The President has established a
                                              Commission to examine the state of the Postal        to a renewed emphasis on the security of the
 Commission to examine the state of the
Postal Service, articulate a vision for its   Service, articulate a vision for its future, and     nation’s postal system. The OIG has reviewed
 future, and recommend legislative and        recommend legislative and administrative             the Postal Service’s response to bioterrorist
    administrative reforms needed to          reforms needed to ensure the viability of postal     attacks on the mail and plans to conduct future
 ensure the viability of postal services,     services. The OIG has submitted comments to          audits of the Postal Service’s response to the
  as reported in the Federal Times and
          The Washington Post.
                                              the Commission. The Commission plans to              biohazard attacks.
                                              complete its work in July 2003. The Postal                The Postal Service has acted to ensure the
                                              Service is presenting its specific long-term         continued physical security and safety of the
                                              strategies to better balance its statutory mandate   mail and sought new methods to detect biohaz-
                                              of providing universal service with its need to      ardous materials and sanitize the mail. The
                                              remain a viable commercial enterprise.               technological solutions include procuring new
                                                   To assist Congress, the Governors, and          equipment and changing processes that could
                                              postal management as they address these              impact the efficiency of mail processing and


                                 PAGE 12      MAJOR MANAGEMENT ISSUES FACING THE POSTAL SERVICE
staffing requirements. Regardless of technology       ◆    Assessed the efficiency, effectiveness, and
or any other improvement or expenditures, the              impact of delayed and Address Change
threat of terrorists using the mail to carry out an        Service mail.
attack can be reduced, but not eliminated. To         ◆    Assessed the effectiveness of scheduled
better protect its employees and customers, the            highway contract routes.
OIG believes the Postal Service must also             ◆    Is assessing the efficiency and effective-
reassess its facility designs, especially the ven-         ness of carrier scheduling and collection
tilation systems, maintenance practices, and               operations.
emergency response and evacuation proce-
dures. Additionally, it must continually moni-        IMPROVING FINANCIAL
tor its spending criteria to ensure that funding      PERFORMANCE AND
is available for critical life/safety projects. To    ACCOUNTABILITY
assist the Postal Service in addressing this issue,        Unlike most federal agencies, the Postal
among others, the OIG:                                Service relies essentially on its revenues, not
◆    Reviewed safety issues related to the cap-       appropriations, to fund its operations. Without
     ital freeze and the effect of the capital        adequate revenues, the Postal Service would
     freeze on the Postal Service’s ability to        have to reduce services, raise rates, or seek tax-
     maintain, preserve, and expand facilities        payer subsidies. Thus, the Postal Service needs
     as needed in an economical and effective         to meet the challenge of increasing its revenue
     manner.                                          each year to cover increasing costs.
◆    Reviewed the Postal Service’s disposal                Recent financial data indicate that the
     plans for irradiation equipment.                 Postal Service’s current financial situation is
                                                      improving compared to the prior year. For
◆    Is participating in Postal Service Mail
                                                      FY 2003, the Postal Service projects a net
     Security Task Force meetings.
                                                      income of $1 billion, compared to a net loss of
MAINTAINING CUSTOMER                                  $676 million in FY 2002. The Postal Service
CONFIDENCE                                            attributes its projected positive net income to its
      The Postal Service views its access to the      cost reduction efforts; sustained productivity
                                                      increases, particularly labor productivity; and
American household as a unique asset it can
                                                      postal rate increases that took effect in June
leverage as it faces increasing competition. To
                                                      2002. In addition, the Postal Service was able to
remain competitive, the Postal Service must be
                                                      reduce its outstanding debt by $200 million at
customer-focused and deliver the mail in a
                                                      the end of FY 2002, to approximately $11.1 bil-
timely manner and at affordable rates.
                                                      lion. The Postal Service projects it will con-
Moreover, the Postal Service needs to adapt its
                                                      tinue to reduce its debt in FY 2003 because of its
services to address changing customer needs and
                                                      projected net income. These are encouraging
a changing mailing public. In today’s market-
                                                      trends.
place, customers have more choices about how
they conduct postal transactions, transmit mes-            Increasing productivity and controlling
sages, and deliver merchandise. Increasing cus-       costs have helped the Postal Service’s financial
tomer confidence will be the key to growing           position. However, Postal Service operations
new business.                                         were compromised in some sections of the
      To effectively transition to a changing cus-    country because of the terrorist and anthrax
tomer base, the Postal Service must continue to       attacks. The administration and Congress
develop and provide products and services that        responded by providing the Postal Service over
retain relevance and value for customers with         $760 million in appropriations to secure mail
changing needs, identify efficient transporta-        and protect the health and safety of employees
tion and delivery modes, effectively schedule         and customers. In addition, the Postal Service
staff, and maximize technological options. To         recently requested $350 million more in
assist the Postal Service in addressing this issue,   FY 2004 appropriations to pay for additional
among others, the OIG:                                costs related to those events.
                                                           Similarly, additional support has come



                                                                                                            PAGE 13
                                       from Congress to assist in controlling costs. In     RESOLVING WORKFORCE AND
                                       November 2002, the Office of Personnel               WORKPLACE ISSUES
                                       Management advised the Postal Service that, if             The Postal Service has more than 850,000
                                       current funding provisions remained in place, it     full and part-time employees with personnel
                                       would pay substantially more than would be           compensation and benefits costs totaling over
                                       needed to fund its share of future benefits to       $53 billion for FY 2002. This accounts for more
                                       employees and retirees participating in the Civil    than three-quarters of the Postal Service’s total
                                       Service Retirement System. It was estimated          operating expenses. Consequently, improving
                                       that, unless adjusted, the Postal Service would      the work environment and labor relations is key
What protection exists for             pay over $70 billion more than what is needed        to maximizing the Postal Service’s operational
those who report wrongdoing            to pay retirement benefits. In April 2003, a bill    and financial performance. In an increasingly
to the OIG?                            was signed into law that reduced Postal Service      competitive environment, improving labor rela-
                                       payments to the Civil Service Retirement             tions is essential if the Postal Service is to pro-
The OIG may investigate
                                       System by about $6 billion over the next 2           vide universal service at reasonable rates.
allegations of retaliation and abuse   years. The legislation requires the Postal Service   However, past attempts to improve labor rela-
of authority. In addition, the OIG     to use the savings to pay down its $11 billion       tions have not been as successful as planned.
helps enforce regulations which        debt and hold postage rates steady until                   Future efforts to improve in these areas will
prohibit taking or threatening to      FY 2006.                                             only succeed if the Postal Service can effectively
take any action against any                 It is crucial, however, that the Postal         partner with its employees and engage them in
employee because the employee          Service’s efforts to increase productivity and       a shared vision of success. This vision must
                                       control costs continue, and, more importantly,       include eliminating any confrontational envi-
has made a complaint or disclosed
                                       prove sustainable in the long term. The Postal       ronment on the workroom floor and giving
information to the OIG, unless
                                       Service must also continue to improve its finan-     employees the freedom to raise concerns with-
the disclosure was made with a         cial operations to ensure it is accountable to the   out fear of retaliation. As the Postal Service pur-
willful disregard for its truth.       public and is providing the best possible service    sues efforts to partner with employees, it must
                                       at the lowest cost. To address this issue, the       also develop programs for recruiting, training,
                                       Postal Service continues with projects to            communicating, compensating, and rewarding
                                       replace the current general ledger, implement a      employees consistent with the Postal Service’s
                                       monthly reporting cycle, realign its fiscal year     vision for the future. In this regard, the Postal
                                       with the government fiscal year, and consoli-        Service needs to establish an effective way to
                                       date common accounting services. However,            link employees’ pay to their performance. To
                                       these efforts must go hand-in-hand with other        assist the Postal Service in addressing this issue,
                                       efforts, such as cost reduction, revenue genera-     among others, the OIG:
                                       tion, and productivity gains.
                                                                                            ◆   Reviewed sexual harassment prevention
                                            In addition to improving financial perfor-
                                                                                                programs.
                                       mance and accountability and reducing costs,
                                       growing revenues is important to assure long-        ◆   Investigated alleged reprisals against
                                       term financial viability. To assist the Postal           employees for reporting fraud, waste,
                                       Service in addressing this issue, among others,          abuse, or mismanagement.
                                       the OIG:                                             ◆   Is reviewing efforts to reduce the number
                                                                                                of grievances and the applicability of best
                                       ◆   Identified and continues evaluating
                                                                                                practices to the grievance-arbitration
                                           opportunities for the Postal Service to
                                                                                                process.
                                           recover funds from overpayments.
                                       ◆   Assessed sponsorship programs and their          CONTROLLING WORKERS’
                                           contribution to increasing revenues.             COMPENSATION COSTS
                                       ◆   Reviewed the security of the Retail Data              The Postal Service was the largest partici-
                                           Mart system.                                     pant in the Federal Workers’ Compensation
                                       ◆   Is monitoring the Postal Service’s initia-       Program and accounted for approximately
                                           tives related to financial system and            $760 million, or over one-third, of the $2.2 bil-
                                           process redesign.                                lion in total federal workers’ compensation cash
                                                                                            outlays from claims for reporting year 2002. The


                            PAGE 14    MAJOR MANAGEMENT ISSUES FACING THE POSTAL SERVICE
Postal Service’s workers’ compensation cash            tors as necessary.
outlays from claims have risen dramatically,                Over the last year, the OIG has proposed
increasing by approximately 35 percent over            numerous revisions to the Postal Service pur-
the last 3 years. This is a considerable cost for an   chasing manual, including strengthening the
agency that pays this out of operating revenues.       examination of records clause, requiring con-
Many factors have contributed to these                 tractors to have approved accounting systems,
increased costs, including the rising age of the       incorporating standard computer security provi-
Postal Service workforce; higher costs for med-        sions, and increasing the use of suspension and
ical equipment, medications, and medical treat-        debarment authority. In September 2002, the
ments; overpayments, including duplicate               Postmaster General indicated that the Postal
payments by the program administrator; and             Service should continue to make improvements
increased incidents of fraud by doctors and hos-       to its purchasing system and will consider the
pitals. To assist the Postal Service in addressing     OIG’s findings and recommendations, but
this issue, among others, the OIG:                     stressed that the Postal Service needed to main-
                                                       tain its flexibility and business discretion in this
◆    Identified factors that are contributing to
     the continued increase in workers’ com-           area. To continue to assist the Postal Service in
     pensation costs.                                  addressing this issue, among others, the OIG:

◆    Is partnering with the Department of              ◆    Conducted audits of contractor claims,
     Labor Office of Inspector General to                   proposals, and incurred cost submissions.
     review why workers’ compensation costs            ◆    Conducted investigations that led to an
     have increased.                                        increase in the number of debarments
◆    Assumed responsibility for investigating               and suspensions of postal contractors.
     all new allegations of employee workers’          ◆    Is continuing to conduct fraud awareness
     compensation fraud within the Capital                  briefings throughout the Postal Service
     Metro Area as part of a pilot program.                 to give attention to potential fraud indi-
                                                            cators.
MANAGING ACQUISITIONS AND
CONTRACTS                                              LEVERAGING TECHNOLOGY
     The Postal Service manages contracts with              The Postal Service depends greatly on
commitment values totaling over $18 billion            technology to help process the mail in the most
annually for its goods, non-transportation ser-        productive manner. Further, as the Postal
vices and facilities related reviews. The Postal       Service addresses biohazard threats, it is identi-
Service’s challenge in this area is to balance effi-   fying and deploying technology that best fits its
cient contracting practices with effective con-        operational requirements, is compatible with
trols to prevent fraud, waste, and abuse. Over         existing systems, and improves the security and
the past several years, the Postal Service has         safety of its processing operations.
progressed toward adopting purchasing prac-                 The Postal Service is working to leverage
tices consistent with best commercial practices.       technology to improve its service, productivity,
Recently, it has implemented the supply chain          and profitability. While it depends on technol-
management philosophy to further its business          ogy to deliver more than 660 million pieces of
and competitive objectives in the purchasing           mail daily to over 139 million addresses, the
process by consolidating procurements. While           Postal Service must continue to adapt to each
this practice allows for certain efficiencies and      new wave of technology quickly to maintain its
cost savings, adequate controls must be estab-         competitive position in the market. To address
lished and enforced to decrease the risk of loss       changing customer needs, the Postal Service            The Postal Service uses automation such
in the procurement area. The Postal Service            has committed resources to help ensure better          as the Postal Automated Redirection
must ensure that its supply chain management           data management, track mail piece informa-             System as part of its efforts to leverage
contracting practices are consistent with applic-                                                             technology.
                                                       tion, and improve communication between the
able laws and regulations, and increase its efforts    Postal Service and its customers.
to ensure that postal contracts contain suffi-              The large size and diversity of the Postal
cient language to pursue action against contrac-       Service’s customer base presents technological


                                                                                                               PAGE 15
          challenges and demands that solutions be sim-        nized limitations in its current general ledger
          ple, easy to use, and competitive. To be success-    system and is moving to a commercial off-the-
          ful, the Postal Service should also ensure that      shelf system that will improve support capabili-
          the corresponding cost savings projected from        ties, adapt to changing business processes, and
          technology investments are realized by effi-         support financial reporting.
          ciently redeploying the resources replaced by              Also, given the importance of data quality
          the new technology. Decisions on technology          in setting postal rates and requests to Congress
          investments should continue to be scrutinized        for appropriations for ongoing costs related to
          more closely and be based on information that        the October 2001 anthrax attacks, the Postal
          is current, accurate, and reliable. To assist the    Service must continue demonstrating to
          Postal Service in addressing this issue, among       Congress, the Postal Rate Commission, stake-
          others, the OIG:                                     holders, and the public that it is making progress
                                                               in improving the quality of its revenue, cost, and
          ◆   Reviewed the performance and costs of
              the Postal Automated Redirection Sys-            service measurements. To assist the Postal
              tem for forwarding of customers’ mail.           Service in addressing this issue, among others,
                                                               the OIG:
          ◆   Reviewed the Postal Service’s testing of
              the Human Transporter for delivery oper-         ◆   Reviewed efforts to convert financial
              ations.                                              reporting from a 28-day accounting peri-
                                                                   od to monthly reporting.
          ◆   Is reviewing several initiatives to modify
              existing automation equipment to take            ◆   Is evaluating the Retail Data system to
              advantage of new technology to improve               ensure sales data captured is accurate and
              performance.                                         used for management decision making.
                                                               ◆   Is evaluating Postal Service’s design,
          IMPROVING THE QUALITY OF                                 development, and implementation of a
          INFORMATION FOR MAKING                                   new general ledger system.
          DECISIONS
               Accurate measurement of mail delivery is        SAFEGUARDING THE INTEGRITY,
          key to improving and sustaining service perfor-      CONFIDENTIALITY, AND
          mance. Reliable data are also keys to effective      AVAILABILITY OF INFORMATION
          decision making. Data justifying the need for             Computers and electronic data are vital to
          major capital expenditures must be reliable so       the critical operations of the Postal Service. The
          that postal management can decide whether to         same factors that benefit operations—speed and
          invest in the project. Furthermore, reliable data    accessibility—also make it possible for individu-
          are needed to assess whether the project’s esti-     als and organizations to interfere with or eaves-
          mated and actual return on investment is rea-        drop on operations, possibly for purposes of fraud
          sonable and has been realized. The OIG has           or sabotage. For example, terrorist organizations
          found that the Postal Service does not ade-          could use computer networks to attack the fed-
          quately capture or track the data necessary to       eral infrastructure. Attacks that have already
          support effective decision making. For example,      occurred on both government and private
          postal managers do not always track data to          industry websites reveal the damage a computer
          determine whether they are achieving expected        security breach can inflict on brand integrity
          return on investment.                                and an organization’s revenue stream.
               Changes in technology and the business               The OIG’s work on telecommunications
          environment emphasize the need for providing         security continues to identify vulnerabilities in
          timely, accessible, relevant, and accurate data to   the security of computer equipment that are
          Postal Service decision makers. Similarly, an        being addressed by postal management. There
          effective system of accounting, financial, and       remains a continuing need to emphasize com-
          information controls is necessary for measuring      puter security throughout the Postal Service.
          financial performance. In the Postal Service, the    Furthermore, the Postal Service’s Internet ini-
          general ledger system is the core of financial       tiatives reinforced the need for increased secu-
          reporting systems. The Postal Service has recog-     rity awareness and compliance. Success in this


PAGE 16   MAJOR MANAGEMENT ISSUES FACING THE POSTAL SERVICE
area will depend on the level of protection          has been aware of and debated these challenges
afforded sites such as the Postal Service’s web-     for years, but no consensus has emerged on how
site and the programs operating on it. In addi-      the challenges should be addressed. To date,
tion, the Postal Service needs to continually        efforts at comprehensive legislative reform have
protect customer information and guarantee           been unsuccessful.
customer privacy. To assist the Postal Service in          In its Transformation Plan published last
addressing this issue, among others, the OIG:        year, the Postal Service presented its strategy to
                                                     address concerns raised by Congress, the
◆   Continues to work with the Postal Ser-
    vice Computer Incident Response Team             General Accounting Office, and others. The
    to detect, report, and respond to attacks        Plan is a good starting point, and provides infor-
    on the Postal Service’s information infra-       mation about challenges the Postal Service
    structure.                                       faces, identifies short-term actions to take under
                                                     its existing authority, and outlines long-term
◆   Performed network vulnerability assess-
                                                     strategies that require congressional action.
    ments at several critical Postal Service
    installations and reviewed security of           How the Plan will be implemented remains to
    servers at the Headquarters data center.         be seen.
                                                           The Postal Service must act decisively to
BALANCING PUBLIC SERVICE                             balance its public service obligation with its
AND COMMERCIAL ENTERPRISE                            need to remain commercially viable. Until its
     The 1970 Postal Reorganization Act              statutory framework is changed, it must work
requires the Postal Service to operate in a busi-    within existing law to increase its accountabil-
ness-like manner supported by its own rev-           ity in contracting and other major expenditures
enues. As a public agency, it is charged with        to achieve profitability in the near future. The
binding the nation together with universal mail      Postal Service must identify its core businesses
                                                                                                          An OIG review found the Postal Service
service at affordable rates. Its government status   and ensure that new products and services are
                                                                                                          had not finalized a comprehensive
carries certain advantages, such as a monopoly       self-sustaining. In short, the Postal Service must   transformation implementation plan.
on letter mail, exclusive access to customers’       continue to refine its operations under the
mailboxes, and a tax-free status. The universal      existing statutory model, while developing and
service obligation requires a significant, costly    re-defining its role under the Transformation
infrastructure to deliver postal services, but       Plan. The Postal Service cannot successfully
unlike private corporations, the Postal Service      transform itself without congressional oversight
is bound by statutory constraints that limit its     and attention, as well as a public debate about
ability to quickly adjust rates to respond to        the continued relevance of the Postal Service.
changing costs, negotiate with customers and               To assist the Postal Service in addressing
employees, develop and price new products,           this issue, among others, the OIG:
close unprofitable outlets, and generate and         ◆   Reviewed the Postal Service’s Transfor-
invest profits. The Postal Service performs a            mation Plan.
wide range of significant law enforcement
                                                     ◆   Has submitted a written statement and a
duties for the protection of the public, even in
                                                         rebuttal comment and is supporting and
cases that have no direct impact on the Postal           monitoring the work of the President’s
Service. To survive, it needs to articulate how it       Commission on the Postal Service.
will balance providing public service with its
                                                     ◆   Is examining the ratemaking process and
goal of operating like a commercial/private
                                                         mailer discounts.
enterprise in implementing strategies to meet
future service and delivery challenges.
     The dual role of the Postal Service has
become more challenging in the face of
increased competition in the delivery and com-
munication industries, especially with elec-
tronic communication steadily eroding
First-Class Mail volume. The postal community


                                                                                                            PAGE 17
PAGE 18   MAJOR MANAGEMENT ISSUES FACING THE POSTAL SERVICE
Performance Reviews




 OFFICE OF INSPECTOR GENERAL
      Accepting and Processing Reviews
      Transportation and Delivery Reviews
      Marketing Reviews
      Legislative, Regulatory & Policy Reviews

 INSPECTION SERVICE




                                             PAGE 19
                                          This section highlights audits, reviews,            through innovative automation.
                                          and investigations performed by the OIG                  During the past 6 months, the OIG con-
                                          and Inspection Service activities in the            ducted work in the areas of accepting and pro-
                                          Performance area. Report numbers are                cessing, which is highlighted below:
                                          shown in parentheses after the narrative,           MAIL PROCESSING INVENTORY
                                          as appropriate. Also, the OIG legislative,          EQUIPMENT OVERSTOCKED
                                          regulatory, and policy reviews are included               An OIG audit of inventory management of
Among the earliest legislative            at the end of this section. In order to             mail processing equipment parts and mainte-
protections for the public was the        differentiate the work reported by the OIG          nance repair operations identified approxi-
                                          and Inspection Service, the pages contain-
Mail Fraud Statute of 1872.                                                                   mately $9 million in excess spare parts and
                                          ing the activities reported by the Inspection       approximately 47,000 individual parts valued at
                                          Service have been color screened.                   about $13 million that were awaiting final dis-
                                                                                              position. The excess inventory resulted from
                                                                                              managers maintaining stock levels above
                                          OFFICE OF INSPECTOR                                 demand because estimates for initial provision-
                                          GENERAL                                             ing of spare parts were sometimes overstated.
                                                                                              The Postal Service estimated that $1.25 million


                                          T
                                                  o deliver world-class service, businesses
                                                  and government agencies must excel in       should be characterized as excess spare parts.
                                                  performing their core business processes.         In addition, the shipping and receiving
                                          For the Postal Service, these core business         department at a material distribution center
                                          processes and systems encompass accepting,          duplicated receiving operations of the central
                                          processing, transporting, and delivering the        repair facility. The Postal Service could poten-
                                          mail, as well as marketing postal products and      tially save $1.15 million over a 10-year period by
                                          services. The OIG has audit teams specializing      reassigning staff and eliminating the duplicate
                                          in these areas and has conducted expedited          receiving department. Postal Service manage-
                                          reviews of Postal Service business practices.       ment estimated that the savings would only
                                          During the past 6 months, the OIG completed         range from $152,000 to $381,000. Their esti-
                                          22 reviews of the Postal Service’s performance of   mate did not consider fringe benefits and service
                                          core business processes. The reviews identified     wide costs. Postal Service management agreed
                                          opportunities to save nearly $38 million during     with all OIG recommendations, which included
                                          current and future years.                           reevaluating authorized stock levels, developing
                                                                                              a systematic process for estimating spare parts,
                                          ACCEPTING AND PROCESSING                            and disposing of excess spare parts for end-of-life
                                          REVIEWS                                             equipment. Also, the Postal Service agreed to
                                               On average, over 660 million pieces of mail    perform a cost benefit analysis of consolidating
                                          are accepted each day by the Postal Service in a    the receiving functions. (AC-AR-03-004)
                                          variety of ways, including mail collected from
                                          more than 300,000 blue collection boxes, as         REVENUE LOST WHEN INELIGIBLE
                                          well as residential and business collection mail-   AND NONAUTHORIZED
                                          boxes. Express Mail, First-Class Mail, and some
                                                                                              ORGANIZATIONS MAIL AT
An OIG audit of inventory management
identified approximately $9 million in
                                                                                              NONPROFIT RATES
                                          Priority Mail and periodicals are sorted at more
excess spare parts.                                                                                An OIG audit of authorizations to mail at
                                          than 470 processing and distribution centers,
                                                                                              nonprofit rates found the Postal Service did not
                                          while Standard Mail is generally handled at
                                                                                              review the continued eligibility of nonprofit
                                          21 bulk mail centers. In order to ensure timely
                                                                                              mailers whose tax exempt status had been
                                          and accurate delivery of mail, accepting and
                                                                                              revoked by the Internal Revenue Service. In
                                          processing equipment must be state-of-the-art.
                                                                                              many instances, the eligibility requirements for
                                          Situations that result in delayed mail processing
                                                                                              authorization to mail at Nonprofit Standard
                                          must be vigorously evaluated and the underlying
                                                                                              Mail rates are similar to those to obtain tax
                                          causes promptly resolved. In this regard, the
                                                                                              exempt status under IRS law. Indeed, in many
                                          Postal Service continues to explore ways to
                                                                                              instances, organizations seeking eligibility to
                                          enhance the accepting and processing of mail


                                PAGE 20   PERFORMANCE REVIEWS
mail at nonprofit rates submit evidence of tax       Postal Service and are available at no cost to the
exempt status to support their application.          customer. In FY 2001, the Postal Service spent
However, other evidence of nonprofit status          over $138 million on mail product supplies. The
may accompany an application, such as a finan-       OIG found budget requests for mail product
cial statement prepared by a responsible person      supplies did not consider on-hand balances of
such as an independent certified public accoun-      specialized and standard packing supplies at dis-
tant, that demonstrates the applicant is orga-       trict postal facilities. As a result, the audit pro-
nized and operated on a nonprofit basis. For         jected that approximately $1.2 million in excess
organizations that qualify and obtain proper         standard packaging supplies and about
authorization, a reduced bulk-mailing rate is        $430,000 in excess specialized packaging sup-
available. However, the authorization to mail at     plies could be used to reduce FY 2003 mail prod-
nonprofit rates may be revoked when it is deter-     uct supply expenses.
mined an organization is no longer qualified;              In addition, the OIG found that personnel
and, a revenue deficiency may be assessed in the     in 12 of 33 districts established local product
amount of unpaid postage for the ineligible mat-     fulfillment operations to manage mail product
ter mailed at the Nonprofit Standard Mail rates.     supplies. District employees believed that by
      From January 2000 to September 2002, the       locally managing the mail supplies, they pro-
Internal Revenue Service revoked the tax             vided faster service to their customers.
                                                                                                                 An OIG review revealed that mail
exempt status of 70 organizations. The OIG           Customers were also allowed to store and pick               product supply requirements were
identified three organizations that maintained       up orders at district facilities or receive deliver-        sometimes overstated.
active authorizations to mail at nonprofit rates     ies from district supply inventories via Postal
even though their qualified status had been          Service transportation. According to Postal
revoked. The OIG found that one of the orga-         Service directives, customer orders for standard
nizations continued to mail at nonprofit rates       mail supplies should be ordered through the
for which it no longer qualified. For over 3         Express Mail and Priority Mail supply center,
years, the organization had 339 mailings total-      and orders for specialized supplies should be ful-
ing over $480,000, all mailed at nonprofit rates     filled by postal headquarters. Also, personnel in
for which it was not eligible. If the organization   7 of the 12 districts sampled estimated spending
mailed the same amount of mailings at the            over $102,000 to manage product fulfillment
Standard Mail regular rates, the Postal Service      locally in FY 2002. However, the Postal Service
would have received over $784,700 for the            was already paying a contractor to manage mail
mailings, a difference of approximately              product supplies at the national Express and
$304,000. Postal management agreed, and if           Priority Mail supply fulfillment centers.
appropriate, action will be initiated to revoke            Postal Service management agreed to
the authorization. Postal Service management         ensure that excess supplies in district offices are
also agreed to establish policies and procedures     used before purchasing additional mail product
for reviewing the continued eligibility for non-     supplies. Postal management reduced the FY
profit authorizations based on the loss of tax-      2003 budget for standard and specialized mail
exempt status and has already begun reviewing        supplies to reflect the presence of field inven-
IRS bulletins. (AC-AR-03-003)                        tory. Postal management agreed to the OIG’s
                                                     recommendation to discontinue district prod-
MAIL SUPPLY COSTS REDUCED
                                                     uct fulfillment and enforce the requirement for
BY USING EXCESS SUPPLIES
ON-HAND                                              facilities to order mail product supplies. In addi-
                                                     tion, district offices will be directed to exhaust
     An OIG review of 33 postal districts
                                                     excess inventory and enforce standard operat-
revealed that mail product supply requirements
                                                     ing procedures, which outline procedures for
were sometimes overstated. The Postal Service
                                                     customer orders and maintaining supplies.
offers standard, specialized, and customized
                                                     (AC-AR-03-002)
Priority Mail and Express Mail packaging prod-
ucts to its customers. These products include
envelopes, boxes, mailing labels, and tape.
These packaging products are purchased by the


                                                                                                            PAGE 21
                                        POSTAL SERVICE FACES                                  Because carriers, clerks, and drivers feared dis-
                                        CHALLENGES IN MANAGING                                ciplinary action for late delivery of Express
                                        TOTAL FACTOR PRODUCTIVITY                             Mail, they used the manual function to avoid
                                              An OIG review of data used in the Postal        scanning and reporting late deliveries. As a
                                        Service’s total factor productivity model found       result, delivery times for Express Mail were
                                        it was appropriate and consistent with pub-           sometimes incorrect. Also, employees used
                                        lished data. Specifically, the data used in the       manual entries to save time and avoid poten-
                                        model was consistent with financial informa-          tially late delivery of Express Mail. District
                                        tion reported in the Postal Service’s financial       management was not aware of the excessive use
                                        statements and economic indices used were             of manual entries or the entry of inaccurate
                                        appropriate. However, despite significant capi-       delivery data. District managers stated they
                                        tal investments, the Postal Service’s productiv-      neither possessed a “no-failure policy” nor
                                        ity gains fluctuated and were less than that          encouraged the recording of inaccurate deliv-
                                        realized by the private sector. Factors con-          ery data. To address these issues, Postal Service
                                        tributing to the fluctuation and lower produc-        management informed all personnel of the
                                        tivity gains included the Postal Service’s focus      appropriate use of manual entries. Postal man-
                                        on service instead of cost management, limits         agers also distribute weekly ranking reports that
An OIG review found some employees      on its ability to adjust labor resources, and fail-   are reviewed to compare performance to other
used manual entries on Express Mail                                                           districts. (AC-AR-03-005)
                                        ure to fully realize expected returns on some
scanners to avoid reporting late
deliveries.                             capital investments.                                  REDUCING WORKHOURS COULD
                                              The OIG noted that for fiscal years 2000        SAVE OVER $588,000
                                        and 2001, the Postal Service increased its focus
                                                                                                   An OIG audit revealed a reduction of work
                                        on cost management and reduced labor hours,
                                                                                              hours in three bulk mail centers could save over
                                        capital investments, and material expenditures.
                                                                                              $588,000. Inefficiencies in accepting business
                                        These efforts contributed to a combined
                                                                                              mailings at the three sites existed because man-
                                        3.7 percent gain in productivity. Subsequent to
                                                                                              agers did not periodically reevaluate staffing lev-
                                        the OIG review, the Postal Service also
                                                                                              els to improve productivity, and business mail
                                        achieved an approximately 1 percent gain in
                                                                                              entry technicians performed duties that should
                                        productivity in FY 2002. The OIG recom-
                                                                                              have been accomplished by dock personnel.
                                        mended the Postal Service proactively manage
                                                                                              The OIG recommended and Postal Service
                                        costs to increase total factor productivity within
                                                                                              management agreed to reduce work hours,
                                        current laws and regulations. In addition, the
                                                                                              reevaluate staffing needs periodically to deter-
                                        OIG recommended the Postal Service educate
                                                                                              mine whether further reductions are necessary,
                                        its stakeholders on the need for additional flex-
                                                                                              and ensure appropriately trained personnel per-
                                        ibility to provide universal and public service at
                                                                                              form acceptance functions. (CQ-AR-03-001)
                                        a reasonable cost. Postal management agreed
                                        with the recommendations and concluded the            COST SAVINGS FROM
                                        OIG review recognized the challenges faced in         CONSOLIDATION OF
                                        maintaining productivity gains in the future.         RECOVERY CENTERS
                                        (AC-AR-03-001)                                             In response to a congressional request, the
                                                                                              OIG reviewed the procedures for closing,
                                        EXPRESS MAIL TRACKING                                 obtaining real savings, and honoring obligations
                                        SYSTEM SCANNING PROCESS                               for employee placement related to the closure of
                                        NEEDS IMPROVEMENT
                                                                                              a mail recovery center located in the Pacific
                                             An OIG review of the Express Mail prod-
                                                                                              Area. The review revealed there is potential for
                                        uct tracking system revealed that the process
                                                                                              savings by consolidating operations, and the
                                        used to measure and report delivery perfor-
                                                                                              Postal Service honored its obligations to reas-
                                        mance data was adequate. However, the OIG
                                                                                              sign employees to new positions. However, the
                                        noted that an excessive amount of Express Mail
                                                                                              OIG found the Postal Service needed to
                                        delivery data for the New York metro district
                                                                                              develop policies and procedures to ensure the
                                        was entered manually and was not included in
                                                                                              proper analysis and notifications are performed
                                        the performance data reported in the system.


                              PAGE 22   PERFORMANCE REVIEWS
to document, verify, and support a consolida-         mail to 38,000 post offices and to 139 million
tion and/or closure decision. Postal manage-          addresses. To transport and deliver the mail, the
ment did not agree to develop policies and            Postal Service utilizes contractors and a fleet of
procedures, stating it has no plans to consoli-       over 200,000 owned vehicles and employs a
date the remaining two mail recovery centers.         combination of air, surface, rail, and water
However, the Postal Service agreed to develop a       modes. In addition, the Postal Service has an
standard operating procedure that could be used       agreement with Federal Express to transport
should further consolidation of mail recovery         Express, Priority, and First-Class Mail. Over
centers take place. (OE-MA-03-002)                    350,000 carriers delivered approximately
                                                      203 billion pieces of mail in FY 2002—an aver-
COMMERCIAL CHANGE-OF-
                                                      age of about 1,400 pieces of mail for every
ADDRESS SERVICES OFFER
NUMEROUS ADVANTAGES                                   household and business. The Postal Service is
                                                      challenged to increase efficiency in the trans-
     In response to a request from the Postal
                                                      portation and delivery area because mail vol-
Service, the OIG reviewed commercial Internet
                                                      ume has not grown sufficiently in recent years to
companies offering change-of-address services.
                                                      support the extension of the delivery network
This review explored three options under con-                                                              An OIG review of the Postal Service’s
                                                      needed to cover the growth in the number of
sideration by the Postal Service. Regarding                                                                Voyager card program found that
                                                      delivery points, which grew by 1.8 million in FY
Option 1, the OIG found using the commercial                                                               cards were left in open areas,
                                                      2002. As part of its work in this area, the OIG      unattended vehicles, and safes
change-of-address services offered the Postal
                                                      reviewed and raised issues on a transportation       without restricted access.
Service numerous advantages, including avoid-
                                                      agreement; discussions are ongoing with postal
ing costs, increasing revenue, and improving
                                                      management. During the past 6 months, the
customer service. However, the review found
                                                      OIG issued 13 transportation and delivery-
potential drawbacks in the areas of privacy,
                                                      related products, which are highlighted below:
security, and risks to the Postal Service’s busi-
ness reputation. Regarding Option 2, the review       WEAKNESSES IN THE VOYAGER
disclosed that by not accepting change-of-            CARD PROGRAM
address information from commercial sources,                An OIG review of the Postal Service
the Postal Service could reduce its risk of pro-      Voyager card program at a District in the
cessing inaccurate address change information.        Southwest Area revealed these cards, used for
Regarding Option 3, the review disclosed that         fuel purchases and vehicle maintenance, were
informing the commercial companies they were          not adequately protected from improper, fraud-
violating Postal Service policy was not viable        ulent, and questionable use. Specifically, cards
because the companies were operating within           were left in open areas, unattended vehicles,
postal policy. Recognizing it is ultimately a         and safes without restricted access, and were
Postal Service management decision, the OIG           also shared among vehicles. Master personal
concluded the Postal Service should consider          identification number lists were open to unau-
utilizing commercial Internet companies’              thorized review. Personal identification num-
change-of-address services as they provide the        bers were written on receipts. The numbers
greatest advantages with the fewest drawbacks.        were also written on receipts. The OIG review
Furthermore, it offered the opportunities to cut      also identified categories of questionable trans-
costs, increase revenue, and improve customer         actions and found site managers did not prop-
service. (OE-MA-03-003)                               erly file or reconcile receipts. Consequently, the
                                                      Postal Service potentially paid unauthorized or
TRANSPORTATION AND
DELIVERY REVIEWS                                      erroneous charges, and its Voyager card program
     Transportation and delivery of mail are a        was vulnerable to fraud. Postal management
vital part of the Postal Service’s mission of bind-   agreed with the OIG’s recommendations and
ing the nation together by providing prompt,          has taken steps to review questionable transac-
reliable, efficient, and universal mail delivery at   tions and provide a uniform process for ensuring
affordable rates. The Postal Service spent over       that personnel follow the physical, administra-
$30 billion in FY 2002 to transport and deliver       tive, and accounting controls specified for the
                                                      Voyager card program. (TD-AR-03-003)


                                                                                                             PAGE 23
                                           MORE TRAILERS LEASED THAN                             mended and postal management agreed to take
                                           NEEDED                                                corrective actions to enforce compliance with
                                                An OIG audit, conducted in response to a         federal and lease contract safety requirements,
                                           congressional request, determined the Postal          and ensure that contract noncompliance would
                                           Service leased more trailers than needed to           result in administrative action against its con-
                                           transport mail and equipment, resulting in at         tractors. (TD-AR-03-001 and TD-VR-03-001)
                                           least $2.2 million in unnecessary annual trans-       INCREASED EFFICIENCIES IN
                                           portation costs. The audit found that the Postal      ADDRESS CHANGE SERVICE MAIL
                                           Service used the leased trailers to store on-site     COULD POTENTIALLY SAVE $14
                                           equipment instead of using them to transport          MILLION
                                           mail and equipment. Over each of the past 4                An OIG audit concluded that from
                                           years, the Postal Service sold its own trailers for   September 2000 through July 2002, 80 percent
                                           $500, instead of using them for the storage of        of Address Change Service mail was processed
                                           equipment. Further, the OIG identified oppor-         properly. However, the audit found that the
                                           tunities for the return of excess mail transporta-    Postal Service unnecessarily spent more than
                                           tion equipment to service centers instead of          $20 million because employees manually
                                           storing it in leased trailers. The OIG recom-         returned 20 percent of mail instead of notifying
                                           mended and postal management agreed to                mailers electronically. The mail was returned
                                           reassess all mail transport equipment and trailer     manually because Postal Service policies were
                                           requirements; explore alternatives for storing        outdated, performance data was not fully ana-
                                           equipment and make better use of Postal               lyzed, and employees were not fully trained. The
                                           Service-owned warehouse facilities. The Postal        audit also forecast that the Postal Service could
An OIG review found safety and mainte-
nance concerns with the Postal Service’s   Service stated they were returning 300                save about $14 million over the next 2 years if
fleet of 40-foot trailers.                 unneeded trailers to the suppliers, which will        these issues were corrected.
                                           save $1.1 million annually. Postal Service man-            Postal management questioned the esti-
                                           agement stated that any further reduction             mated monetary impact and the validity of the
                                           would impact operations. However, they are            findings based on how the program works.
                                           taking additional actions that may result in a        However, the OIG’s findings were based on an
                                           further reduction in the number of trailers.          analysis of how the program operates and the
                                           (TD-MA-03-001)                                        monetary impact was based on reported Postal
                                                                                                 Service performance data, error rates identified
                                           SAFETY AND MAINTENANCE
                                           CONCERNS FOR 40-FOOT                                  in official Postal Service documents, and cost
                                           TRAILERS                                              factors published by the Postal Rate
                                                An OIG review found that the existing 40-        Commission. Postal management has identified
                                           foot trailer fleet is not maintained in accordance    actions planned or taken that will address all
                                           with federal or contract safety standards. These      OIG recommendations which included devel-
                                           40-foot trailers average more than 25 years in        oping training materials for supervisors and
                                           age. The audit found that service was not per-        employees to ensure that Address Change
                                           formed on the trailers and, consequently, pre-        Service mail is properly handled, and ensure that
                                           ventative maintenance was not accomplished.           Postal Service managers at all levels routinely
An OIG audit found the Postal Service      In addition, maintenance and repair documents         analyze available Address Change Service per-
manually returned 20 percent of mail       were not recorded or retained. These deficien-        formance data and use that information to pro-
with Address Change Service instead        cies occurred because the Postal Service did not      vide feedback to local post offices on Address
of notifying mailers electronically.                                                             Change Service performance.
                                           enforce contract maintenance requirements.
                                           Since maintenance and repair activities were          (TD-AR-03-004)
                                           not performed as required, many trailers had          TRAILER LOADED WITH MAIL
                                           deficiencies, which made them unsafe or unfit         ABANDONED BY CONTRACTOR
                                           for service. For example, these trailers, repre-          A trailer of mail en route from Oregon to
                                           senting only 55 percent of the total trailer fleet,   Montana was not delivered for over 60 days
                                           accounted for more than 77 percent of the trail-      because the driver abandoned the trailer with
                                           ers that were out of service. The OIG recom-


                                PAGE 24    PERFORMANCE REVIEWS
the mail still inside. The Postal Inspection          mail that was 5 to 6 weeks old. The review
Service referred this case to the OIG because         revealed the mail was not deliverable as
the contractor was paid for delivery services         addressed and consisted of First-Class return-to-
that were not provided. The OIG investigation         sender mail and Address Change Service mail.
identified numerous violations of the con-            The undeliverable mail was not processed on a
tracted services to deliver the mail. The con-        daily basis and was delayed and accumulated to
tractor paid damages totaling $51,000 which           unacceptable levels. An OIG follow-up review,
included the cost of the investigation.               performed two months later, found that condi-
                                                      tions had improved, but more than 9,000 pieces
CONTRACTOR DEBARRED IN
                                                      of mail remained backlogged. Postal Service
VEHICLE PARTS SCHEME
                                                      management agreed with OIG recommenda-
     A Postal Service mechanic was removed
                                                      tions to take necessary actions to reduce the
from duty after receiving over $65,000 in pay-
                                                      mail backlog and prevent reoccurrence.
ments from a company under contract to pro-
                                                      (TD-MA-03-002)
vide parts for Postal Service vehicles. The
mechanic advised the Postal Service to pur-           CANCELLING UNNECESSARY
chase parts from a company in which the               HIGHWAY CONTRACT TRIPS
employee and spouse had a financial interest.         COULD RESULT IN SAVINGS
The postal mechanic took vehicle parts that                 Three OIG audits revealed the Postal
belonged to the Postal Service, cleaned them,         Service could save about $2.4 million by can-
and then resold them to the Postal Service as         celing unnecessary trips between mail process-
new parts. The contractor was debarred for 3          ing facilities. The trips could be terminated
years.                                                because trip volume was low and mail could be
                                                      consolidated on other trips without negatively
VEHICLE INVENTORY CONTROL                             affecting service. Specifically, processing facili-
WEAKNESSES IDENTIFIED
                                                      ties in the Northeast, Capital Metro, and New
     An OIG review of the vehicle mainte-             York Metro Areas could terminate 84 unneces-
nance facility in a Postal Service district           sary trips, and mail could be consolidated on         An OIG audit found inefficiencies existed
revealed that officials did not properly account                                                            because the Postal Service underutilized
                                                      other trips without negatively affecting service.     trucks, and drivers performed
for its fleet of delivery vehicles and could not      Postal Service managers agreed to eliminate 46        overlapping work.
validate the need to supplement postal-owned          trips, but disagreed with eliminating the
vehicles with a fleet of leased vehicles. Officials   remaining 38 trips, stating this would reduce
were not properly using the Vehicle                   operational flexibility. However, postal manage-
Management Accounting System or maintain-             ment agreed to reassess the remaining 38 trips
ing accurate, timely, or complete information,        and will cancel trips as necessary and document
and, therefore, could not always identify or take     reasons for retaining other trips.
appropriate action in accounting for vehicles.        (TD-AR-03-002, TD-AR-03-007, and
In addition, officials did not have adequate or       TD-AR-03-008)
complete information to determine require-
ments for leased vehicles. The OIG recom-             PURCHASING TRAILERS COULD
mended and postal management agreed to take           POTENTIALLY SAVE MILLIONS
corrective actions to inventory its fleet of                An OIG audit found that the Postal
vehicles, properly use the vehicle management         Service could save $4 million by purchasing
accounting system, and properly analyze the           1,500 trailers instead of leasing them, and con-
requirements for leased vehicles.                     cluded management was planning to lease the
(TD-AR-03-005)                                        trailers because they did not follow the analyti-
                                                      cal and approval procedures required by Postal
DELAYED MAIL OBSERVED AT                              Service policy. Consequently, the OIG recom-
SOUTHWEST AREA OFFICE
                                                      mended that postal management prepare a
     An OIG review of a Southwest Area office         decision analysis report, which included a
disclosed approximately 20,000 pieces of              required lease versus buy analysis, and submit it
delayed mail. The OIG observed accumulated            to the Board of Governors for approval. Postal



                                                                                                              PAGE 25
          management did not agree that a decision             POSTAL SERVICE’S INVOLVEMENT
          analysis report and Governors’ approval were         IN SPONSORSHIPS NEEDS
          required. Also, they stated their analysis con-      IMPROVEMENTS
          cluded the benefit of contracting instead of pur-          An OIG audit of the Postal Service’s
          chasing would be over $10 million, but this          involvement in sponsorships found no signifi-
          analysis was not performed in accordance with        cant exceptions with sponsorship expenditures,
          existing policy. Postal management acknowl-          but disclosed it has not managed them effec-
          edged that this acquisition was part of a national   tively. Specifically, the Postal Service was
          trailer lease and is conducting additional analy-    unable to track or verify revenue directly back
          ses that will address these issues. When com-        to a particular event or sponsorship. The OIG
          pleted, the OIG will review the results. The         also found the Postal Service lacked goals and
          OIG is pursuing the disagreements through the        objectives for some sponsorships and did not
          audit resolution process. (TD-AR-03-009)             manage tickets and invitations appropriately.
                                                               As a result, the Postal Service could not deter-
          MAIL TRANSPORTATION
                                                               mine its return on sponsorship investments,
          INEFFICIENCIES FOUND IN
          PACIFIC AREA                                         measure the effectiveness of its sponsorships,
                                                               and take advantage of networking opportunities
                An OIG audit determined that inefficien-
                                                               to generate revenue.
          cies existed in a network for transporting mail
                                                                     The OIG found no laws or policies pre-
          between stations in the Pacific Area.
                                                               cluding the Postal Service from being involved
          Specifically, the audit found letter carriers and
                                                               in sponsorships. However, in response to media
          postal vehicle service drivers performed overlap-
                                                               coverage and public policy debate on sponsor-
          ping work, underutilized truck capacities, and
                                                               ships, the OIG believes it is critical for the
          failed to consolidate routes. For example, of 13
                                                               Postal Service to justify use of sponsorships.
          trucks observed departing the facility over a 2-
                                                               Furthermore, the Postal Service needs to weigh
          day period, 7 trucks were filled to one-half
                                                               its involvement in sponsorships in light of its
          capacity and 3 trucks were filled to three-quar-
                                                               monopoly status, financial condition, invest-
          ter’s capacity. In response to OIG’s recommen-
                                                               ment returns, and core mission.
          dation to determine available options to reduce
                                                                     Postal management agreed with the OIG’s
          unnecessary costs for bulk mail transportation,
                                                               recommendations to identify and track all costs
          postal management agreed to conduct further
                                                               associated with each sponsorship initiative;
          comprehensive cost analysis, ensure cost com-
                                                               ensure data is captured to track sales, leads, and
          parisons follow labor agreement guidelines and
                                                               monetary benefits directly related to sponsor-
          address employee reassignment issues.
                                                               ships; and ensure sponsorships have specific and
          (CQ-MA-03-001)
                                                               measurable goals and objectives and update the
          MARKETING REVIEWS                                    policy to include this requirement. In response
               The Postal Service operates in a globally       to OIG’s recommendation to formally appoint
          competitive environment and its ability to           one executive with responsibility for the overall
          maintain or increase its market share of the         management of the sponsorships program, the
          $900 billion mailing industry is essential to pro-   Postal Service, while disagreeing, stated that this
          viding universal service at affordable rates.        would be accomplished by the Headquarters
          Therefore, the Postal Service designs its mar-       marketing department. (OE-AR-03-003)
          keting products and services to build customer
                                                               LEGISLATIVE, REGULATORY &
          awareness and loyalty. The Postal Service also       POLICY REVIEWS
          wants to ensure its services are available at             During this reporting period, the OIG
          places where customers choose to do business.        identified legislation, regulations, and policies
          During this reporting period, the OIG con-           affecting Postal Service performance. One piece
          ducted work in the area of marketing, which is       of legislation reviewed is highlighted below:
          highlighted below:




PAGE 26   PERFORMANCE REVIEWS
ENACTED LEGISLATION
Executive Order No. 13278 —
President’s Commission on the United
States Postal Service
     This executive order established a presi-
dential commission to examine the state of the
United States Postal Service. The Commission
will prepare and submit a report to the President
articulating a proposed vision for the future of
the Postal Service and recommending legisla-
tive and administrative reforms needed to
ensure the Postal Service’s viability. In fulfilling
its mission, the Commission was asked to con-
sider the following: (1) the role of the Postal
Service in the 21st century and beyond; (2) the
flexibility the Postal Service should have to
change prices, control costs, and adjust service
in response to financial, competitive, or market
pressures; (3) the rigidities in cost or service that
limit the efficiency of the postal system; (4) the
ability of the Postal Service, over the long term,
to maintain universal mail delivery at affordable
rates and cover its unfunded liabilities with
minimum exposure to taxpayers; (5) the extent
to which postal monopoly restrictions continue
to advance the public interest under evolving
market conditions, and the extent to which the
Postal Service competes with private sector ser-
vices; and (6) the most appropriate governance
and oversight structure for the Postal Service.
     The OIG believes the Commission will
generate debate on ways to transform the Postal
Service and ensure its continued viability and
relevance into the 21st century. The OIG sub-
mitted a formal written comment to the
Commission highlighting the 10 major man-
agement issues the OIG believes must be
addressed if the Postal Service is to remain a
viable commercial enterprise. The OIG empha-
sized that as the Postal Service works to trans-
                                                        An OIG audit disclosed the Postal
form itself for the future, it must rely on
                                                        Service’s management of sponsorships
performance management principles to mea-               needs improvement.
sure progress and inject accountability into pro-
grams and operations. The OIG continues to
monitor Commission activities and review pub-
lic comments and testimony and has offered
technical assistance to the Commission.




                                                         PAGE 27
          INSPECTION SERVICE
               Mail thieves frequently concentrate on tar-
          gets that offer a large volume of mail including
          not only items of obvious value in the mail, such
          as jewelry, computers, cash, credit cards, and
          checks, but also mail containing personal and
          financial information. Postal Inspectors investi-
          gate mail theft to maintain the public’s confi-
          dence in the Postal Service and preserve the
          sanctity of the mail. Postal Inspectors are work-
          ing with major mailers to prevent mail theft and
          related problems. While the overwhelming
          majority of Postal Service employees work con-
          scientiously to move the nation’s mail to its
          proper destination, a small number of employees
          abuse the public’s trust. It is the job of the
          Inspection Service to identify these individuals
          and take steps to have them prosecuted and
          removed from the Postal Service. The following
          chart provides the activity during this reporting
          period.


          TYPE OF INVESTIGATION     ARRESTS CONVICTIONS
          Non-Employee Mail Theft     3,043         2,465
          Employee Mail Theft          348            307




PAGE 28   PERFORMANCE REVIEWS
Financial Management
Reviews




 OFFICE OF INSPECTOR GENERAL
      Financial Opinion Audits
      Financial-Related Reviews
      Contracting and Facilities Reviews
      Legislative, Regulatory & Policy Reviews

 INSPECTION SERVICE




                                             PAGE 29
                                     This section highlights audits, reviews,              OIG has completed 183 financial management
                                     and investigations performed by the OIG               reviews and 153 investigations. These efforts
                                     and the Inspection Service in the financial           identified over $13.4 million in questioned and
                                     management area. Report numbers are                   unsupported costs. These projects add value to
                                     shown in parentheses after the narrative,             the Postal Service by identifying opportunities
                                     as appropriate. Also, the OIG legislative,            for cost savings and improving financial man-
                                     regulatory, and policy reviews are included           agement, contracting, and facilities practices,
                                     at the end of this section. In order to dif-          and detecting and deterring fraud, waste, abuse,
Why does the OIG report              ferentiate the work reported by the OIG               and mismanagement.
                                     and Inspection Service, the pages contain-            FINANCIAL OPINION AUDITS
all of its findings and issues       ing the work reported by the Inspection
                                                                                                 The Postal Reorganization Act of 1970
to the Governors and                 Service have been color screened.
                                                                                           requires an annual audit of the Postal Service’s
Congress?                                                                                  financial statements. The OIG conducts audits
The OIG is required by law to                                                              in support of the independent public account-
                                     OFFICE OF INSPECTOR                                   ing firm’s overall opinion on those statements.
keep the Governors and
Congress fully and currently
                                     GENERAL                                               These audits assess the integrity and reliability
                                                                                           of the financial information contained in the

                                     T
informed. The OIG also reports                he Postal Service continues to face one
                                              of the most challenging financial peri-      Postal Service financial statements. The
its findings and issues to Postal                                                          Information Technology and Accounting
                                              ods in its history. The year began with a
Service management so that they      focused plan to reduce costs, increase efficiency     Service Centers in Eagan, Minnesota; St. Louis,
may take appropriate action to       and improve service. As a result, and despite the     Missouri; San Mateo, California; and at Postal
further improve the efficiency       effects of the recession and the terrorist attacks,   Service Headquarters in Washington, DC,
and effectiveness of Postal          the Postal Service closed the year with a loss        oversee the collection of over $66 billion in rev-
Service programs and operations.     that was almost $700 million below original           enue and the recording and disbursement of a
                                     projections. The actions taken by the Postal          similar amount each year. Since its inception,
                                     Service in FY 2002 have laid a foundation for         the OIG has served as co-contracting officer’s
                                     savings in 2003 and beyond, setting the stage for     representative with Postal Service Finance for
                                     achievement of the Transformation Plan goal to        the work performed by the independent public
                                     take $5 billion in costs out of the system by the     accounting firm. However, beginning in
                                     end of 2006. As evidence, the Postal Service is       FY 2003, the OIG is the sole contracting offi-
                                     projecting a net income of about $1 billion in        cer’s representative. Examples of reviews in this
                                     FY 2003. In addition, in the near term the            area are highlighted below:
                                     Postal Service will seek moderate legislative         ◆     The OIG conducted audits at these cen-
                                     reform that will support the Postal Service’s               ters and headquarters and found that
                                     ability to provide affordable universal mail ser-           management’s policies, accounting proce-
                                     vice. Legislation has already been passed that              dures, and internal controls conformed
                                     would permit the Postal Service to reduce its               with generally accepted accounting prin-
                                     payments to the Civil Service Retirement                    ciples. However, the OIG identified the
                                     System. A recent analysis conducted by the                  following areas for improvement:
                                     Office of Personnel Management found that, at             ◆ independently tracking and accounting
                                     present funding rates, the Postal Service could             for consigned vehicle parts;
                                     overfund its liability by $71 billion. The legisla-       ◆ maintaining documentation confirming
                                     tion will permit the Postal Service to substan-             receipt of goods ordered electronically;
                                     tially reduce its debt and hold postage rates
                                                                                               ◆ processing compensation payments in
                                     steady until at least 2006, while protecting the
                                                                                                 accordance with established internal
                                     benefits of current and future retirees covered by
                                                                                                 controls; and
                                     this retirement system.
                                           The Postal Service relies on strong finan-          ◆ entering data for and extending the
                                     cial management controls to maximize revenue                record retention period of inbound inter-
                                     and minimize costs. In the past 6 months, the               national mail.



                           PAGE 30   FINANCIAL MANAGEMENT REVIEWS
     Postal Service management generally               available, the reconciliations were not per-
     agreed with OIG recommendations to                formed. As a result, there was no assurance that
     improve all of these areas.                       bulk fuel managed by the facility was properly
     (FT-AR-03-006, FT-AR-03-007, and                  used or that the inventory accounting system
     FT-AR-03-008)                                     properly reflected the available fuel on hand.
◆    The OIG reviewed travel and represen-             Postal management agreed to reconcile bulk
     tation miscellaneous expenses for Postal          fuel inventories each accounting period and
     Service officers, as well as, travel and mis-     train another individual as a backup for per-
     cellaneous expenses for the Office of the         forming reconciliations. (FT-AR-03-005)
     Board of Governors for the year ending
     September 30, 2002. The reviews deter-            FINAL WRAP-UP OF FY 2002
     mined expenses were properly supported            FINANCIAL INSTALLATION
     and complied with postal policies and             AUDITS
     procedures and Board of Governors’                     The OIG wrapped-up its FY 2002 financial
     guidelines. (FT-AR-03-002 and FT-AR-              installation audits at 76 facilities and found
     03-003)                                           financial information was reasonably and fairly
                                                       represented in the accounting records, and
FY 2003 FINANCIAL                                      internal controls were generally in place and
INSTALLATION AUDITS                                    effective. However, at two facilities, the OIG
      The OIG conducted audits at 61 postal            found accounting records were not reasonably
                                                                                                             Pictured above and below:
facilities and found financial information was         and fairly represented and internal controls          The OIG conducted audits at 137
reasonably and fairly represented in the               were not in place and effective. Specifically, the    postal facilities and found financial
accounting records, and internal controls were         OIG found an overage in the accountability of         information was reasonably and
generally in place and effective. However, at          over $7,000 and an unauthorized cash reserve of       fairly represented in the accounting
one facility, the OIG found financial transac-         over $22,000. Also, the OIG was unable to             records.
tions were not reasonably and fairly repre-            obtain documentation to support transactions
sented, and internal controls for vending              totaling over $300,000 posted in FY 2002 at a
accountability were not in place and effective,        philatelic station. In addition, at 72 facilities,
resulting in a shortage of over $15,000. In addi-      the OIG identified non-compliance with Postal
tion, at 51 facilities, the OIG identified non-        Service instructions and minor internal control
compliance with Postal Service instructions            weaknesses. Postal management agreed to
and minor internal control weaknesses. The             improve all of the areas. (For specific reports see
OIG issued individual reports to address these         Appendix A, pages 100-102)
issues and will issue a summary report providing            In addition, the OIG issued five capping
Postal Service management with recommenda-             reports to summarize systemic issues identified
tions to address systemic issues. (For specific        during the FY 2002 financial installation audits.
reports see Appendix A, pages 102-103)                 The reports contained issues related to stock
                                                       destruction committee composition; contract
BULK FUEL INVENTORIES NOT
ACCOUNTED FOR AT A WESTERN                             postal units; inactive accounts; suspense items;
AREA VEHICLE MAINTENANCE                               stamp and cash accountability procedures; and
FACILITY                                               mail acceptance, verification, and clearance
      During the FY 2002 financial statement           procedures. Postal Service management agreed
audits, the OIG performed testing at four vehi-        with OIG recommendations to improve all of
cle maintenance facilities that contained bulk         the areas. (FF-AR-03-141, FF-AR-03-142,
fuel inventories. Of the four facilities tested, the   FF-AR-03-146, FF-AR-03-155 and
OIG found that one facility did not properly           FF-AR-03-156)
account for inventories of bulk fuel because it        FACILITY PROTECTIVE REVIEWS
did not conduct reconciliations every account-
                                                           The OIG has instituted a Facility
ing period as required. This occurred because
                                                       Protective Review program to provide critical
only one employee performed fuel inventory
                                                       coverage to small Postal Service facilities. The
reconciliations. When the employee was not
                                                       benefits of the program include:


                                                                                                               PAGE 31
                                          ◆   Providing a systematic method for identi-       withholdings, employer contributions, and
                                              fying and reviewing problems at local           enrollment information for health benefits, life
                                              offices;                                        insurance, and retirement. In a review of three
                                          ◆   Providing valuable and timely feedback          randomly selected pay periods, the OIG found
                                              to local and headquarters-level manage-         two employees properly elected life insurance
                                              ment; and                                       coverage, but Postal Service personnel did not
                                          ◆   Identifying nationwide audits by develop-       update the life insurance codes to reflect the
                                              ing trends of problems at local facilities.     proper election. As a result, the premiums for
                                                                                              optional coverage were never withheld from the
                                               Areas of coverage during the protective
                                                                                              employees’ paychecks and the optional insur-
                                          audits include asset accountability, employee/
                                                                                              ance coverage, totaling almost $130,000, was
                                          customer service, information systems security,
                                                                                              not provided for the past 7 and 17 years, respec-
                                          and compliance with laws and regulations.
                                                                                              tively. Human resource office representatives
                                          FINANCIAL-RELATED REVIEWS                           agreed to research the records and make appro-
                                               Financial-related reviews examine areas        priate corrections.
                                          that have significant financial implications and         Further, the OIG found a miscommunica-
                                          offer the Postal Service an opportunity to save     tion between the Office of Personnel
                                          resources. The OIG has taken a proactive            Management and the Postal Service resulted in
                                          approach to identify areas that offer potential     an overpayment of approximately $325,000 in
                                          cost savings and improve postal operations. In      funds transferred for inactive health plans. This
An OIG audit determined the               the past 6 months, the OIG has completed            information was provided to the Office of
Postal Service overfunded                                                                     Personnel Management and required no man-
                                          20 financial-related audits. Some significant
the Postal Museum by $1.75                                                                    agement action. However, the Office of
million over a 4-year period.             reviews are highlighted below:
                                                                                              Personnel Management agreed to provide guid-
                                          POSTAL MUSEUM OVERFUNDED                            ance for clarification on adjustments for the
                                          BY $1.75 MILLION                                    inactive health plans. The OIG intends to fol-
                                               An OIG audit, conducted at the request of      low-up on these issues during its FY 2003
                                          the Board of Governors, revealed the Postal         review. (FT-AR-03-001)
                                          Service overfunded the Postal Museum by
                                          $1.75 million over a 4-year period. The audit       CORPORATE CONTACT
                                          found the mechanism for establishing the            MANAGEMENT PROGRAM
                                                                                              OVERFUNDED
                                          museum’s budget as specified in the agreement
                                          was not followed and the Postal Service had no           An OIG follow-up audit of the Corporate
                                          recourse in the event of Smithsonian’s nonper-      Contact Management Program found the
                                          formance other than to withhold funding. The        Postal Service does not need the level of fund-
                                          OIG recommended and postal management               ing approved and program managers did not
                                          agreed to examine the possibility of recovering     always involve external stakeholders or define
                                          the $1.75 million overpayment. In addition,         key requirements in the development of the
                                          postal management agreed that the current sys-      program’s strategy. In addition, the audit dis-
                                          tem for calculating financial contributions to      closed the Postal Service did not always initiate
                                          the museum is unclear and needs to be cor-          or update security reviews for the Corporate
                                          rected. Further, postal management agreed the       Contact Management systems. The OIG rec-
                                          current arrangement is outdated and needs to        ommended management determine how to
                                          be revised to better protect the interests of the   accurately reflect and report the current
                                          Postal Service. (FT-MA-03-001)                      Corporate Contact Management program to
                                                                                              the Board of Governors; immediately include
                                          OIG VERIFIES POSTAL SERVICE                         information security officials and contact center
                                          EMPLOYEE WITHOLDINGS AND                            managers in the integration and consolidation
                                          EMPLOYER CONTRIBUTIONS                              strategy; and obtain written input regarding any
                                             An OIG review, conducted in response to          issues raised concerning contract proposals
                                          a request by the Office of Personnel                before awarding any contracts. Postal manage-
                                          Management, verified Postal Service employee        ment should also complete and update


                                PAGE 32   FINANCIAL MANAGEMENT REVIEWS
applicable external contact centers’ informa-           medical attention for alleged injuries
tion security assurance reviews. While postal           until nearly a year after the accident and
management disagreed with the OIG’s four rec-           the claimant had already been paid by an
ommendations, actions taken or planned are              insurance company for the damages.
responsive to the intent of the recommenda-         ◆   An OIG investigation resulted in a $1.4
tions and should correct the issues identified in       million cost avoidance in a lawsuit
the audit. (OE-AR-03-001)                               against the Postal Service involving an
                                                        individual who allegedly tripped and fell
OIG INVESTIGATIVE EFFORTS                               over a steel mat at a postal facility. The
ASSIST CIVIL CLAIMS AGAINST                             individual claimed numerous injuries and
THE POSTAL SERVICE                                      requested reimbursement for medical
     The OIG assists the Postal Service in              expenses and pain and suffering resulting
reducing civil claims by working with the Postal        from the alleged injuries. The OIG inves-
Service Law Department and United States                tigation, which included a comprehensive
Attorney Offices to conduct investigations into         review of the documents filed in the case
tort claims filed against the Postal Service.           and interviews of the witnesses to the
These investigations often result in significant        accident, revealed the medical report did
reductions in the initial claim amount. During          not substantiate the claim that all of the
the past 6 months, the OIG has closed 24 tort           individual’s injuries were caused by the fall.
claim investigations and reported significant           In addition, the investigation disclosed
activity on the following cases:                        the individual ignored the warnings of a
                                                        maintenance person at the facility, and
◆   An OIG investigation resulted in a $1.2                                                              The OIG assists the Postal Service Law
                                                        certain events took place after the fall         Department and United States Attorney
    million cost avoidance in a lawsuit                 that contradicted the documentation              Offices by conducting investigations into
    against the Postal Service. The individual          filed by the individual.                         tort claims filed against the Postal
    claimed serious personal injuries to self                                                            Service. For example, OIG investigations
                                                    ◆   An OIG investigation resulted in the
    and a family member when the individ-                                                                have saved the Postal Service money by
                                                        indictment of a witness for making false
    ual’s vehicle struck an embankment and a                                                             uncovering false claims resulting from
                                                        statements in connection with a friend’s         accidents with postal vehicles.
    utility pole while attempting to avoid a
                                                        lawsuit against the Postal Service for a
    head-on collision with a rural postal car-
                                                        broken ankle sustained at a Nebraska
    rier. The OIG’s investigation cast consid-
                                                        post office. The individual sought
    erable doubt on the credibility of the
                                                        $100,000 in damages.
    claimant. The investigation revealed the
    individual had previously filed numerous
    insurance claims for the same injuries
                                                    FY 2003 OBSERVATIONS OF
                                                    STATISTICAL TESTS FOR THE COST
    claimed in this accident. It was also dis-
                                                    AND REVENUE ANALYSIS
    covered that the claimant had been
    arrested and was facing several criminal             The OIG performed cost and revenue
    charges, including insurance fraud. In          analysis audits in nine districts and found that,
    addition, the OIG arranged for an inde-         generally, the tests were conducted in accor-
    pendent expert analysis of the claimant’s       dance with Postal Service procedures. However,
    vehicle. This analysis determined that the      employees did not always adhere to instructions
    claimant was not wearing a seatbelt at the      for data collection, equipment use, and tele-
    time of the accident.                           phone readings in five districts. The OIG issued
◆   As a result of an OIG investigation, the        individual reports to address these issues and
    Postal Service Law Department denied            will issue a summary report providing Postal
    an Idaho individual’s claim for over            Service management with recommendations to
    $1 million for injuries allegedly suffered      address systemic issues. (For specific reports see
    during an accident with a Postal Service        Appendix A, page 104)
    vehicle. The OIG investigation revealed
    the police report completed at the scene
    determined there were no apparent
    injuries at the time of the accident. In
    addition, the individual had not sought


                                                                                                           PAGE 33
                                        FORMER POSTAL SERVICE                               such as automated teller machine withdrawals
                                        EMPLOYEE SENTENCED FOR                              and a car rental. The amounts involved ranged
                                        FRAUD                                               from $1,600 to $3,000. One individual pled
                                             A former Postal Service employee was sen-      guilty in federal court to misappropriation of
                                        tenced to 18 months in prison and ordered to        over $3,000 in postal funds; sentencing is pend-
                                        pay over $220,000 in restitution for defrauding     ing. The Postal Service took administrative
                                        the Postal Service. The OIG investigation dis-      actions against the other five, including two
                                        closed that from July 1997 to May 2000, the for-    removals, a demotion, a 30-day suspension, and
                                        mer postal employee created fictitious orders       a letter of warning.
                                        and forged signatures of Postal Service officials
                                                                                            CONTRACTING AND FACILITIES
                                        to create the appearance that goods and services    REVIEWS
                                        had been delivered as invoiced. To accomplish            The Postal Service manages contracts with
                                        the scheme, the former Postal Service employee      commitment values totaling over $18 billion
                                        rented a post office box under a false name and     annually for its goods, non-transportation
                                        received funds from fictitious invoices, and        services, and facilities related reviews.
                                        deposited the funds into personal bank              Consequently, this makes the Postal Service
                                        accounts.                                           one of the largest civilian contracting agencies
                                        INDIVIDUAL INDICTED FOR MAIL                        in government. During the first half of FY 2003,
                                        FRAUD ON INDEMNITY CLAIM                            Postal Service purchases included over
                                             As a result of an OIG investigation, an        $189 million in noncompetitive contracts and
                                        individual was indicted and charged with one        more than $170 million in purchase credit card
                                        count of mail fraud. The OIG’s investigation        transactions. The Postal Service is also one of
                                        began after a Postal Service clerk in the           America’s largest owners, developers, and man-
                                        Northeast Area provided information about an        agers of real estate, committing over $135 mil-
The OIG conducted investigations        individual who filed an indemnity claim for         lion for repair, renovation, and construction of
of allegedly fraudulent indemnity       coins worth approximately $5,000 not received.      new facilities, and paying over $414 million in
claims.                                                                                     rent for the first half of FY 2003.
                                        OKLAHOMA INDIVIDUAL                                      The OIG is responsible for contract audits
                                        INDICTED FOR NINE COUNTS OF                         designed to assist Postal Service contracting
                                        MAIL FRAUD
                                                                                            officers in determining fair and reasonable con-
                                              An OIG investigation revealed that an         tract prices as well as providing them with
                                        Oklahoma individual defrauded the Postal            reviews of contractor financial systems. In the
                                        Service by submitting false indemnity claims for    past 6 months, the OIG conducted 21 reviews
                                        approximately $5,400 and supporting them            of contracting and facilities-related issues with
                                        with altered sales receipts. The individual was     the assistance of a contract audit agency. Also,
                                        indicted by a federal grand jury for 6 counts of    the OIG has many open criminal investigations
                                        false statements and 9 counts of mail fraud. The    targeting fraud and corruption in these areas.
                                        false indemnity claims were submitted for           Highlights of some contracting and facilities
                                        international mail that was reported as             reviews follow:
                                        damaged, missing contents, or undelivered.
                                                                                            CONTRACT AUDITS IDENTIFY
                                        OIG WORKS WITH POSTAL                               OVER $11.7 MILLION IN
                                        SERVICE TO ADDRESS ABUSES                           QUESTIONED COSTS
                                        OF GOVERNMENT-ISSUED CREDIT
                                                                                                 In the past 6 months, the OIG worked
                                        CARDS
                                                                                            with the Defense Contract Audit Agency and
                                             The OIG is partnering with the Postal
                                                                                            completed 13 audits of contracts valued at over
                                        Service to identify employees and former
                                                                                            $150 million. These audits resulted in over
                                        employees who abused their government credit
                                                                                            $11.7 million in questioned and unsupported
                                        cards. During this reporting period, the OIG
                                                                                            costs. The contract audits primarily include:
                                        investigated six individuals for misuse of their
                                                                                            incurred cost audits that evaluated the reason-
                                        government credit cards. The unauthorized pur-
                                                                                            ableness of costs incurred by contractors; pro-
                                        chases on the credit cards were for personal use,


                              PAGE 34   FINANCIAL MANAGEMENT REVIEWS
posal audits that evaluated the reasonableness          ing questioned costs represented labor
of contractor cost estimates; and defective pric-       hours that could not be supported or
ing audits performed to determine whether con-          were within the scope of the contract,
tract prices significantly increased because of         tasks that were separately negotiated or
contractor pricing data that was not accurate or        already paid, indirect rates not based on
complete. These audits are summarized in the            actual costs, and warranty costs improp-
graph in the margin and focus on whether con-           erly claimed as delay costs. The contrac-
                                                        tor may also have included costs for tasks
tractors’:
                                                        within the scope of contract, and over-
◆   Proposed and incurred costs were allow-             time hours were included in the claim.        What is the Mail Fraud
    able and reasonable; and                            Due to these significant inadequacies,        Statute?
◆   Pricing data were accurate, complete,               the OIG did not consider the claim to be
                                                                                                      The Mail Fraud Statute contained
    and current.                                        acceptable as a basis for the settlement of
                                                        a fair and reasonable price.                  in Title 18 of the United States
    The following is a summary of seven signif-         (CA-CAR-03-006)                               Code, Section 1341, makes it a
icant contract audits completed in the last 6
                                                    ◆   A review of a contractor’s $82 million        criminal violation to use the U.S.
months:
                                                        firm fixed price proposal revealed ques-      Mail or the services of any private
◆   An audit of a contractor’s $34 million              tioned costs of nearly $4.5 million,          or commercial carrier to carry out
    fixed price incentive firm-target type              including unsupported costs of about
                                                                                                      a fraudulent scheme.
    contract disclosed the contractor over-             $765,000. Questioned costs were primari-
    stated purchased parts per unit cost                ly due to application of a decrement fac-
    because it was not using data that were             tor to proposed direct material costs and
    accurate, complete, and current as of the           warranty costs proposed separately from
    date of the agreement price. The con-               the warranty rate. Unsupported costs
    tractor contended that a reduction in the           were the result of the contractor not pro-
    per unit price for material costs occurred          viding auditable documentation to sup-
    at negotiations. However, the contractor            port certain proposed transportation
    did not use the lower material per unit             costs. The audit also disclosed certain
    price in its final priced bill of materials.        activities that may achieve future sav-
    There was no evidence available of the              ings. Therefore, the OIG recommended
                                                                                                      Types and Number of Contract
                                                                                                      Audits Completed
    contractor making the Postal Service                a downward only savings clause be
    aware of the lower price either at or               included in the contract. Furthermore,
    before the date of agreement on price. As           the contractor’s forward pricing overhead
    a result, the audit recommended a price             rates are subject to certification by the                    3              3
    adjustment of about $344,000 including              Department of Defense. If certification is                INCURRED      PROPOSALS
                                                                                                                  COSTS
    associated burdens and profits.                     not obtained, then a price adjustment
    (CA-CAR-03-002)                                     will be executed. (CA-CAR-03-010)
◆   An audit of a contractor’s $10.5 million        ◆   A review of a contractor’s equitable
    firm fixed price proposal resulted in ques-         adjustment claim for contracts for post                3                4
    tioned costs of nearly $249,000. The                office buildings questioned costs on near-           CLAIMS           OTHERS
    audit disclosed issues regarding rates and          ly the entire claim amount of $5 million.
    allocation factors that could yield addi-           The majority of questioned costs repre-
    tional questioned costs. Therefore, the             sented lost profits because the contractor
    OIG recommended the conclusion of                   incorrectly based its computations on
    negotiations be postponed until these               gross profits. In addition, unabsorbed        The OIG completed 13 audits of contracts
    issues are considered, or a downward                overhead was questioned in its entirety       valued at over $150 million.
    adjustment clause be inserted into the              because the contractor did not experi-
    contract. (CA-CAR-03-004)                           ence it in total for the period of perfor-
◆   An audit of a contractor’s $1.6 million             mance in the contracts. Furthermore, the
    claim for delay disclosed questioned costs          contractor did not provide sufficient doc-
    of about $1.1 million. The majority of              umentation to support labor costs.
    the questioned costs represent a lack of            (CA-CAR-03-011)
    supporting documentation for claimed
    costs from two subcontractors. Remain-

                                                                                                        PAGE 35
                                         ◆   An audit of a contractor’s $15.5 million          of the heating, ventilation, and air conditioning
                                             firm fixed price proposal for the prepro-         system was not included as part of the overall
                                             duction and field test phase of a biohaz-         expansion project. Instead, it was funded as a
                                             ard detection system program disclosed            separate project.
                                             questioned costs of nearly $1.5 million                The OIG recommended postal manage-
                                             and unsupported costs of over $470,000.           ment establish and implement a policy to track
                                             Questioned costs were primarily due to            design fees and to monitor them on a regular
                                             the application of a decrement factor to
                                                                                               basis for reasonableness. The OIG also recom-
                                             proposed purchased parts and subcontract
                                                                                               mended management strengthen internal
                                             costs based on vendor quotes. In addi-
                                                                                               process controls over design services, and revise
                                             tion, direct material costs based on engi-
                                             neering estimates were questioned                 policies and procedures to require cost or pricing
                                             because the contractor was unable to pro-         data audits when negotiating architectural and
                                             vide sufficient documentation. The audit          engineering contract services. Finally, the OIG
                                             also disclosed certain activities that may        suggested postal management complete a modi-
                                             achieve future savings. Therefore, the            fication to the Decision Analysis Report for
                                             OIG recommended a downward only                   replacement of the heating, ventilation, and air
                                             savings clause be included in the con-            conditioning system and present it to the Board
                                             tract. The contractor’s forward pricing           of Governors for approval. The Postal Service
                                             overhead rates are subject to certification       generally agreed with the OIG’s recommenda-
The OIG reviewed the Postal Service’s        by the Department of Defense. If certifi-         tions and initiated or planned appropriate
disposition plans for irradiation            cation is not obtained, then a price
equipment.                                                                                     actions to address them. (CA-AR-03-001)
                                             adjustment will be executed.
                                             (CA-CAR-03-012)                                   DISPOSITION PLANS FOR
                                                                                               ACQUIRED IRRADIATION
                                         ◆   A review of a contractor’s labor practices
                                                                                               EQUIPMENT NEED TO BE
                                             revealed they required corrective action          DEVELOPED
                                             to improve reliability of the contractor’s
                                                                                                    In response to the anthrax attacks,
                                             labor accounting system. Specifically, the
                                             OIG found numerous instances in which             Congress passed legislation to assist the Postal
                                             employee time charges could not be veri-          Service in protecting its employees and cus-
                                             fied. In addition, the audit raised con-          tomers from exposure to hazardous material.
                                             cerns regarding sufficiency of documenta-         The Postal Service entered into a contract in
                                             tion to ensure time was charged to the            October 2001 and purchased eight electron
                                             proper cost objective. The contractor             beam systems for $30 million to sanitize the
                                             concurred with the recommendations for            mail. However, Postal Service engineering offi-
                                             corrective action. (CA-CAR-03-009)                cials later determined the systems would not
                                                                                               meet requirements and decided not to use the
                                         ARCHITECTURAL AND                                     eight irradiation systems. Senior Postal Service
                                         ENGINEERING DESIGN SERVICES                           officials approved a plan to transfer two electron
                                         PROCESS CAN BE IMPROVED                               beam systems to the National Institute of
                                              An OIG audit of architectural and engi-          Standards and Technology; however, they had
                                         neering design fees disclosed that the Postal         not developed plans for disposing of or transfer-
                                         Service had no system or criteria to track and        ring the remaining six electron beam systems.
                                         monitor these fees, and that deficiencies existed     Postal Service management agreed with the
                                         in the architectural and engineering design ser-      OIG’s recommendations to transfer or dispose of
                                         vices. Overall, postal management has limited         the remaining six systems. (CA-MA-03-006)
                                         visibility or control over architectural and engi-
                                         neering design work, which increases the risk
                                         that the Postal Service may pay additional,
                                         unnecessary, or duplicate costs, or that the prod-
                                         uct may not satisfy Postal Service requirements.
                                         In addition, a review of project files at a Pacific
                                         Area air mail center revealed that replacement


                               PAGE 36   FINANCIAL MANAGEMENT REVIEWS
POSTAL SERVICE HAS                                    material. These investigations help ensure that
GENERALLY MANAGED                                     the financial interests of the Postal Service are
RESTRAINTS IMPOSED BY THE                             protected. In some instances, these investiga-
CAPITAL FREEZE                                        tions result in significant recoveries and
      An OIG audit determined the Postal              improve the safety of employees and customers.
Service has generally managed the restraints          During the past 6 months, the OIG has
imposed by the capital freeze by implementing         reported significant activities in this area, some
several major initiatives to maintain, preserve,      of which are highlighted below:
and expand facilities in the short-term. These        ◆   As part of a Department of Justice
initiatives included: implementing a nation-              national task force, the OIG investigated
wide process to allow exceptions for projects             a contractor concerning alleged fraudu-
that met criteria for life/safety emergencies and         lent testing of underground storage tanks.
legal requirements; monitoring the expendi-               The investigation involved analyzing mil-
tures of capital construction funds by requesting         lions of company records and conducting
area officials determine their highest priority           surveillance at 89 sites, 33 of which were
construction projects; and using modular trail-           postal facilities. The OIG investigation
ers and consolidating or moving routes to alle-           disclosed the company charged the Postal
viate overcrowding in the Western Area.                   Service and other government agencies
However, the OIG is concerned that long-term              for storage tank testing that was inade-
continuation of the capital freeze will con-              quate or never performed. The investiga-
                                                          tion resulted in 10 criminal convictions.           The OIG reviewed the impact of
tribute to deteriorating Postal Service facilities,                                                           the capital freeze on construction
difficulty in providing needed space for high             The company was placed on probation
                                                                                                              projects.
                                                          and ordered to pay a $1 million criminal
growth areas, safety issues, rising construction
                                                          fine and restitution of nearly $1.3 mil-
costs, and delaying the upgrading of facilities for
                                                          lion, of which over $245,000 will be
accessibility for individuals with disabilities.
                                                          returned to the Postal Service.
      The OIG recommended Postal Service
management continue to resolve the specific           ◆   An OIG investigation discovered a waste
                                                          disposal contractor did not reimburse the
issues identified in the report and, as funding
                                                          Postal Service for rebates on services pro-
becomes available, reprioritize projects accord-
                                                          vided to the contractor by local recycling
ing to life/safety, emergencies, and legal require-
                                                          companies. A Postal Service manager
ments. Postal Service management agreed to
                                                          provided rebate documentation to the
continue to emphasize the need to maintain                OIG investigator. As a result, the waste
assets and address life and safety issues, emer-          disposal contractor reimbursed over
gencies, and legal requirements. They have also           $229,000 to the Postal Service.
expanded the criteria for facilities-related
                                                      ◆   As the result of an OIG investigation,
spending to include asset maintenance, areas of
                                                          the Postal Service and a construction
high growth, and significant space deficiencies.          contractor agreed to settle disputes and
Postal management already had been address-               mutually release all claims under the
ing and will continue to address specific safety          Contract Dispute Act. According to
issues identified in this report, and the OIG will        the mutual agreement, an insurance
continue to actively pursue resolution of these           company will release over $107,000 to
items. (CA-MA-03-007)                                     the Postal Service from a performance
                                                          bond issued to the construction compa-
OIG CONTRACTOR
                                                          ny. The contractor has been debarred for
INVESTIGATIONS TARGET
                                                          a 3-year period.
FRAUD AND CORRUPTION
     The OIG conducts investigations relating         ◆   An OIG investigation of a trucking
to the Postal Service’s contracting and facilities        contractor, a husband and wife team in
                                                          Delaware, who presented false claims for
areas. These investigations target contractors
                                                          payments, resulted in the contractor
who have attempted to defraud the Postal
                                                          agreeing to pay over $54,000 to the
Service by submitting false invoices, performing
                                                          Postal Service. The trucking contractor
poor work, or using substandard construction


                                                                                                           PAGE 37
                                               defrauded the Postal Service by submit-          to share ownership of their mailing with com-
                                               ting false claims for extra service miles,       mercial printing and mailing businesses and still
                                               which had not been driven.                       qualify for the nonprofit mailing rate. In effect,
                                           ◆   The OIG conducted an investigation               it would permit these organizations to mail at
                                               after receiving information from the             nonprofit rates whether they prepare the mail-
                                               Postal Service about a $680,000 erro-            ing themselves or hire someone else to do it for
                                               neous payment to a contractor. The               them, since the purpose of the mailing remains
                                               investigation disclosed the contractor was       a nonprofit one. The bill maintains existing fed-
The money order system was                     mistakenly paid for services that were           eral law that prohibits unauthorized parties from
                                               performed by another contractor. The             using the nonprofit rate to sell goods or services
developed primarily to provide
                                               contractor was contacted to repay the            by mail. Moreover, the legislation does not limit
a safe means for Union soldiers                amount but fled to New Zealand. The              the Postal Service’s authority to enforce any
and their families to exchange                 OIG coordinated with the Department of           other section of federal postal law.
money through the mail during                  Justice and New Zealand authorities to
                                                                                                      The bill is similar to legislation introduced
the Civil War.                                 apprehend and extradite the contractor
                                                                                                in the last Congress. The current bill adds a sec-
                                               to the United States. The contractor
                                                                                                tion defining when a contractual relationship
                                               pled guilty to one count of theft of gov-
                                               ernment property and 4 counts of money           between a nonprofit organization and a com-
                                               laundering. The contractor was sen-              mercial entity will be deemed a conflict of inter-
                                               tenced to 78 months imprisonment and             est, which creates a presumption against
                                               36 months probation, and ordered to pay          eligibility for reduced rates. There is also a pro-
                                               fines and restitution totaling over              vision in the new legislation that would protect
                                               $593,000.                                        the Postal Service from legal action to recover
                                           ◆   The OIG participated on a joint investi-         the cost of postage paid on mail matter sent
                                               gation involving two subcontractors pro-         before the date of enactment.
                                               viding photocopying and printing ser-                  The OIG has examined the Postal Service’s
                                               vices to a prime Postal Service contrac-         cooperative mailing rules and the financial
                                               tor. The subcontractors were providing           impact of such legislation. The OIG contends
                                               kickbacks to employees of the prime con-         there will be minimal financial impact from this
                                               tractor for favorable treatment and paid         legislation.
                                               the employees of the prime contractor
                                               more than $1.3 million in kickbacks. As          H.R. 5702 – Privatization of the U.S.
                                               a result of the investigation, both subcon-      Postal Service
                                               tractors were indicted for conspiracy to              This bill would convert the operations of
                                               defraud the United States and for filing         the Postal Service into a private corporation.
                                               false individual tax returns.                    The legislation would direct the President to
OIG special agents worked with the                                                              submit to Congress: (1) a comprehensive plan
Department of Justice and New Zealand      LEGISLATIVE, REGULATORY &                            providing for the transfer of property subject to
authorities to apprehend and extradite     POLICY REVIEWS                                       this Act; and (2) recommendations for legisla-
to the United States a postal contractor        During this reporting period, the OIG           tion as necessary. The bill would establish the
who received an erroneous payment of       identified legislation, regulations, and policies    Postal Privatization Commission to carry out
$680,000. The contractor used the
                                           affecting Postal Service financial management.       functions relating to the transformation of the
funds to purchase the above items.
                                           Legislation reviewed is listed below:                Postal Service into a private corporation.
                                                                                                     Similar measures have been introduced in
                                           PROPOSED LEGISLATION
                                                                                                previous sessions of Congress, but have not
                                           S. 631 – A Bill to Amend Title 39,                   reached a floor vote. The OIG believes the
                                           United States Code, with respect to                  Postal Service is a vital and sustainable organi-
                                           Cooperative Mailings                                 zation that can evolve to meet changing times,
                                                This legislation is intended to clarify ambi-   given prudent, adaptable management practices
                                           guities in the Postal Reorganization Act of          and continued independent oversight.
                                           1970, which established a nonprofit mail rate
                                           for charitable and benevolent organizations.
                                           The legislation would allow these organizations


                                PAGE 38    FINANCIAL MANAGEMENT REVIEWS
ENACTED LEGISLATION                                  This periodic examination could lead to better
                                                     services that could save costs for the Postal
Public Law 108-18 – Postal Civil                     Service.
Service Retirement System Funding
Reform Act of 2003
     This act lowers the Postal Service’s
payments to the Civil Service Retirement Fund
by about $6 billion over FY 2003 and FY 2004.
It requires the Postal Service to use the bulk of
the savings from the reduction to pay down its
debt, but also encourages it to use a portion of
the savings to fund retiree health care costs.
     The law alters the formula used to deter-
mine the size of annual payments to the Civil
Service Retirement Fund. The fund has earned
higher than expected yields on pension invest-
ments in government securities, and as a result,
the Postal Service has been overfunding the
retirement program. However, the Postal
Service’s contributions to the fund could not
have been scaled back without the passage of
this legislation. Even with passage of this bill,
there still remains other long-term costs the
Postal Service will have to address, such as
increasing workers’ compensation costs, retiree
health care costs, reducing long-term debt, and
the potential cost associated with removing the
                                                                                                      The Postal Civil Retirement System
freeze on capital expenditures.
                                                                                                      Funding Reform Act of 2003 lowers the
H.R. 1360 – A Bill to Amend Certain                                                                   Postal Service’s payments to the Civil
                                                                                                      Service Retirement Fund.
Provisions of Title 39, United States
Code, Relating to Transportation of
Mail
     This bill would amend statutes pertaining
to the transportation of mail to prohibit the
Postal Service from directly or indirectly dictat-
ing how, when, or where its contractors pur-
chase services, supplies, fuel, and equipment.
The bill also eliminates the annual limit on
mail transportation contracts.
     The OIG believes this legislation would
inhibit the Postal Service’s ability to obtain the
best rate for goods and services. If the Postal
Service is able to negotiate a favorable price on
certain services and supplies, it should have the
power to direct its contractors to use these ven-
dors in order to minimize costs to the Postal
Service. Eliminating the annual expiration on
mail transportation contracts could also be
detrimental, because the annual expiration
forces the Postal Service to reconsider its con-
tractor selection process and costs incurred.


                                                                                                        PAGE 39
                                                                                             ◆   A former postmaster from West Virginia
                                         INSPECTION SERVICE                                      was sentenced to 6 months in prison; 2


                                         W
                                                      ithin the financial management             years supervised release and ordered to
                                                      area, the Inspection Service per-          pay over $67,000 in restitution for
                                                      forms revenue investigations to            embezzling postal funds. The Inspection
                                         help ensure that Postal Service revenue is prop-        Service investigation discovered unac-
                                         erly assessed and collected. Priority is given to       counted postage sales and post office box
                                         investigations of alleged schemes to avoid pay-         rentals over $166,000. The court ordered
                                                                                                 restitution was equal to the amount of
                                         ment of postage and to identify, pursue, and seek
                                                                                                 the postmaster’s retirement contributions.
                                         prosecutive actions against violators through
                                         civil, administrative, and criminal remedies.       ◆   As a result of an Inspection Service
                                              Postal Inspectors focus on revenue investi-        investigation, a former sales and service
                                         gations where there is intent by a customer to          associate in Texas was sentenced to 9
                                         defraud the Postal Service. In the last 6 months,       months in prison, 2 years supervised
                                                                                                 release and ordered to pay over $28,000
                                         there were 30 arrests and 30 successful criminal
                                                                                                 in restitution for embezzling postal funds.
                                         convictions resulting from revenue investiga-
                                                                                                 Legitimate postage sales were voided and
                                         tions.
                                                                                                 more than $41,000 in stamp stock short-
                                              Further, the Inspection Service investigates       ages were found. In addition, retail trans-
                                         embezzlements involving employee theft from             actions were not entered in the terminal
                                         cash drawers and schemes involving postal               and excess funds were converted for per-
                                         money orders. Postal Inspectors initiated               sonal use. The amount of restitution was
                                         233 investigations of employee embezzlements            based on the retail data presented as part
The Postal Inspection Service provides   this reporting period, which documented losses          of the prosecution’s report.
assurance to postal customers for the
“sanctity of the seal” in transmitting
                                         of over $3.2 million. Examples of investigations    ◆   A postal manager from the U.S. House of
correspondence and messages.             in this area are summarized below:                      Representatives Post Office pled guilty to
                                         ◆   A former Florida sales and service associ-          mishandling treasury checks. The con-
                                             ate was sentenced to 5 years probation              gressional staff used the treasury checks
                                             and over $29,000 in restitution for steal-          to reimburse the House Post Office for
                                             ing postal funds. Postal Inspectors discov-         vouchers they used to purchase postage
                                             ered the individual failed to input                 stamps and services. Money orders were
                                             Express Mail and Priority Mail transac-             issued in the manager’s name using the
                                             tions into the POS One terminal and                 treasury checks and postal funds were
                                             converted the funds for personal use.               converted to personal use. The failure to
                                                                                                 properly account for cash transactions
                                         ◆   As the result of an investigation, a former
                                                                                                 was disclosed in the Inspection Service
                                             South Carolina postmaster was sentenced
                                                                                                 investigation. The investigation revealed
                                             to 10 months in prison, 3 years probation
                                                                                                 the manager embezzled more than
                                             and ordered to pay over $39,000 in resti-
                                                                                                 $200,000 over a period of 5 years. The
                                             tution for stealing postal funds. Postal
                                                                                                 manager pled guilty and repaid $150,000.
                                             Inspectors discovered the individual had
                                             been kiting money orders, and under-
                                             reporting money order sales as well as
                                             failing to report sales.
                                         ◆   A former Philadelphia postal clerk pled
                                             guilty to misappropriating postal funds.
                                             The investigation disclosed a failure of
                                             separation of duties. The clerk consoli-
                                             dated financial records and prepared
                                             bank statements with minimal supervi-
                                             sion that enabled the individual to
                                             embezzle $129,000.




                               PAGE 40   FINANCIAL MANAGEMENT REVIEWS
Technology Reviews




   OFFICE OF INSPECTOR GENERAL
        Developmental Reviews
        Information Systems Reviews
        eCommerce Reviews
        Computer Intrusion Investigation Activities
        Legislative, Regulatory & Policy Reviews

   INSPECTION SERVICE




                                               PAGE 41
                                                                                                    OIG reviews have covered developmental
                                        This section highlights audits, reviews,
                                                                                              systems, information systems, electronic com-
                                        and investigations performed by the OIG
                                                                                              merce, and computer intrusion detection activ-
                                        and summarizes Inspection Service activi-
                                                                                              ities. In the past 6 months, the OIG performed
                                        ties in the technology area. Report num-
                                                                                              9 reviews in the technology area, some of which
                                        bers are shown in parentheses after the
                                                                                              are highlighted below:
                                        narrative, as appropriate. Also, the OIG
                                        legislative, regulatory, and policy reviews           DEVELOPMENTAL REVIEWS
                                        are included at the end of this section. In                The Postal Service develops business sys-
                                        order to differentiate the work reported by           tems and mail processing equipment to improve
                                        the OIG and Inspection Service, the page              performance, enhance service, and reduce oper-
                                        containing the activities reported by the             ating costs. The typical development process
                                        Inspection Service has been color                     begins with the identification of a business
                                        screened.                                             need. After the business need has been identi-
                                                                                              fied, a solution is developed, followed by the
                                                                                              proof of concept and first article tests and final
                                       OFFICE OF INSPECTOR                                    deployment. The OIG understands the impor-
                                       GENERAL                                                tance of reviewing these systems as they are
                                                                                              developed and has completed three audits of


                                       T
                                               he Postal Service recognizes that tech-        major projects currently under development
An OIG audit established that unless           nology is key to productivity and afford-      during the reporting period. These reviews are
PostalOne! program management tracks           ability. Through technology, the Postal        highlighted below:
its performance in accordance with     Service handles more than 660 million pieces of
Postal Service policies and ensures                                                           POSTALONE! BUSINESS PROCESS
compliance, the project may not meet   mail every day and maintains its network of
                                       nearly 38,000 post offices and facilities. Its tech-   IMPROVEMENTS NEEDED
projected savings.
                                       nology strategy is to provide convenient and                At the request of postal management, the
                                       secure access to all customers on a daily basis        OIG reviewed the PostalOne! Phase Two
                                       through increasingly sophisticated retail sys-         Business Customer Support System and
                                       tems, expansion in new electronic access chan-         Transportation Management. The PostalOne!
                                       nels, and electronic linkages that integrate           Phase Two Business Customer Support System
                                       customer and postal processes. In addition, the        provides electronic capabilities between large
                                       Postal Service is using modern technology, such        business mailers and the Postal Service for
                                       as USPS.com, Signature Confirmation™,                  induction of mail. As part of Phase Two,
                                       MoversGuide Online.com, and eBillPay™.                 Transportation Management was approved and
                                       These initiatives will improve and build on its        added. This system scans mail tray labels, cap-
                                       existing services and relationships with cus-          tures weight information, and assigns mail via
                                       tomers and continue meeting traditional cus-           air or surface at the business mailers’ facilities
                                       tomer demands.                                         while      interfacing       with     Surface-Air
                                            The September 11, 2001, terrorist attacks         Management System for mail transportation
                                       demonstrated how the nation’s infrastructure           assignments.
                                       may be vulnerable to attacks. Computer sys-                 The review identified that Postal
                                       tems are also a critical component of every            Management took appropriate actions on the
                                       aspect of postal operations that must be pro-          Phase One audit. However, there were addi-
                                       tected from potential cyber-terrorism to pre-          tional opportunities for the Postal Service to
                                       vent disruption in service. Technology                 align systems to corporate goals, objectives, and
                                       investments not only need to be scrutinized to         policies; mitigate risks; and to measure and eval-
                                       minimize the risk of compromise, but also to           uate performance and customer satisfaction.
                                       ensure that sound business decisions are made.         Specifically, the OIG reviewed the initial Deci-
                                       This is particularly important as the Postal           sion Analysis Reports for the Business Customer
                                       Service reviews several technologies to identify       Support System and found that overall perfor-
                                       an efficient, effective, and safe method to            mance measures were not established, sensitiv-
                                       detect and prevent biohazards.                         ity analysis was not performed, and investment


                            PAGE 42    TECHNOLOGY REVIEWS
progress was not properly tracked. The OIG             HUMAN TRANSPORTER BATTERY
established that unless PostalOne! program             LIFE NOT ACHIEVED AND
management tracks its performance in accor-            POTENTIAL SAVINGS ARE
dance with Postal Service policies and ensures         QUESTIONABLE
compliance, the project may not meet projected              The OIG conducted an audit of applicabil-
savings presented in the Decision Analysis             ity of the human transporter for Postal Service
Report. The OIG made nine recommendations              operations. The audit revealed that the
to address these issues, including improving cus-      expected battery life was not achieved as
tomer satisfaction with business mailers, achiev-      required by the statement of work. In addition,
ing corporate goals, and mitigating risks. Postal      the statement of work stated one of the purposes
Service management agreed with all of the rec-         of testing the human transporter was to identify
ommendations and was working to resolve the            potential cost savings in mail delivery. Cost sav-
issues. (DA-AR-03-001)                                 ings could have potentially resulted from reduc-
                                                       ing delivery time for mail carrier routes.
POSTAL AUTOMATED
REDIRECTION SYSTEM PHASE                               Delivery time savings ranged from 10 minutes
ONE MAY NOT YIELD                                      to one hour per day delivery. The OIG consid-
ANTICIPATED RETURNS ON                                 ers the inconsistent savings in delivery time to
INVESTMENT                                             be inadequate when compared to the cost of
      An OIG audit of the Postal Automated             purchasing a human transporter unit. The OIG
Redirection System Phase One revealed the              recommended delaying any further testing of
return on investment presented in the Decision         the human transporter until the Postal Service
Analysis Report was based on a contractor’s            validates a battery life of six to seven hours.
study that did not apply sound statistical princi-     Also, a projected return on investment should        The OIG found that the battery life of
                                                       be calculated to determine whether a financial       the human transporter was not
ples. For example, the contractor did not follow
                                                                                                            achieved and its potential savings are
its original sample design. As a result, the return    incentive exists for considering any further test-
                                                                                                            questionable.
on investment may not be correct. The Postal           ing. Postal management agreed with the OIG’s
Service and the contractor entered into a sole         recommendations and has initiatives planned
source contract to provide a comprehensive             addressing the issues in the report.
automated solution for First-Class Mail forward-       (DA-AR-03-003)
ing. This included the identification, verifica-       INFORMATION SYSTEMS
tion, processing, and labeling of each piece of        REVIEWS
mail to be redirected within the automated                  The Postal Service relies on a complex
mailstream. Postal management agreed with the          computer infrastructure to accomplish and
recommendations to ensure quality assurance            streamline operations, manage one of the
groups compile a test report for first article test-   largest civilian workforces in the world, and
ing and all future testing. Postal management          move billions of pieces of mail each year. The
disagreed with the OIG’s recommendation to             Postal Service has initiated several information
recalculate the return on investment because it        technology projects to enhance efficiency and
disagreed that the study was relied upon in the        increase revenue. The Postal Service must con-
Decision Analysis Report development. The              tinue to ensure computer security is maintained
Postal Service said it had no plans to use the         and improved to reduce the risk of fraud, inap-
study for future programs but disagreed that the       propriate disclosure of sensitive data, unautho-
study was statistically unsound. However,              rized disclosure of customer information, and
Postal Service engineering officials indicated         disruption of critical operations and services.
during the audit they knew the study was not           The most significant reviews are highlighted
statistically valid but used it to establish a base-   below:
line for the Decision Analysis Report cost
model. The OIG is pursuing these disagree-
ments through the formal audit resolution
process. (DA-AR-03-002)




                                                                                                              PAGE 43
                                        GENERAL CONTROL                                       an exit conference Postal Service management
                                        WEAKNESSES IDENTIFIED AT                              confirmed the accuracy of the report informa-
                                        A MAINTENANCE SUPPORT                                 tion and suggested that only minimal changes
                                        CENTER                                                be made. Also, postal management did not
                                              While conducting an audit of general and        agree that all past expenditures be captured and
                                        management controls at a maintenance support          all future expenditures for the e-Travel project
                                        center, the OIG identified vulnerabilities in the     be formally approved and tracked in accordance
                                        overall security at the facility and in each of the   with Postal Service requirements. The OIG
                                        six management and general controls areas             does not plan to pursue the unresolved recom-
                                        tested. The OIG considered the lack of a secu-        mendations through the formal audit resolution
                                        rity structure and risk assessment as the under-      process. However, follow-up on these recom-
                                        lying cause for many of the control weaknesses        mendations will be included in a subsequent
                                        identified in the audit. Included in the review       review of the e-Travel system.
                                        was a vulnerability assessment of network and         (IS-AR-03-002)
                                        computer systems at the maintenance support
                                                                                              NETWORK SECURITY
                                        center. These vulnerabilities, if left uncorrected,   WEAKNESSES IDENTIFIED AT
                                        could result in unauthorized access to Postal         ENGINEERING RESEARCH AND
                                        Service information. The Postal Service agreed        DEVELOPMENT CENTER
                                        with OIG’s recommendations and has initia-                  The OIG conducted a network vulnerabil-
                                        tives completed or in progress to address the         ity assessment on each of the network and com-
                                        weaknesses. (IS AR-03-001)                            puter systems at an engineering research and
                                        WEAKNESSES FOUND IN                                   development center. Using a variety of tools
                                        e-TRAVEL SYSTEM                                       and tests, the OIG identified potential network
An OIG audit of the e-Travel voucher
system revealed weaknesses in the             An OIG audit of the e-Travel voucher            vulnerabilities that, if left uncorrected, could
system development process required     system revealed weaknesses in the system devel-       result in unauthorized access to Postal Service
for system implementation and           opment process required for system implemen-          information and/or allow an unauthorized user
maintenance.                                                                                  to leverage the compromised system to gain
                                        tation and maintenance. The audit also
                                        identified weaknesses in several critical general     access to additional information and systems.
                                        control areas. For example, the e-Travel              For example, the tests revealed instances of
                                        voucher system was moved from pilot to full           password vulnerabilities. The OIG provided sys-
                                        production status even though the hardware            tem administrators with the assessment results
                                        could not support the estimated number of             to use as a tool for establishing priorities for cor-
                                        users. Regardless, new users continued to be          rective actions and implementing immediate
                                        added to the e-Travel system without full con-        repairs to the network components.
                                        sideration of the identified vulnerabilities or       (IS-CS-03-001)
                                        Postal Service requirements. In addition, e-          VULNERABILITIES IDENTIFIED ON
                                        Travel management did not ensure that Postal          HEADQUARTERS SERVERS
                                        Service policies and procedures were followed              OIG vulnerability tests on selected servers
                                        or adequate general controls were in place to         at Postal Service Headquarters revealed vulner-
                                        protect the integrity of the e-Travel system and      abilities that, if left uncorrected, could result in
                                        its sensitive data.                                   a loss of confidentiality, integrity, and availabil-
                                              Postal Service management agreed to the         ity of vital operational systems. Further, the
                                        majority of OIG recommendations and has ini-          OIG audit found that postal directives to
                                        tiatives in progress, planned, or completed to        strengthen server security had not been fully
                                        address the issues. Postal management did not         implemented. Postal Service management
                                        agree with five recommendations and stated            agreed with all of the OIG’s recommendations
                                        their beliefs that the report misrepresents the       and indicated corrective actions were planned
                                        effectiveness of the systems development              or taken. (IS-AR-03-003)
                                        process and many of the controls implemented
                                        by management to successfully deploy the e-
                                        Travel system to over 40,000 users. However, at


                              PAGE 44   TECHNOLOGY REVIEWS
INFORMATION SYSTEMS                                  correct any identified vulnerabilities, and recer-
CONVERSION TO MONTHLY                                tify the system. Postal management’s actions
REPORTING                                            taken or planned should correct the issues iden-
      At the request of the Board of Governors,      tified in the report. (OE-AR-03-002)
the OIG reviewed the information systems             eCOMMERCE REVIEWS
impacted by the Postal Service’s change from a
                                                          The Postal Service continues to provide
28-day accounting period reporting to monthly
                                                     customers with new online products and ser-
reporting. The OIG identified that the process
                                                     vices to enhance their personal and professional
to monitor the effort to convert all systems to                                                           What is computer hacking?
                                                     lives. In addition, the Postal Service continues
monthly reporting produced misleading results.
                                                     to improve the performance and usability of its      Computer hacking occurs when
Specifically, the conversion status for each sys-
                                                     web presence to ensure secure access and pro-        someone attempts to gain access
tem does not represent the actual status of the
                                                     tect customer privacy. The Postal Service has        to a computer file or network
modification effort. If left uncorrected, this
                                                     also eliminated or consolidated initiatives that     illegally or without authorization.
process would provide little value to the Postal
                                                     do not fully support the core products and con-
Service to meet its goal, and could produce a                                                             The OIG detects and investigates
                                                     tribute to revenue. Ongoing OIG efforts during
negative impact on the overall success of the                                                             hacking attempts on the Postal
                                                     this period focused on mailing online services,
project.                                                                                                  Service’s computer systems.
                                                     online change of address and alternatives to
      The OIG found the Postal Service had
                                                     using Internet auctions for mail recovery pur-
developed an adequate process to identify sys-
                                                     poses.
tems requiring modification and processes were
in place to ensure the work was completed by         COMPUTER INTRUSION
required deadlines. Further, the OIG found that      INVESTIGATION ACTIVITIES
Postal Service managers had developed ways to             The OIG investigates criminal violations
mitigate risks as systems were identified. Postal    of state and federal laws enacted to protect the
management agreed with OIG’s recommenda-             authenticity, privacy, integrity, and availability
tions to develop an accurate measure for the sta-    of electronically stored and transmitted infor-
tus of the systems being modified for monthly        mation. eCommerce ventures make the protec-
reporting and updating the monthly reporting         tion of postal information systems critical to the
status worksheet to reflect the correct status for   financial viability of the Postal Service. Because
all systems undergoing modification.                 such ventures involve connectivity between
(IS-AR-03-004)                                       postal systems and eCommerce partners, the
                                                     OIG conducts investigations of attacks on the
RETAIL DATA MART SYSTEM                              security of those systems in order to maintain
SECURITY ISSUES
                                                     the integrity of eCommerce information. The
     The audit found the business continuity         OIG informs Postal Service management and
and contingency plans were incomplete, the           eCommerce partners regarding emerging
system’s configuration was not in conformance        threats to information systems, and assists them
with Postal Service security policies, and signif-   in identifying and eliminating potential vulner-
icant security weaknesses existed in related sys-    abilities. These efforts include assisting the
tems. These weaknesses included excessive            Postal Service in developing security policies,
account access privileges, lack of intrusion         information systems, and eCommerce proce-
detection and anti-virus software, and untimely      dures that conform to the best practices in
and outdated personnel security clearances. If       industry and government.
these weaknesses remain uncorrected, day-to-              During this reporting period, the OIG
day operations and revenues may be impacted.         completed a number of investigations and
The OIG provided 13 recommendations,                 activities, some of which are highlighted below:
including that Postal Service management
develop business continuity and contingency          ◆   The OIG analyzed incidents related to a
plans and install intrusion detection software           Postal Service computer system, includ-
                                                         ing thousands of dollars in fictitious sales
and anti-virus software as necessary. In addition,
                                                         transactions (money order and stamp
the Postal Service needs to perform a complete
                                                         sales), unauthorized software tools initiat-
system review of the Retail Data Mart system,


                                                                                                           PAGE 45
                                          ed unexpectedly, unauthorized users
                                          appearing to log on during routine clerk
                                          activities, unexplained continuous
                                          rebooting of systems, and repeated
                                          threats to Postal Service personnel. A
                                          series of critical computer system vulner-
                                          abilities were identified through the tech-
                                          nical analysis performed by the OIG and
                                          the Postal Service’s Computer Incident
Is the OIG a diverse                      Response Team. The Postal Service cor-
organization?                             rected these vulnerabilities, resulting in a
                                          more secure system.
Yes. In comparing the OIG's
                                      ◆   In the wake of terrorist activities in the
diversity to others, the OIG
                                          United States, the OIG provided Inter-
would be number one on Fortune            net-based research support to the Federal
magazine's 2002 annual list of            Bureau of Investigation’s Joint Terrorism
"America's 50 Best Companies              Task Force. The OIG has developed
for Minorities." This is the result       unique methodology to conduct Internet-
                                          based analysis that is essential to terror-
of OIG's commitment to hire,
                                          ism investigations as well as fraud investi-
promote, and retain the best              gations. Online reconnaissance of net-
diverse talent available.                 work infrastructures is essential in the
                                          preparation for significant search war-
                                          rants for target companies. This analysis
                                          is one of the unit’s specialty products that
                                          can provide invaluable insight so that
                                          forensic personnel executing a search
                                          warrant are knowledgeable about the tar-
                                          get company’s computer infrastructure.

                                      LEGISLATIVE, REGULATORY &
                                      POLICY REVIEWS
                                           During this reporting period, the OIG did
                                      not identify legislation, regulations, and policies
                                      affecting Postal Service technology.




                            PAGE 46   TECHNOLOGY REVIEWS
INSPECTION SERVICE
     The Inspection Service plays an important
role in the support of Postal Service Internet
products and services. The Inspection Service
evaluates the need for and processes security
clearances of employees and contractors access-
ing postal systems or sensitive information. In
addition, the Inspection Service monitors the
development of new postal products and ser-
vices and provides consultation to postal man-
agers on security, loss prevention, revenue
protection, and evidence retention capabilities.
The Inspection Service also monitors and
reviews the physical security of individual sys-
tems before and after implementation.




                                                   PAGE 47
PAGE 48   TECHNOLOGY REVIEWS
Labor Management
Reviews




 OFFICE OF INSPECTOR GENERAL
      Workplace Environment Reviews
      Human Resources Process Reviews
      Health Care Reviews
      Legislative, Regulatory & Policy Reviews

 INSPECTION SERVICE




                                             PAGE 49
                                         This section highlights audits, reviews, and           WORKPLACE ENVIRONMENT
                                         investigations performed by the OIG and                REVIEWS
                                         the Inspection Service in the labor manage-                 The Postal Service has identified signs of
                                         ment area. Report numbers are shown in                 workplace stress in many of its facilities and is
                                         parentheses after the narrative, as appro-             developing comprehensive steps to improve the
                                         priate. Also, the OIG legislative, regulato-           workplace environment, including improving
                                         ry, and policy reviews are included at the             relations between managers and employees and
                                         end of this section. In order to differentiate         aligning human resources with business require-
                                         the work reported by the OIG and Inspec-               ments. During this reporting period, the OIG
                                         tion Service, the page containing the work             has conducted 102 inquiries into complaints of
                                         reported by the Inspection Service has been            alleged hostile work environment or other
                                         color screened.                                        health and safety issues, some of which are high-
                                                                                                lighted below:
                                                                                                ◆   A confidential reporting process was cre-
                                         OFFICE OF INSPECTOR                                        ated for employees at a Postal Service
                                         GENERAL                                                    International Service Center when alle-
                                                                                                    gations surfaced regarding employee mis-


                                         T
                                                 he Postal Service has characterized                treatment from management. The
                                                 improving labor management relations               process, called Direct Line, gives employ-
                                                 as one of the most important challenges            ees an opportunity to raise issues regard-
                                         in achieving its mission in the 21st century. A            ing their work environment.
                                         key Postal Service strategy in the labor manage-       ◆   As a result of an OIG review, a Postal
                                         ment area is to foster an inclusive, welcoming,            Service supervisor was placed on a per-
                                         and productive workplace consistent with its               formance improvement plan after
                                         values of fairness, opportunity, safety, and secu-         employees alleged the supervisor had cre-
                                         rity. With more than 850,000 full and part-time            ated a hostile working environment.
                                         employees working at nearly 38,000 facilities          ◆   Postal Service district management con-
The OIG conducted audits to determine
whether the Postal Service had           nationwide, the Postal Service realizes that to            ducted a conflict management workshop
adequate policies and procedures in      operate effectively, in a rapidly changing envi-           for maintenance shop employees to
place to prevent sexual harassment.      ronment, it needs to give employee issues a                improve workplace communications after
                                         higher priority and enhance each employee’s                an OIG review determined that a hostile
                                         contribution to organizational performance.                work environment may have existed for
                                         Additionally, in light of terrorist attacks, includ-       some employees.
                                         ing attacks involving the transport of anthrax
                                         through the mail, the Postal Service must take         HUMAN RESOURCE PROCESS
                                         appropriate precautions to ensure the safety and
                                                                                                REVIEWS
                                         well being of its employees.                                Postal Service managers are responsible for
                                               The OIG supports the Postal Service in its       preserving and protecting official records and
                                         overall goal to develop a motivated and produc-        privacy information. In addition, managers
                                         tive workforce. The labor management area              must avoid conflicts of interest, which could
                                         includes workplace environment, human                  affect both the public’s trust and confidence in
                                         resources, and health care. While the OIG has          Postal Service human resource processes. Postal
                                         worked diligently with the Postal Service and          Service managers are also responsible for com-
                                         Congress to address these areas of concern,            plying with existing policies and procedures
                                         reviewing labor management areas continues to          regarding sexual harassment, overtime, leave,
                                         be one of the OIG’s greatest challenges. In this       compensation and benefits, and training. The
                                         regard, the OIG has received 4,052 individual          OIG conducted the following audit to assess
                                         labor management complaints since 1997.                controls over these processes:
                                         During this reporting period, the OIG com-
                                         pleted 12 reviews and 102 inquiries in the labor
                                         management area.


                               PAGE 50   LABOR MANAGEMENT REVIEWS
REVIEWS OF SEXUAL                                        or inappropriate actions/comments.
HARASSMENT PREVENTION                                    Postal management agreed with the
MEASURES                                                 OIG’s recommendation to establish
      The OIG conducted audits of 18 districts           controls to ensure the appropriate disci-
                                                         plinary or corrective action is taken for
to determine whether adequate policies and
                                                         sexual harassment or inappropriate
procedures were in place to prevent sexual
                                                         actions/comments.
harassment, and to see if sexual harassment
complaints were effectively addressed. Sixteen       HEALTH CARE REVIEWS
of the eighteen districts had appropriately disci-                                                       Are OIG Hotline complaints
                                                           Controlling workers’ compensation costs
plined or taken action against employees
                                                     continues to be key to the Postal Service’s         confidential?
responsible for sexual harassment or inappropri-
                                                     financial well being because the Postal Service     The OIG will not disclose the
ate actions/comments. The review found that
                                                     is self-insured and makes payments out of oper-
all of the districts covered in the evaluation had                                                       identity of an employee without
                                                     ating funds, which directly affect the Postal
adequate policies and procedures. However,                                                               the consent of the employee,
                                                     Service’s net income. In FY 2002, the Postal
some areas needed improvements, as noted                                                                 unless the OIG determines such a
                                                     Service paid over $760 million in workers’ com-
below.                                                                                                   disclosure is unavoidable during
                                                     pensation costs, a $66 million increase over the
◆   Some managers responsible for sexual             $694 million paid in FY 2001.                       the course of the investigation.
    harassment or inappropriate actions/com-               The OIG assists in protecting the health
    ments were not considered for exclusion          and welfare of the Postal Service’s workforce by
    from the Pay for Performance Program.            conducting audits and investigations to prevent
    Postal management generally agreed with          and detect fraud, waste, abuse, and mismanage-
    the recommendation that managers and             ment related to Postal Service health care pro-
    supervisors engaging in these activities
                                                     gram costs. Involvement in health care fraud
    should be considered for exclusion from
                                                     investigations is vital to controlling costs
    pay for performance and bonus programs.
                                                     related to Postal Service health care premiums.
◆   In some districts, the Equal Employment          To enhance these efforts, the OIG has part-
    Opportunity Office received complaints           nered with the Department of Labor Office of
    of sexual harassment or inappropriate            Inspector General to conduct joint investiga-
    actions/comments and did not notify dis-
                                                     tions of workers’ compensation programs. On
    trict management of the complaints.
                                                     December 7, 2002, the OIG assumed responsi-
    Postal management generally agreed that
                                                     bility for all new allegations of employee work-
    the Equal Employment Opportunity
    office notify district management when a         ers’ compensation fraud within the Capital
    report of this nature has been received.         Metro Area as part of a pilot program. This new
                                                     area of responsibility is in addition to OIG’s
◆   Sexual harassment complaints at some
                                                     jurisdiction over investigations of fraud com-
    districts reviewed were not effectively
                                                     mitted by health care providers. In addition, the
    addressed. Postal management agreed
                                                     OIG was asked to participate in a Postal Service
    that all sexual harassment complaints
    should be effectively addressed. However,        task force on workers’ compensation costs
    postal management disagreed that all             chaired by the Deputy Postmaster General.
    sexual harassment complaint investiga-                 The OIG investigates allegations of fraud
    tions be documented. The Postal Service          involving health care providers who are paid by,
    stated this would require management to          or on behalf of, the Postal Service for medical
    depart from Postal Service policy for            services rendered to Postal Service employees
    those complaints that could be resolved          related to:
    simply and directly between parties with-
                                                     ◆   Federal Employees’ Compensation Act.
    out a formal written record. The OIG
                                                         This act is administered by the Depart-
    plans to address this issue in a capping
                                                         ment of Labor with costs charged back to
    report.
                                                         the Postal Service.
◆   Two districts did not discipline or take
                                                     ◆   Postal Service-contracted doctors and
    appropriate corrective action against all
                                                         facilities. Approximately 1,500 physi-
    employees involved in sexual harassment


                                                                                                          PAGE 51
                                              cians and facilities are contracted and            vice employees. The defendants were
                                              paid directly by the Postal Service to pro-        sentenced to 9 months and 21 months in
                                              vide medical services to its employees.            prison, respectively, 3 years supervised
                                          ◆   Federal Employees Health Benefits                  release, and both were ordered to pay
                                              Program. The Postal Service pays 80                restitution to the victims in an amount
                                              percent of over 850,000 employees’                 exceeding $78,000.
                                              insurance premiums.                            ◆   An OIG investigation was initiated
                                                                                                 based on a Hotline allegation received
                                               In the past 6 months, the OIG completed
                                                                                                 from an Injury Compensation Manager
                                          7 projects and 25 investigations in this area,
                                                                                                 in a district office. The OIG partnered
                                          which resulted in 6 convictions. The investiga-
                                                                                                 with the Department of Labor and iden-
                                          tions identified federal and state violations of
                                                                                                 tified a significant number of question-
                                          money laundering, conspiracy, racketeering,            able billing transactions in the Office of
                                          grand theft, and mail fraud by licensed or unli-       Workers’ Compensation Program. Fur-
                                          censed health care providers. In addition, the         ther investigation by the OIG disclosed
                                          OIG conducted 3 reviews of health care-related         four overpayments totaling over
                                          issues. Some of the OIG’s more significant             $105,000, which has since been repaid.
                                          investigations and reviews are highlighted             Additional administrative recoveries are
                                          below:                                                 pending.
                                          ◆   The OIG joined with the Postal Inspec-
                                                                                             OIG HEALTH CARE FRAUD
                                              tion Service, the Defense Criminal
                                                                                             DATABASE ASSISTS PROACTIVE
                                              Investigative Service, the Department of
                                                                                             INITIATIVES
    Two people accused                        Labor OIG, and the Florida Department
     of insurance fraud                       of Insurance Fraud to investigative fraud-           The Postal Injury Compensation System is
                                              ulent medical claims submitted by ficti-       the OIG database that contains over 7 years of
                                              tious medical providers to the Federal         billing history for medical services provided to
                                              Employees Health Benefits Program,             Postal Service employees with workers’ com-
 Two people charged with fraud                TRICARE, and private medical insur-            pensation claims for job-related injuries. The
                                              ance companies. During this reporting          system provides data to support health care
                                              period, four individuals were convicted of     fraud criminal investigations and for complex
OIG involvement in health care fraud
                                              violating Florida State laws ranging from      trend analysis to identify potential proactive ini-
investigations helps to control the           conspiracy and money laundering to             tiatives. The OIG is taking this system to the
Postal Service’s health care costs.           racketeering and grand theft in a fraudu-      next level in creating a new, more comprehen-
                                              lent health care billing scheme. Three of      sive and flexible system, that will provide users
                                              the four individuals were ordered to make      the ability to analyze a large volume of data and
                                              restitution totaling approximately             reduce or eliminate the need for manual review
                                              $990,000 to the victims’ health care           and data analysis. The OIG is constructing the
                                              plans. Two of the four individuals were
                                                                                             Healthcare Internal Data Analysis System, a
                                              sentenced to serve a combined prison
                                                                                             detailed data analysis tool and automated
                                              term of 66 months.
                                                                                             reporting system to identify potentially fraudu-
                                          ◆   During this reporting period, two siblings     lent billing schemes. This database system will
                                              were convicted for their involvement in        be valuable in developing proactive initiatives
                                              a health care fraud scheme involving
                                                                                             and assisting investigations.
                                              durable medical equipment. The defen-
                                              dants, who owned and operated a tele-          ARRANGEMENT WITH A
                                              marketing company, contacted disabled          PREFERRED PROVIDER NEEDS
                                              people and offered to provide them free        ENHANCEMENT
                                              medical equipment if the equipment was               An OIG audit revealed the Postal Service
                                              covered under their insurance policy and       did not use appropriate contracting practices in
                                              their doctor submitted a prescription.         its establishing an agreement for a pilot program
                                              The defendants then used customers’            with a preferred health care provider. The OIG
                                              information to file insurance claims,          found inadequate contract documentation,
                                              including claims on behalf of Postal Ser-
                                                                                             unfavorable provisions, and a lack of standard


                                PAGE 52   LABOR MANAGEMENT REVIEWS
Postal Service clauses and provisions. As a          increased 137 percent from $19 million in FY
result, the contract exposed the Postal Service      1997 to $45 million in FY 2002. The OIG rec-
to unnecessary risks from legal claims, protests,    ommended the Postal Service pursue whether
adjustments, and contract termination. The           congressional assistance should be sought to pay
OIG recommended postal management                    administrative fees to the Office of Workers’
instruct the contracting officer to continue         Compensation Programs. Postal Service man-
efforts developing contract documentation,           agement was responsive to the OIG’s recom-
including documenting negotiations, providing        mendation and has actions planned to address
justifications for non-competitive purchase and      the concerns. (HK-MA-03-001)
analyses, and renegotiating contracts to
                                                     MONITORING OF DEATH
increase its percentage of medical cost savings.
                                                     BENEFIT PAYMENTS CAN BE
Postal management generally disagreed with           IMPROVED
the report’s findings. However, they generally
                                                           An OIG review determined the Postal
agreed with all of the OIG’s recommendations
                                                     Service’s Injury Compensation Control Office
and the current contracting officer is working to
                                                     staff did not effectively monitor or review death
revise the contract to ensure maximum benefits
                                                     benefit claims. The OIG reviewed death claim
and protections for the Postal Service.
                                                     files at the Office of Workers’ Compensation
(HK-AR-03-001)
                                                     Programs and found that claim files did not
WORKERS’ COMPENSATION                                always contain documentation required by law        The OIG found that the Postal Service
PROGRAM NEEDS LEGISLATIVE                            and overpayments were made to deceased and          may save money by monitoring death
REFORM                                               remarried survivors. The review also found that     benefit claims.
      An OIG audit of the Postal Service             the Postal Service injury compensation control
employees on the workers’ compensation peri-         office did not provide adequate training and
odic rolls disclosed 49 percent, or over 6,500, of   procedures for monitoring and reviewing death
the Postal Service employees on the periodic         benefit claims after approval by the Office of
rolls are at the age at which some federal           Workers’ Compensation. As a result, the Office
employees are eligible for voluntary retirement.     of Workers’ Compensation Program paid an
In addition, 70 percent, or over 9,300, of the       estimated $1.3 million to survivors for benefits
Postal Service’s employees on the workers’ com-      that were questionable. Postal management
pensation periodic rolls are totally disabled with   stated that the actual amount of questionable
little or no future reemployment potential, or       payments need to be determined through indi-
whose reemployment has not been determined.          vidual case reviews.
In the past, concerns have been raised that the            The OIG recommended the Postal
Federal Employees’ Compensation Act has              Service coordinate with the Office of Workers’
become, in effect, a retirement system for some      Compensation to review all death benefit
workers’ compensation employees. For exam-           claims. Postal Service management did not
ple, the OIG’s review found one employee has         agree, stating that monitoring of survivors’
been on the workers’ compensation rolls for          benefits is not the primary responsibility of the
45 years. This employee and others may be eli-       control office staff and the office does not have
gible for voluntary retirement under existing        the legal authority or staffing to conduct mon-
federal retirement programs.                         itoring. However, the Postal Service stated that
      The OIG found Postal Service’s workers’        they will request the Office of Workers’
compensation costs account for 35 percent of         Compensation follow up and enforce the
the total program costs. The Postal Service pays     requirements.
workers’ compensation costs out of its operating           The OIG also believes monitoring would
revenue and these costs have been increasing         minimize payments made to survivors who
each year. Therefore, legislative reform that will   were not entitled to receive benefits, thus sav-
allow eligible employees to retire under an          ing money. The OIG is pursuing this disagree-
applicable retirement program may give the           ment through the formal resolution process.
Postal Service financial relief. In addition, the    Postal Service management also did not agree
Postal Service’s administrative fees have            to provide control office staff with training and


                                                                                                           PAGE 53
                                         guidance, since monitoring is not considered
                                         the office’s primary responsibility. In response
                                         to the OIG’s recommendation to review
                                         chargeback reports to ensure timely credits for
                                         third-party awards, postal management stated
                                         that they took steps in December 2002 to rein-
                                         vigorate the third-party program and imple-
                                         ment a tracking system.
                                         (HK-MA-03-002)
                                         LEGISLATIVE, REGULATORY, &
                                         POLICY REVIEWS
                                             During this reporting period, the OIG
                                         identified and reviewed legislation, regulations,
                                         and policies affecting Postal Service labor man-
                                         agement. One policy is highlighted below:

                                         ENACTED POLICY
                                         Employee and Labor Relations Manual,
                                         Section 650, Nonbargaining Discipli-
                                         nary, Grievance, and Appeal Procedures
                                              Effective March 20, 2003, the internal dis-
                                         ciplinary appeal process for Postal Service
                                         employees was modified to include mediation
The appeal process for Postal Service    and neutral hearing officers in the process. The
employees was modified to include
mediation and neutral hearing officers   Postal Service designated two former Postal
in the process.                          Service managers to function as hearing officers.
                                         The OIG believes that overall, the new proce-
                                         dures will result in a strengthened process for
                                         employees.




                               PAGE 54   LABOR MANAGEMENT REVIEWS
                                                         was recovered and the Postal Service
INSPECTION SERVICE                                       received a future cost savings of over $1
     Postal Inspectors investigate a number of           million.
labor management areas, including workplace          ◆   A former Postal Service employee in
safety, workers’ compensation, postal robberies,         Rhode Island was sentenced for making
and drugs in the workplace.                              false statements to obtain federal work-
     The Inspection Service regards the preven-          ers’ compensation. The former employee
tion of robberies as one of its highest organiza-        was the operations manager for a postal
tional priorities and affords task force attention       highway contract trucking company,
to facility, letter carrier, and other postal rob-       managing the business from a home
beries to deter these attacks on employees.              office. The Postal Service manager was
Letter carrier robberies are generally committed         responsible for the $3 million contract
for the purpose of stealing mail and postal keys         and coordinated other non-postal con-
to mail receptacles, while robberies of facilities       tracts. The investigation revealed the
are committed for cash and money orders.                 manager was driving a contract route, re-
                                                         fueling company vehicles, and transport-
Postal Inspectors investigate the possession,
                                                         ing drivers. The employee resigned from
personal use, and sale of narcotics by Postal
                                                         the Postal Service and was sentenced to
Service employees or others while on postal
                                                         4 months of home confinement with
property. Postal Inspectors also partner with            electronic monitoring, 2 years probation,
Postal Service management and employee                   50 hours of community service, a $100
groups in early interventions and other efforts          special assessment and restitution over
to prevent violence in the workplace. During             $42,000. The former Postal Service
this period, there were 199 arrests and 144 con-         employee is permanently debarred from
victions for assaults and threats, and 27 arrests        receiving future workers’ compensation
and 37 convictions related to robberies. In addi-        benefits. As a result, future cost savings
tion, 16 individuals were arrested and 16 con-           to the Postal Service are over $517,000.
victed for the sale of drugs on postal property.     ◆   A former letter carrier from Oregon was
     The Inspection Service investigates fraud-          sentenced to 3 months incarceration, 3
ulent claims and receipt of workers’ compensa-           months home detention, 5 years proba-
tion benefits by individual employees.                   tion, court ordered restitution of over
Prosecution of workers’ compensation fraud               $29,000 and a special assessment of
serves as a deterrent and prevents future benefit        $1,300 for workers’ compensation fraud.
payments from being made to violators. During            The individual claimed total disability
this period, 17 individuals were arrested and            after falling from his postal vehicle. The
20 were convicted for workers’ compensation              investigation revealed the individual par-
fraud. Examples of workers’ compensation fraud           ticipated in activities inconsistent with
cases worked by the Inspection Service are               the alleged physical limitations. As a
                                                         result, future cost savings to the Postal
highlighted below:
                                                         Service are over $915,000.
◆   A former New Jersey clerk was sentenced
    to 1-year probation and ordered to pay
    over $5,000 restitution for mail fraud.
    The employee claimed total disability as
    a result from a fall while on the job. The
    investigation disclosed the individual was
    self-employed as a massage therapist
    while alleging total disability and failed
    to report the job or ability to work to the
    Department of Labor. As a result of the
    Inspection Service investigation, over
    $21,000 in workers’ compensation funds




                                                                                                      PAGE 55
PAGE 56   LABOR MANAGEMENT REVIEWS
Oversight of the
Inspection Service and
Other Significant
Activities




 OFFICE OF INSPECTOR GENERAL
      Oversight Reviews
      Other Significant Reviews
      Other Significant Activities
      Legislative, Regulatory & Policy Reviews


 INSPECTION SERVICE




                                             PAGE 57
                                                                                                 and postal stakeholders fully informed of Postal
                                          This section highlights audits, reviews,
                                                                                                 Service law enforcement efforts to detect and
                                          and investigations performed by the OIG
                                                                                                 prevent fraud, waste, abuse, and mismanage-
                                          in conducting its oversight of the Inspec-
                                                                                                 ment by reporting the activities of the OIG and
                                          tion Service. This section also highlights
                                                                                                 the Inspection Service in these areas. During
                                          reviews and investigations performed by
                                                                                                 the last 6 months, the OIG completed one over-
                                          the OIG and summarizes Inspection Ser-
                                                                                                 sight review, as well as numerous monitoring
                                          vice activities in other significant areas.
                                                                                                 activities, which are highlighted below:
                                          Report numbers are shown in parenthe-
How long has the Inspection               ses after the narrative, as appropriate. In            EFFECTIVENESS OF POSTAL
Service protected the U.S.                order to differentiate the work reported by            INSPECTION SERVICE FRAUD
                                          the OIG and Inspection Service, the page               PREVENTION ACTIVITIES
mails?                                    containing the activities reported by the                   An OIG audit of the effectiveness of the
For over 200 years, Postal                Inspection Service has been color                      Postal Inspection Service’s fraud prevention
Inspectors have protected the mail        screened. The OIG legislative, regulato-               activities, fraud program goals, fraud complaint
and U.S. citizens to ensure that          ry, and policy reviews are included at the             system, case selection and jacketing procedures,
the public’s confidence in the mail       end of this section.                                   and the customer initiative group found:
is not undermined.                                                                               ◆    Case selection procedures had inadequate
                                                                                                      management oversight of fraud allega-
                                         OFFICE OF INSPECTOR                                          tions selected for investigation. This
                                                                                                      resulted in 29 of 153 Postal Inspection
                                         GENERAL                                                      Service case files being closed or declined
                                                                                                      with no action taken. The projected cost
                                         OVERSIGHT REVIEWS                                            of resources expended on these 29 cases


                                         O
                                                   ne of the primary reasons the OIG was              was $727,000. The OIG recommended
                                                   established within the Postal Service              that the Postal Inspection Service
                                                   was to provide oversight of all                    increase oversight and adhere to the
                                         Inspection Service activities. The Inspector                 Inspection Service Manual on the selec-
                                         General Act, as amended, provides for the OIG                tion of cases.
                                         to conduct, supervise, coordinate audits and            ◆    To date, the Postal Inspection Service
                                         investigations relating to the programs and                  has expended over $2.7 million on main-
                                         operations of the Postal Service, including the              tenance and development costs on a
                                         Inspection Service, and to recommend policy                  fraud complaint system that will ulti-
                                         direction to promote economy and efficiency in               mately become redundant with the
                                         the administration of those programs and oper-               Federal Trade Commission’s Consumer
                                         ations. The Inspector General Act provides to                Sentinel. The OIG recommended the
                                         the OIG specific “oversight responsibility for all           Postal Inspection Service devise and
                                         activities of the Inspection Service, including              implement a plan to ensure completion
                                         any internal investigations performed by the                 of a Memorandum of Understanding
                                                                                                      between the Inspection Service and the
                                         Inspection Service.” This additional authority
                                                                                                      Federal Trade Commission to use the
                                         means that any and all activities of the
                                                                                                      Consumer Sentinel.
                                         Inspection Service are subject to the OIG’s
                                         scrutiny and review.                                    ◆    The Postal Inspection Service did not
                                              The OIG provides independent and objec-                 have a process in place to measure the
The Inspection Service communicates
                                         tive information and analyses to the Governors,              effectiveness of the Business Mailing
its law enforcement and crime pre-
vention achievements to the American                                                                  Industry Task Force. The Postal
                                         Congress, and postal management regarding
public, Congress, the Postal Service,                                                                 Inspection Service should devise a
                                         Inspection Service operations. It is essential
and the law enforcement community                                                                     process to be implemented by 2004 to
                                         that the Inspection Service, as a law enforce-
in its annual report.                                                                                 measure and report the effectiveness of
                                         ment agency, be held to the highest standards of             the task force.
                                         conduct to maintain the public’s trust and the
                                         Postal Service’s reputation of reliability. In addi-         Postal Inspection Service management dis-
                                         tion, the OIG keeps the Governors, Congress,            agreed with the recommendations. The OIG



                               PAGE 58   OVERSIGHT OF THE INSPECTION SERVICE AND OTHER SIGNIFICANT ACTIVITIES
does not plan to pursue these issues through the     COMPREHENSIVE
formal audit resolution process, but will conduct    IMPLEMENTATION PLAN
follow-up audit work. (SA-AR-03-001)                 FOR POSTAL SERVICE
                                                     TRANSFORMATION PLAN NEEDS
REVIEW OF COMPLAINTS                                 TO BE FINALIZED
REGARDING THE INSPECTION
                                                           An OIG review of the Postal Service
SERVICE
                                                     Transformation Plan found the Plan is a good
     The OIG’s oversight of the Inspection
                                                     first step toward identifying the challenges fac-
Service provides customers, employees, and
                                                     ing the Postal Service and helpful in developing
other interested persons with an independent                                                                        INTERNAL INVESTIGATIONS
                                                     plans to address these challenges. However, the
avenue to address complaints regarding the                                                                                CONDUCTED
                                                     Postal Service needs to determine the impact of
Inspection Service. At the same time, the OIG                                                                                                              NUMBER OF
                                                     unsuccessful reform legislation and address uni-                                                    INVESTIGATIONS
provides the Inspection Service with an unbi-
                                                     versal service, organizational issues, and human
ased review of accusations that, if left unre-                                                            Active Investigations at Beginning of Period        55
                                                     capital fixed costs. In addition, the Postal         Investigations Opened                               31
solved, could harm its reputation as a
                                                     Service had not finalized a comprehensive            Investigations Closed                               32
professional law enforcement agency and                                                                   Active Investigations at End of Period              54
                                                     transformation implementation plan, which
reduce the public’s confidence in the Postal
                                                     should include prioritizing strategies, allocating
Service. During this reporting period, the OIG                                                                 SUMMARY OF CLOSED INTERNAL
                                                     resources, completing project plans, and ensur-
closed several inquiries related to the Inspection                                                              INVESTIGATION ALLEGATIONS
                                                     ing transformation issues are effectively com-
Service. The inquiries resulted from complaints                                                           TYPES OF ALLEGATIONS                             NUMBER OF
                                                     municated. Postal management agreed with the                                                         CASES CLOSED
made by Postal Service and Inspection Service
                                                     intent of five of the six OIG recommendations        Code of Conduct (violations involving
employees and the general public concerning a                                                             evidence, funds, firearms)
                                                     and had planned or taken actions to address the
variety of issues, including the adequacy and                                                               Inspectors                                          8
                                                     issues. The OIG does not plan to pursue the            Postal Police                                       3
selection of investigations.
                                                     remaining recommendation through the formal            Support Personnel                                   1
INSPECTION SERVICE INTERNAL                          audit resolution process; however, it does plan
INVESTIGATIONS                                       additional work in this area. (OE-MA-03-001)         Code of Conduct (violations involving
                                                                                                          integrity, property, conduct, behavior)
     The OIG conducts investigations of mis-         OTHER SIGNIFICANT ACTIVITIES                            Inspectors                                         9
conduct by senior Inspection Service personnel                                                               Postal Police                                      4
                                                          The OIG is responsible for reviewing alle-         Support Personnel                                  1
and monitors the conduct of internal investiga-
                                                     gations involving Postal Service executives for         Other                                              6
tions of other Inspection Service employees.
                                                     criminal violations and misconduct, including
These investigations are conducted when alle-
                                                     retaliation against individuals who have previ-
gations of employee misconduct affect the per-
                                                     ously provided the OIG with information about                 ACTIONS TAKEN ON CLOSED
formance of duties or when managers have
                                                     possible fraud, waste, abuse, and mismanage-                  INTERNAL INVESTIGATIONS
information of employee misconduct.
                                                     ment. During this period, the OIG investigated       DISCIPLINARY ACTIONS                             FREQUENCY
     The OIG receives information regarding
                                                     22 allegations of reprisal. The allegations were     Non-bargaining – adverse
Inspection Service internal investigations,
                                                     not substantiated, thus clearing the postal man-       Removal/Resignation                                2
including conclusions reached and recom-
                                                     agers of any wrongdoing.                               Suspensions >14 days                               0
mended actions. Inspection Service internal                                                               Non-bargaining – non-adverse
investigations for this period included allega-      LEGISLATIVE, REGULATORY &                              Letter of Warning                                  1
tions of sexual misconduct, physical assault, and    POLICY REVIEWS                                         Letter of Warning
                                                          During this reporting period, the OIG             in lieu of time-off suspensions                    2
obstructing an internal investigation. The
                                                                                                            Official Counseling                                7
charts in the margin on the right summarize the      identified legislation, regulations, and policies    Bargaining (per collective bargaining
internal investigations conducted by the             affecting Postal Service law enforcement. One        agreements) – adverse
Inspection Service, the types of allegations         regulation reviewed during this period is high-        Removal/Resignation                                3
                                                                                                            Suspensions>14 days                                0
reviewed, and the types of actions taken during      lighted below:                                       Bargaining (per collective bargaining
this reporting period.                                                                                    agreements) – non-adverse
                                                     ENACTED REGULATION                                     Letter of Warning                                  0
OTHER SIGNIFICANT REVIEWS                                                                                   Letter of Warning
                                                     Rules of Practice Before the Judicial                  in lieu of time-off suspensions                    0
     During this reporting period, the OIG
                                                     Officer, 67 Fed. Reg. 62178 (Oct. 4,                   Official Counseling                                0
reviewed the Postal Service Transformation
                                                     2002)
Plan. This review is highlighted below:
                                                         The Postal Service amended the rules of



                                                                                                          PAGE 59
          practice for proceedings relative to the Program
          Fraud Civil Remedies Act to reflect the change
          in primary responsibility to investigate viola-
          tions of the Act from the Inspection Service to
          the OIG. The Act is very effective in combat-
          ing fraud perpetrated on the Postal Service. The
          statute is particularly useful in imposing civil
          fines and penalties up to twice the amount of
          any fraudulent claim that was paid in connec-
          tion with workers’ compensation claims. The
          OIG has assumed responsibility for investigat-
          ing workers’ compensation fraud in the Postal
          Service’s Capital Metro Area as part of a pilot
          program and is working with the Postal Service
          Law Department to establish a program to pur-
          sue Act actions in this area.




PAGE 60   OVERSIGHT OF THE INSPECTION SERVICE AND OTHER SIGNIFICANT ACTIVITIES
INSPECTION SERVICE
     The Inspection Service conducts investiga-
tions and reviews of significant issues related to
physical security; narcotics offenses and traffick-
ing; child exploitation; prohibited mailings;
postal burglaries; mail fraud including fraud
against consumers, fraud against businesses, and
fraud against government; and money launder-
ing. The Inspection Service considers investiga-
tions of biohazardous material sent through the
U.S. mail among its highest priorities. The
Inspection Service also devotes significant
resources to prevent crimes by conducting
employee and customer awareness training pro-
grams and implementing security measures.



                    Investigations, Arrests and Convictions
       TYPE OF INVESTIGATION                                    ARRESTS         CONVICTIONS*
       Mailing of Controlled Substances
         Includes narcotics, steroids, drug-related
         proceeds, and drug paraphernalia                         759                 658

       Bombs, Threats, Hoaxes, and Explosive Devices               45                  48
       Child Exploitation, Mailing of Obscene Matter,
       and Sexually Oriented Advertisement                        149                 129
       Prohibited Mailings
         Includes hazardous material, firearms, and weapons,
         intoxicants, explosives other than bombs, extortion,
         and false documents                                       81                  73

       Postal Burglaries                                           51                  48

       Mail Fraud
         Includes fraud against consumers, businesses,
         and government                                           738                 693

       Miscellaneous External Crimes
         Includes counterfeit and contraband postage,
         money order offenses, vandalism, and arson               244                 195
       Miscellaneous Employee Crimes
         Includes theft of postal property and sabotage
         of equipment                                              42                  28


  *Convictions reported in this time frame may be related to arrests made in prior reporting periods.




                                                                                                        PAGE 61
PAGE 62   OVERSIGHT OF THE INSPECTION SERVICE AND OTHER SIGNIFICANT ACTIVITIES
Customer Service




 OFFICE OF INSPECTOR GENERAL
      External Communications
      Specialized Services
      Computer-Assisted Assessment Techniques

 INSPECTION SERVICE




                                          PAGE 63
                                                                                               be addressed if the Postal Service is to remain a
                                          This section describes the OIG and
                                                                                               viable commercial enterprise. The OIG will
                                          Inspection Service’s efforts to provide cus-
                                                                                               continue to monitor Commission activities
                                          tomer service, including initiatives by
                                                                                               with great interest and review public comments
                                          support functions to enhance service to
                                                                                               and testimony, and has offered technical assis-
                                          internal customers. Customer satisfac-
                                                                                               tance to the Commission as it prepares its report
                                          tion and service is the underlying creed of
                                                                                               to the President.
                                          most successful organizations and busi-
                                          nesses. In order to differentiate work               RESPONDING TO REQUESTS
                                          reported by the Inspection Service, pages            FROM CONGRESS AND THE
                                          concerning the Inspection Service have               POSTAL SERVICE GOVERNORS
                                          been color screened.                                       The OIG provides accurate and timely
                                                                                               responses to requests from Congress and the
                                                                                               Postal Service Governors. The OIG responds to
                                                                                               many of these requests by conducting audits or
                                         OFFICE OF INSPECTOR                                   investigations. However, the OIG does not gen-
                                         GENERAL                                               erally perform audits or investigations when an
                                                                                               inquiry involves a non-systemic issue that may
                                         EXTERNAL COMMUNICATIONS                               be resolved through existing administrative or


                                         T
                                                  he OIG is responsible for keeping mem-       judicial processes, such as the equal employ-
                                                  bers of Congress and the Postal Service      ment opportunity complaint process, contrac-
                                                  Board of Governors fully and currently       tual grievance-arbitration procedures, or the
                                         informed. The OIG keeps Congress informed by          Merit System Protection Board. Instead, the
                                         issuing Semiannual Reports to Congress, testify-      OIG incorporates individual concerns into a
                                         ing at oversight and other hearings, and briefing     database to identify systemic issues for review.
                                         members and their staff on issues related to the      When systemic issues have been identified, the
In February 2003, the OIG submitted      Postal Service. The OIG also regularly provides       OIG may conduct independent audits or inves-
written comments to the President’s      synopses of its audit and management advisory         tigations of Postal Service programs and opera-
Commission on the Postal Service
highlighting the ten major management    reports to Congressional committees and sub-          tions to help ensure their economy, efficiency,
issues that the OIG believes must be     committees with oversight interest in the Postal      and integrity.
addressed if the Postal Service is to    Service. Additionally, the OIG keeps the                    During this 6-month reporting period, the
remain a viable commercial enterprise.   Governors informed through regular briefings at       OIG responded to 47 Congressional and
                                         monthly Board meetings, activity reports from         Governors’ inquiries. Appendix G of this report
                                         the Inspector General, and responses to requests      lists the OIG responses to these inquiries by sub-
                                         for information.                                      ject area. Some examples of OIG work in
                                                                                               response to Congressional and Governors’
                                         CONGRESSIONAL TESTIMONY
                                                                                               requests are highlighted below:
                                               Each year, since its inception, the Inspector
                                         General has testified before Congress on various      ◆   A review was conducted in response to a
                                         matters. While the OIG did not provide written            congressional inquiry relating to Postal
                                         statements to Congress during this reporting              Service management’s treatment of
                                         period, in the past the OIG has provided testi-           employees at a New York mail service
                                                                                                   center. The OIG found that a hostile
                                         mony and statements highlighting significant
                                                                                                   work environment might have existed at
                                         work and identifying opportunities for the
                                                                                                   this postal facility. In an effort to combat
                                         Postal Service to improve accountability and
                                                                                                   some of the alleged problems, postal
                                         public trust. These testimonies and statements            management developed several initia-
                                         can be found in their entirety on the OIG’s web-          tives to resolve labor relations problems
                                         site at http://www.uspsoig.gov.                           at the facility. Specifically, Postal Service
                                               In addition, in February, the OIG submit-           management created the Direct Line for
                                         ted a statement to the Presidential Commission            employees to voice their concerns and
                                         on the Postal Service highlighting the ten major          provide confidential information regard-
                                         management issues that the OIG believes must              ing workplace environment. The OIG



                               PAGE 64   CUSTOMER SERVICE
    plans to monitor the situation at this              policies and procedures when purchasing
    facility.                                           the site. An independent environmental
◆   In response to a constituent’s complaint            assessment concluded the site would sup-
    of harassment and retaliation in a                  port the construction of the planned
    Virginia post office, the OIG conducted             facility. While the design did not include
    a review that addressed the issues con-             city sidewalks, it included pedestrian
    tained in the complaint. The OIG’s                  walkways from the parking lot to the post
    review determined a hostile workplace               office. A facilities design and construc-
    environment might have existed for                  tion manager assured the OIG that the
    some employees at the postal facility.              design and construction of the postal
    However, the OIG found district Postal              facility would avoid flood plain areas.
    Service management had taken action to              The Postal Service appropriately consid-
    resolve the issues and has continued to             ered a number of factors such as eco-
    monitor the situation.                              nomic conditions and overall costs in
                                                        determining to lease rather than pur-
◆   The OIG received an inquiry from the                chase the property.
    President’s office regarding possible work-
    ers’ compensation fraud. The OIG’s              ◆   The President’s office contacted the OIG
    health care team conducted a review,                regarding a letter received from a con-
    which included examining health care                stituent who voiced concerns about a
    provider billings. The OIG review found             Virginia mail processing center.
    no fraudulent activity; however, the OIG            Specifically, the constituent had con-
    plans to continue conducting reviews                cerns regarding mail processing and
    relating to health care fraud.                      workplace environment. The constituent
                                                        alleged there was delayed mail in the
◆   The United States Equal Employment                  processing center and that Postal Service
    Opportunity Commission contacted the                management improperly responded to an
    OIG about a postal employee’s concerns              anthrax scare. The constituent alleged a
    regarding a Postal Service supervisor who           number of factors created a hostile work-
    allegedly had an inappropriate relation-            ing environment. The OIG visited the
    ship with another postal employee. The              processing center and found some
    complainant stated the inappropriate                delayed mail in the facility. Steps were
    relationship created a hostile working              taken by Postal Service management to
    environment at a Montana post office.               resolve the delayed mail; however, the
    The OIG review revealed that a hostile              OIG did not address the anthrax issue,
    workplace environment might have                    which was previously identified through
    existed during the specified time period.           other congressional channels and exam-
    District management has initiated several           ined by the Postal Service. The OIG’s
    actions to resolve the situation. For               review concluded the Postal Service fol-
    example, a conflict management work-                lowed standard procedures, such as evac-
    shop was held at the postal facility to             uating infected areas and assigning
    improve workplace communications and                employees to other duty stations. The          An OIG review disclosed the Postal
    the Postal Service supervisor will receive          hostile workplace environment issue was        Service did not know whether Jeeps sold
    leadership training.                                                                               to salvage yards were destroyed.
                                                        also previously examined. The OIG
◆   In responding to a congressional inquiry            determined that local, district, and area
    regarding the process for choosing a loca-          officials were taking effective steps to
    tion for a Pennsylvania post office, a con-         improve the workplace environment.
    stituent alleged the site was inappropriately        In addition to the above requests, the OIG
    chosen because of insufficient space for a
                                                    has implemented a process to rapidly respond to
    pedestrian walkway, the constant threat
                                                    requests made by the Governors and senior
    of flooding by an adjacent stream, and
                                                    postal management. This is driven by the need
    other factors, including the issue of leas-
    ing versus owning. The OIG review con-          to quickly communicate information to assist
    firmed that the Postal Service followed         with decision making or to clarify issues, poli-
                                                    cies, and procedures. During this reporting



                                                                                                        PAGE 65
                                         period, the OIG provided information on the             Advocate involving complaints related
                                         following matter:                                       to customer service issues, particularly
                                         ◆ An OIG review, performed in response to               mail delivery;
                                              a request from the Board of Governors,         ◆   Forty-four percent were related to miscel-
                                              examined disposal issues associated with           laneous requests for information such as
                                              Postal Service quarter-ton delivery Jeeps.         ZIP Codes, postage meters, and other
                                              The review disclosed the Postal Service            Postal Service-related matters; and
                                              did not know whether Jeeps sold to sal-
                                              vage yards were destroyed. The OIG             ◆   Nearly 3 percent of Hotline contacts
OIG HOTLINE                                                                                      were assigned to OIG staff for further
                                              found that the majority of the Jeeps were
◆ Toll-Free, 1-888-USPS-OIG                   destroyed according to signed agree-               review for fraud, waste, abuse, and mis-
  (1-888-877-7644)                            ments. However, the actual number                  management.
◆ TTY (Hearing Impaired)                      destroyed could not be substantiated               Some examples of OIG Hotline work are
  1-866-OIG-TEXT                              because retention of the agreement var-        highlighted below:
  (1-866-644-8398)                            ied by vehicle maintenance facility and
◆To write to the OIG Hotline:                                                                ◆   Received complaints from five customers
                                              observations of Jeep destruction were not
  ATTN: OIG Hotline                                                                              who alleged they were defrauded by mov-
                                              always documented. (TD-OT-03-001)
  1735 North Lynn Street                                                                         ing companies referred to them by a link
                                                                                                 from the Postal Service website the
  Arlington, VA 22209-2020               OIG HOTLINE PROVIDES A VITAL
◆To e-mail the OIG Hotline:              AND CONFIDENTIAL COMMUNI-                               postal customers used to electronically
  hotline@uspsoig.gov                    CATIONS LINK                                            process a change of address. The matter
◆To fax information toll-free:                                                                   was brought to the attention of Postal
                                              The OIG Hotline provides a vital and con-
  1-866-756-6741                                                                                 Service Headquarters officials who dis-
                                         fidential communications link between the
                                                                                                 continued the “Movers Source” program
                                         OIG and individuals who contact the Hotline             and severed the link from the Postal
                                         to report allegations of fraud, waste, abuse, and       Service website.
                                         mismanagement.
                                                                                             ◆   Received a complaint that alleged Postal
                                         Responding to Hotline Inquiries                         Service funds were being wasted because
                                              The Hotline receives complaints from               both letter carriers and postal vehicle ser-
                                         employees, customers, and the general public            vice drivers were being used to transport
                                         concerning alleged violations of laws, rules, or        mail in the same areas. The Hotline tip
                                         regulations; mismanagement; waste of funds;             resulted in an OIG audit, which deter-
                                         abuse of authority; and danger to public health         mined postal employees were performing
                                                                                                 overlapping work and routinely crossing
                                         and safety. Complaints and allegations received
                                                                                                 paths while transporting mail.
                                         by the Hotline are analyzed to identify systemic
                                         issues affecting the Postal Service, and are             The OIG Hotline is staffed from 7 a.m. to
                                         referred for appropriate action. The OIG also       5 p.m., Eastern Standard Time, Monday
The OIG Hotline team handled almost
                                         considers Hotline contacts when planning            through Friday (except federal holidays). Calls
9,700 contacts this reporting period.
                                         audits and projects.                                can be made 24 hours a day, 7 days a week.
                                              During this reporting period the Hotline       Threats and any other potentially violent work
                                         received almost 9,700 contacts, some of which       situations are routed immediately to the Postal
                                         were addressed by the OIG in audits and inves-      Police Control Center for action 24 hours a day
                                         tigations on issues such as waste, fraud, abuse,    either by an OIG Hotline analyst or through a
                                         mismanagement, deficient postal operations,         caller-directed menu system. OIG Hotline con-
                                         personnel matters, and other concerns. In           tact information is provided in the margin to
                                         addition:                                           the left.

                                         ◆   Twenty-nine percent were addressed by           PROPOSED LEGISLATION,
                                             the Inspection Service and involved             REGULATIONS, AND POLICY
                                             criminal issues such as mail theft, assaults         As required by the Inspector General Act,
                                             and threats, and workers’ compensation          the OIG monitors existing and proposed legisla-
                                             fraud;                                          tion and regulations to advise Congress and the
                                         ◆   Twenty-four percent were addressed by           Governors of the impact of such legislation and
                                             the Postal Service’s Office of Consumer         regulations on Postal Service programs and

                               PAGE 66   CUSTOMER SERVICE
operations. During the 6-month reporting             nas for audits and investigations for which the
period, the OIG evaluated 25 legislative propos-     OIG has jurisdiction. This includes authority to
als and 51 regulatory initiatives. Highlights of     issue subpoenas in support of certain investiga-
the legislative and regulatory proposals are         tions of the Inspection Service. An Inspector
included at the end of the appropriate section       General subpoena is a valuable audit and inves-
that describes the OIG and Inspection Service        tigative tool. It enables the OIG to secure doc-
reviews performed in the last 6 months.              umentary information and evidence that,
                                                     unlike grand jury subpoenas, can be readily used
FREEDOM OF INFORMATION ACT
                                                     in civil and administrative proceedings, as well
REQUESTS
                                                     as criminal cases.
     The OIG is committed to making all
                                                          Inspector General subpoenas are not self-
final audit and management advisory reports
                                                     enforcing. If a subpoena is not complied with,
available to the public, unless the law pro-
                                                     OIG attorneys and special agents, and Postal
hibits disclosure. The OIG website, http://
                                                     Inspectors, first attempt to negotiate with the
www.uspsoig.gov, contains all releasable final
                                                     subpoena recipient to obtain the requested doc-
audit and management reports. A list of all
                                                     uments. If this is not successful, the OIG seeks
reports, including those that are not
                                                     enforcement in United States district court.
releasable, is also included on the web page.                                                               FREEDOM OF INFORMATION ACT REQUESTS
                                                     The courts generally enforce the subpoena as
     Before posting a report on the website, the                                                             For the period October 1, 2002, through
                                                     long as the inquiry is within the authority of the
OIG reviews each report in accordance with the                                                                           March 31, 2003
                                                     agency, the information sought is reasonably rel-
Freedom of Information Act, the Privacy Act,
                                                     evant to the agency’s inquiry, and the demand is      OIG                                    Number of
and the Postal Reorganization Act. The OIG                                                                 Activity                                Requests
                                                     not unduly burdensome.
may coordinate its review with Postal Service
                                                          Since its inception, the OIG has been suc-
management and attorneys. In deciding what                                                                 Carryover from prior period                   5
                                                     cessful in enforcing every subpoena that has
information to release, the OIG balances the                                                               Received during the period                   65
                                                     been challenged in court. This success is due to
public’s right to access federal agency records                                                             Total on hand during the period             70
                                                     the subpoena review process. The review is
with individual privacy rights as well as the                                                              Processed during the period
                                                     comprehensive in terms of scope of review, level
Postal Service’s need to safeguard certain pro-                                                               Released                                   25
                                                     of supervisory review, and signature authority.
tected information. As a result, OIG reports                                                                  Withheld                                    9
                                                     All subpoenas undergo thorough, progressive
may be withheld in whole or in part to protect                                                                Referred to Postal Service
                                                     investigative and legal reviews. The subpoena             or other agency                          20
privacy as well as proprietary or confidential
                                                     process requires OIG special agents and Postal           Otherwise closed*                          8
information. The OIG responds to many writ-
                                                     Inspectors to submit a written justification with      Total processed during the period           62
ten requests for reports and other information
                                                     their subpoena request. After supervisory             Balance at end of the period (Pending)        8
under the Freedom of Information Act. As of
                                                     review, the OIG legal staff evaluates each sub-
July 15, 2002, the OIG began deciding all OIG-
                                                     poena to ensure the subpoena can withstand a          *Otherwise closed includes no responsive documents,
related Freedom of Information Act appeals to
                                                     legal challenge. The Inspector General, the           improper requests, requests withdrawn, etc.
more efficiently safeguard individual privacy
                                                     Deputy Inspector General, the Assistant
and sensitive OIG information while ensuring
                                                     Inspector General for Investigations, and the
maximum access. Freedom of Information Act
                                                     Deputy Assistant Inspector General for                 FREEDOM OF INFORMATION ACT APPEALS
appeals are handled by the OIG Legal Services
                                                     Investigations are the only individuals autho-         For the period October 1, 2002, through
Team and such authority is outlined under Title
                                                     rized to sign Inspector General subpoenas.                         March 31, 2003
39 Code of Federal Regulations § 230.5(e).
                                                          During this reporting period the OIG suc-
     In this reporting period, the OIG processed                                                           OIG                                   Number of
                                                     cessfully defended a contractor’s challenge to an
62 Freedom of Information Act requests and                                                                 Actions                                 Appeals
                                                     OIG subpoena for financial records. The con-
reviewed 3 Freedom of Information Act
                                                     tractor challenged the OIG’s right to subpoena        Total appealed                                 3
appeals, as indicated in the charts located in the
                                                     bank records, which is controlled by the Right        Total upheld                                   3
right margin.
                                                     to Financial Privacy Act. On January 16, 2003,        Appeals pending                                0
INSPECTOR GENERAL                                    a United States Magistrate Judge ordered a bank
SUBPOENAS                                            to provide the records because the OIG demon-
    Pursuant to the Inspector General Act, the       strated that the records were relevant to an OIG
Inspector General is authorized to issue subpoe-     investigation.



                                                                                                          PAGE 67
                                                   SPECIALIZED SERVICES                                 ◆   The OIG administered polygraph exami-
                                                                                                            nations to two postal employees who
                                                  COMPUTER FORENSICS                                        worked at a post office in New Mexico.
                                                       The OIG has an investigative team of                 The examinations were requested to help
                                                  technology specialists who conduct forensic               identify the person responsible for hack-
                                                  examinations and computer investigations and              ing into the Postal Service’s computer
                                                                                                            system and using the system to commu-
                                                  provide other technology support to OIG inves-
                                                                                                            nicate threats of violence. However, the
                                                  tigations. The OIG’s forensics support compo-
                                                                                                            OIG’s examinations of both postal
                                                  nent is critical in supporting the data-intensive
                                                                                                            employees indicated no deception to the
                                                  investigative efforts of the OIG. Few OIG                 relevant issues.
                                                  investigations are initiated that do not involve
                                                  some form of analysis of computer data seized         COMPUTER-ASSISTED
                                                  from the subjects, companies, and victims of          ASSESSMENT TECHNIQUES
                                                  crimes. Such data can be in the form of mali-              The OIG uses automated methods and
                                                  cious software, e-mail, databases, documents,         tools to extract and analyze electronic data
                                                  and images from a wide variety of technologies.       located in over 900 postal systems in support of
                                                       The falling cost of data storage devices is      its audit and investigative efforts. The OIG has
                                                  having a significant impact on the amount of          achieved success by developing programming
                                                  data seized during the OIG’s investigations, as       techniques to independently access the large
                                                  well as for investigations conducted by the rest      database systems in San Mateo, California, and
                                                  of the law enforcement community. The low             Minneapolis, Minnesota, as well as numerous
                                                  cost of such storage devices is generating a rev-     remote Oracle database systems throughout the
A subpoena is a crucial investigative
                                                  olution in the world of forensics. The OIG is         postal network. The OIG has used these tech-
tool that allows the OIG to secure
documentary information and evi-                  meeting these challenges by gathering and             niques when performing the following work this
dence.                                            employing technologies that support decentral-        reporting period, including:
                                                  ized analysis of very large amounts of data.
                                                                                                        ◆   Developing computer programs to
                                                       In addition, the OIG has provided support
                                                                                                            extract data from the Voyager eFleet card
                                                  to other agencies such as the Federal Housing
                                                                                                            system within the Southwest Area. See
            SUBPOENAS ISSUED                      Finance Board Office of Inspector General. The            write-up page 23.
                                                  team seized and conducted forensic analysis on
     For the period October 1, 2002,                                                                    ◆   Using original and creative methods to
                                                  14 computer hard drives comprising 380 giga-
        through March 31, 2003                                                                              extract data from the Facilities
                                                  bytes of data. The OIG’s analysis of the data on
                                                                                                            Management System, the OIG identified
    Types of                    Number            the hard drives identified a series of critical
                                                                                                            and completed “New Construction
   Subpoenas                     Issued           e-mails and data.
                                                                                                            Owned” facility projects and performed
  OIG                                                  The OIG also conducts forensic examina-              additional calculations of the authorized
    Inspector                                     tions of computer media seized during investiga-          paid amount for construction and design.
    General Act                    63             tions. These examination techniques are used              See write-up page 36.
    Right to                                      to image computer media for later examination.
    Financial                                                                                           ◆   Developing complex computer programs
                                                  During this reporting period, the OIG imaged
    Privacy Act                    2                                                                        to extract data from the Facilities
                                                  over 29 hard disk drives in support of 6 OIG              Management System. The review’s
  Inspection Service                              investigations.
     Inspector                                                                                              objective was to determine the effect of
     General Act                  120             POLYGRAPH SERVICES                                        the capital freeze on the Postal Service’s
                                                                                                            ability to maintain, preserve, and expand
     Right to                                          The OIG polygraph program aids criminal
     Financial                                                                                              buildings as needed in an economical and
                                                  investigators and is an effective tool to assist in
     Privacy Act                   2                                                                        effective manner. See write-up page 37.
                                                  proving guilt as well as innocence. OIG poly-
  Total                           187
                                                  graph examiners represent the OIG within the
                                                  polygraph community and on the Federal
                                                  Polygraph Executive Committee. An example
                                                  of the effective use of polygraph examinations
                                                  follows:



                                        PAGE 68   CUSTOMER SERVICE
◆   Applying data-mining techniques to the
    Retail Data Mart to keep abreast of new
    data technologies being used by the
    Postal Service. The Retail Data Mart
    tracks all retail transactions at postal
    facilities. It is the first part of the Postal
    Service’s Enterprise Data Warehouse to
    enhance business decisions and to create
    a demand chain solution. The OIG has
    expanded its current programming profi-          What outreach efforts does
    ciency to tackle the analysis of the Retail      the OIG use for recruitment of
    Data Mart and various parts of the
    Electronic Data Warehouse as it comes            staff?
    on-line. See write-up page 45.                   The OIG advertises its vacancies
◆   Extracting data from the Postal Injury           in numerous newspapers and
    Compensation System and the Postal               periodicals as well as the Internet;
    Service Payroll System, assisting auditors       recruits at colleges, universities,
    to identify detailed employees on the
                                                     and professional organizations,
    workers’ compensation periodic rolls. See
    write-up page 53.                                including those with large
                                                     minority representation; and
                                                     attends professional conferences
                                                     throughout the United States.




                                                     Today’s storage devices hold more data.
                                                     For example, a one-gigabyte device can
                                                     store the equivalent of a stack of paper
                                                     100 feet tall, or 75 boxes of paper.




                                                      PAGE 69
          INSPECTION SERVICE

          T
                   he Inspection Service has adopted
                   numerous initiatives to improve cus-
                   tomer service. The Inspection Service
          alerts consumers and businesses to current
          crimes by attracting media attention to postal
          crime trends, publicizing positive law enforce-
          ment accomplishments, circulating media
          releases, and hosting crime prevention presenta-
          tions. The Inspection Service is responsible for
          communicating its law enforcement and crime
          prevention achievements to the American pub-
          lic, Congress, the Postal Service, and the law
          enforcement community.
               In an effort to maintain the integrity of the
          mail and ensure the confidence and trust that
          government agencies, businesses, and customers
          place in the Postal Service, the Inspection
          Service conducts mail fraud investigations that
          focus on a variety of complex schemes. To pro-
          mote consumer protection, the Inspection
          Service utilizes specialized investigative tools
          and techniques such as criminal forensic labora-
          tories, technical surveillance and communica-
          tions, polygraph examiners, and digital
          evidence recovery units to solve crimes com-
          mitted against the public.




          Inspection Service crime laboratories analyze evidence
          to assist with solving crimes.




PAGE 70   CUSTOMER SERVICE
Goals and Strategies




  How does the OIG differ from the Inspection Service?
  OIG employees are postal employees, but the OIG is an
  independent, separate part of the Postal Service. OIG's
  criminal investigators are Special Agents, not Postal
  Inspectors. The OIG utilizes auditors and evaluators in
  addition to Special Agents. Postal Inspectors are primarily
  responsible for the sanctity of the mail, and the safety and
  security of postal employees and facilities. The OIG has
  oversight of the Postal Inspection Service's operations.




                                              PAGE 71
                                            This section describes the OIG and                 operations, while eliminating and preventing
                                            Inspection Service vision and goals for            fraud, waste, abuse, and mismanagement. This
                                            assisting the Postal Service in achieving its      plan was designed to address the Postal Service’s
                                            operational, performance, and financial            strategic direction and objectives outlined in
                                            goals in the 21st century. In addition, this       the Postal Service’s Strategic Plan for
                                            section describes the process by which the         FYs 2001-2005, which reflected a growing
                                            OIG translates its vision into an annual           uncertainty about the future implications of
                                            performance plan. In order to differentiate        emerging technologies, changing customer
What are OIG’s values?                      between the OIG and Inspection Service,            requirements, and competitors’ actions on mail
                                            the page concerning the Inspection Service         volume and postal revenues. The OIG is work-
The OIG’s core values are
                                            has been color-screened.                           ing on updating its strategic plan that will be
teamwork, leadership,
                                                                                               released in FY 2004.
communication, creativity, and                                                                      The OIG’s strategic planning process has
conceptualization (TLC3).                                                                      four distinct steps. First, the OIG determines
                                           OFFICE OF INSPECTOR                                 the major management issues facing the Postal
                                           GENERAL                                             Service. Second, the OIG assesses Postal
                                                                                               Service operations and activities, broadly
                                           STRATEGIC GOALS                                     defines realistic goals, sets priorities in line with


                                           I
                                               n March 2001, the OIG published a revised       the Postal Service business vision, and develops
                                               Five-Year Strategic Plan for FYs 2001-2005.     effective strategies and action plans that align
                                               Each aspect of this plan is in accordance       the OIG’s activities to best help the Postal
                                           with the President’s management agenda and          Service improve its effectiveness and efficiency.
                                           the principles of the Government Performance        Third, the OIG measures progress in meeting
                                           and Results Act. The OIG’s strategic plan is        those goals. And fourth, the OIG updates and
                                           outcome-oriented and focuses on the funda-          revises goals, strategies, and performance mea-
                                           mental mission to increase the efficiency and       sures to continually align its efforts with the
                                           effectiveness of Postal Service programs and        changing business needs of the Postal Service.


                                                  Office of Inspector General
                                                 FY 2003 Goals and Strategies
          GOALS                              STRATEGIES                              GOALS                               STRATEGIES


    The OIG will be the                     Annually identify major           The OIG is an independent                  Maintain a values-
                                            management issues                                                            based organization that
    independent voice that                  and independently develop         entity that maximizes                      attracts, develops, and
                                            work priorities that assist                                                  retains a talented and
    provides its stakeholders               the Postal Service in             resources, leverages cutting-              diverse workforce.
    with timely, accurate, and              addressing major                  edge technology, and
                                            management issues.
    relevant information                                                      provides a healthy                        Independently manage
                                            Independently provide                                                       and optimize OIG
    that contributes to the                 the right information to          organizational culture and                resources, including
                                            the right people at the                                                     leveraging cutting-edge
    success of the Postal Service.          right time.                       environment.                              technology.




                                 PAGE 72   GOALS AND STRATEGIES
      The OIG’s strategic plan identified two        found the OIG accomplished over 84 percent of
overarching goals. Under each goal, OIG iden-        its performance measures. Based upon informa-
tified two strategies designed to achieve each       tion gained from FY 2002, the OIG updated its
goal.                                                performance measures for FY 2003 and
                                                     increased its challenges.
PERFORMANCE MEASURES AND
RESULTS                                              OIG PLANNING PROCESS
     As a part of the planning process, it is nec-        To ensure long-term success, it is necessary
essary to establish performance measures to          for the Postal Service and the OIG to plan
determine how well the OIG is achieving its          reviews, audits, and investigations appropri-
goals. These measures provide a baseline and         ately. As part of its planning process, the OIG
give the OIG the ability to monitor and track        seeks input from key stakeholders, including
trends over time. It is imperative to ascertain a    Congress, the Governors, Postal Service man-
benchmark of current performance, resources          agers, the Postal Rate Commission, employee
used, products produced, and results achieved to     unions, management associations, and major
identify appropriate performance measures that       mailers to identify risk areas and emerging chal-
lead to the OIG’s achievement of its strategic       lenges that would benefit from the OIG’s
goals. To that end, the OIG continually reviews      review. Suggestions received are considered dur-
stakeholder input, data from tracking systems,       ing the annual OIG planning process, and
and cumulative management experience to              become part of the universe of projects for con-
ensure the OIG’s stated objectives are on target.    sideration. This creates a unique opportunity for
As the OIG obtains new information, it evalu-        the OIG to provide independent analysis and
ates and updates OIG goals, strategies, and per-     information to assist Postal Service manage-
formance measures.                                   ment officials in fulfilling their responsibilities.
     The annual performance measures are not              Projects from the universe are selected on
intended to measure the work of the OIG in its       the basis of risk and OIG resources available for
totality. Rather, they are a means of focusing on    the year. The OIG selects the highest priority
select areas so efforts can be concentrated and      projects for inclusion in the annual perfor-
substantive improvement made. The strategies         mance plan and the annual audit workload
contained in the OIG’s strategic plan provide        plan. As part of the selection process, the OIG
guidance and an overarching structure, while         considers the project’s potential impact on:
allowing for flexibility in achieving the goals.                                                                           Planning System
                                                     ◆    Postal Service labor and capital resources
OIG managers use this plan to identify and                                                                                 Interrelationship
communicate general work product milestones          ◆    Postal-wide operations and goals
and to monitor efforts toward strengthening the      ◆    Public trust                                        OIG
                                                                                                                                  OIG
                                                                                                              POSTAL              ANNUAL                AUDIT
OIG’s capability to fulfill its mission.                 This audit workload plan is presented to             PROJECT             PERFORMANCE           WORKLOAD
     The OIG monitors its performance and                                                                     UNIVERSE            PLAN                  PLAN
                                                     the Postal Service Governors each year. The
seeks ways to improve. By maintaining objec-         plan is adjusted throughout the year as the
tive data on key performance areas, the OIG is       OIG’s work reveals new issues or the Postal               AUDITS & AUDIT RELATED PROJECTS
able to periodically measure and assess its          Service encounters new challenges.                        INVESTIGATIONS
progress in achieving goals. Annually, the OIG                                                                                                   QUICK RESPONSE
                                                                                                               OTHER PROJECTS
establishes performance measures to emphasize        OIG AUDIT WORKLOAD PLAN                                                                     FACT-FINDINGS

                                                                                                               INTERNAL ENABLING FUNCTIONS
program objectives, promote teamwork, and                 In a previous section of this Semiannual
encourage innovation throughout the OIG.             Report, the ten major management issues facing
These measures are linked to a team award that       the Postal Service were discussed. In preparing
is structured to reward commitment to the            its audit workload plan, the OIG consolidated
strategic priorities of the OIG and to reinforce     the major management issues facing the Postal
the importance of providing high-quality and         Service into four major areas along with the
value-added services that contribute to the suc-     oversight of the Inspection Service. The OIG
cess of the Postal Service.                          will continue to focus its audit attention on
     The FY 2002 performance results were val-       these five major areas to help address critical
idated by an independent federal agency, which       issues facing the Postal Service:


                                                                                                            PAGE 73
                                         ◆   improving safety and security of the mail       ◆   Costs
                                             for employees and customers;                        ◆ Injury compensation costs
                                         ◆   reducing workers’ compensations costs;              ◆ Medical costs
                                         ◆   improving financial performance and                 ◆ Return to work
                                             accountability;
                                                                                             ◆   Outplacement Efforts
                                         ◆   enhancing productivity through
                                             technology and improving the quality            ◆   Programs
                                             of electronic information; and                      ◆ Administration
                                         ◆   overseeing the Inspection Service.                  ◆ Rehabilitation program
                                              The following presents each of these five          ◆ Pre-injury safety program
                                         areas and the focus of the OIG’s audit efforts.
                                                                                             Improving Financial Performance and
                                         Improving Safety and Security of the                Accountability
                                         Mail for Employees and Customers                         Increasing productivity while controlling
                                              The anthrax mail contamination has             costs is crucial for the Postal Service to reduce
                                         threatened customer confidence in the Postal        anticipated losses. The cost of maintaining and
                                         Service’s ability to continue to provide safe and   servicing a growing universal delivery network
                                         secure mail services. A decline in customer con-    has escalated while mail volumes have
                                         fidence could cause customers to seek services      decreased. The Postal Service needs strong con-
                                         other than traditional mail, which will reduce      trols and aggressive efforts to ensure that con-
                                         volume and revenue. The Postal Service must         tracts and programs are managed effectively.
                                         restore and maintain customer confidence in its     Recent financial trends are encouraging; how-
                                         ability to keep secure and safely deliver the       ever, the Postal Service needs to sustain the
The Postal Service Annual Report         nation’s mail. The OIG has focused on the fol-
highlights the Postal Service’s                                                              progress made and continue to improve finan-
accomplishments for the year.
                                         lowing:                                             cial performance and accountability. The OIG
                                         ◆   Biohazard detection and filtration              will focus on the following:
                                             ◆ Anthrax irradiation                           ◆   Financial system integrity
                                         ◆   Collection boxes                                ◆   Financial statements
                                         ◆   Mail processes                                      ◆ Field installations
                                             ◆ Air mail                                          ◆ Cost and revenue analysis
                                             ◆ International mail                                ◆ Treasury-related issues
                                         ◆   Crime prevention                                    ◆ Protective reviews
                                             ◆ Security cameras                              ◆   Budget
                                                                                                 ◆ Planning
                                         Reducing Workers’ Compensation Costs
                                              Workers’ compensation costs have                   ◆ Execution
                                         increased 35 percent in the last 3 years. As the        ◆ Systems
                                         largest participant in the Federal Workers’         ◆   Contracting activities
                                         Compensation Program, the Postal Service
                                                                                                 ◆ Fair and reasonable contract pricing
                                         accounted for $760 million of the total $2.2 bil-
                                         lion in federal workers’ compensation outlays           ◆ Reasonableness and allowability of
                                         for claims in FY 2002. Controlling workers’               incurred costs
                                         compensation costs is a priority issue for the          ◆ Adequacy of contractor systems
                                         Postal Service and is critical to improving its         ◆ Contract administration
                                         financial condition. The OIG will focus on the
                                                                                                 ◆ Identification of potential corruption
                                         following:
                                                                                                   in the Postal Service’s contracting and
                                                                                                   procurement process




                               PAGE 74   GOALS AND STRATEGIES
◆   Facilities and real estate                          ◆ City carrier productivity
    ◆ Justification, approval, and budgeting            ◆ Vehicle maintenance facilities
    ◆ Construction management
                                                    Overseeing the Inspection Service
◆   Logistics                                            The Inspector General Act requires the
    ◆ Transportation systems and operations         OIG to conduct oversight reviews of the
    ◆ Material management                           Inspection Service in addition to OIG’s audit
                                                    and investigative responsibilities over postal
    ◆ Staffing
                                                    operations. OIG efforts in this area will focus on
    ◆ Highway network scheduling                    the following:
◆   New postal initiatives
                                                    ◆   Public trust
    ◆ Shared services
                                                        ◆ Function and role
    ◆ General ledger redesign
                                                        ◆ Operational effectiveness
    ◆ Monthly reporting
                                                        ◆ Management controls
Enhancing Productivity Through                          ◆ Internal affairs
Technology and Improving the Quality
of Electronic Information
     Enhancing productivity through the use of
technology is key to the Postal Service’s ability
to improve its service, productivity, and prof-
itability. While it depends on technology to
handle more than 660 million pieces of mail
every day, the Postal Service also depends on
high quality information in order to improve
and sustain service performance. In addition,
changes in technology make timely and accu-
rate data critical for effective decision making.
OIG efforts will focus on the following:
◆   Information systems
    ◆ Information infrastructure and
      architecture
    ◆ System performance and integrity
    ◆ Systems development and
      implementation
    ◆ Disaster recovery and business
      continuity plans
◆   Computer security
    ◆ Access
    ◆ Data protection
    ◆ Data integrity
◆   Accepting and Processing
    ◆ Mail tracking (scanning)
    ◆ Breakthrough productivity initiatives
    ◆ Network integration and alignment
◆   Transportation/Delivery



                                                                                                         PAGE 75
             INSPECTION SERVICE

             T
                      he Inspection Service must supplement
                      its reactive capability with proactive
                      strategies to deter and prevent criminal
             activity. To accomplish this, the Inspection
             Service has developed five long-term strategic
             goals and related objectives. The new strategic
             plan begins with three critical imperatives:
             safety, security, and integrity.




                                             Inspection  Service
                                             Inspection Service
                                         FY2003 Goalsand
                                         FY2003 Goals  and  Objectives
                                                          Objectives

                                         GOALS                                                          OBJECTIVES



                 Ensure a safe and secure drug-free work environment         • Ensure employee screening is effective
Safety                                                                       • Enhance security of postal facilities




                 Reduce and deter criminal attack of                         • Reduce theft of mail
                 postal products, services, and assets                       • Reduce and deter criminal misuse of the Postal Service’s workers’
Security                                                                       compensation program and reduce costs due to
                                                                               fraudulent schemes




                 Reduce the use of the postal system to defraud consumers,   • Protect consumers and business from fraud schemes
                 businesses, and government agencies and prevent its use     • Reduce the use of postal money orders and the postal system
Integrity        to transport prohibited, illegal, and dangerous mailings      to launder money
                                                                             • Reduce and deter the use of the U.S. Mail for the procurement or
                 and their proceeds
                                                                               delivery of materials that promote the sexual exploitation of children




   PAGE 76   GOALS AND STRATEGIES
Organizational Dynamics




   The OIG staff consists of auditors,
   criminal investigators, evaluators,
   attorneys, experts, technicians, and
   administrative personnel from federal
   and state government agencies, private
   industry, nonprofit organizations and
   the Postal Service.




                                            PAGE 77
                                              This section describes the OIG and the                   mismanagement, and other improprieties
                                              Inspection Service organizational vision,                and concerns, with protection from man-
                                              values, culture, and diversity that assist               agement retaliation.
                                              with providing value-added service to the            ◆   Identifies cost savings and recommends
                                              Postal Service. In order to differentiate                improvements for contract and program
                                              the work reported by the OIG and the                     administration, employee integrity, and
                                              Inspection Service, the pages containing                 program efficiency.
                                              the work reported by the Inspection Service          ◆   Participates in audit resolution, a mecha-
    What is the OIG’s Workplace               have been color screened.                                nism for resolving findings and recom-
                                                                                                       mendations when the OIG and Postal
    Enhancement Team?                                                                                  Service management disagree.
    The OIG’s Workplace
                                              OFFICE OF INSPECTOR                                       The OIG adds value to Postal Service
    Enhancement Team provides
    support and services to the OIG
                                              GENERAL                                              operations, contributes to a more efficient, eco-
                                                                                                   nomical and effective organization, and helps
    in internal work life, organiza-          AN INDEPENDENT VOICE                                 the Postal Service maintain its integrity
    tional climate, diversity, equal                                                               through independent investigations, audits,


                                              T
                                                      he OIG is an independent agency
    employment opportunity, and                       within the Postal Service and is under       and reviews. To improve Postal Service pro-
    other workplace related issues.                   the general supervision of the nine pres-    grams and operations, the OIG provides inde-
                                              identially appointed Postal Service Governors.       pendent and objective information, analysis,
                                              From 1988 until the establishment of the OIG         and recommendations. The OIG is continuing
                                              in 1996, the Chief Postal Inspector performed        to work with Postal Service management to
                                              dual roles as the Inspector General and Chief        inform them of the duties and responsibilities of
                                              Postal Inspector and reported to the Postmaster      the OIG and to demonstrate how the OIG adds
                                              General. In January 1997, Karla W. Corcoran          value to Postal Service processes.
                                              was sworn in as the first independent Inspector      OIG VISION AND VALUES
                                              General of the Postal Service. In carrying out its
                                                                                                        The vision of the OIG is “A Constellation
                                              responsibilities under the Inspector General
                                                                                                   of Talented People Making a Difference.” This
                                              Act, the OIG:
                                                                                                   vision reflects the OIG’s mission to shed light
                                              ◆   Provides Congress, the Governors, and            on Postal Service challenges and identify oppor-
                                                  Postal Service management with timely,           tunities for improvement by emphasizing five
                                                  objective, and complete information on           fundamental values:
                                                  and analysis of Postal Service operations.
                                                                                                   Teamwork—Diverse talents and levels
                                              ◆   Conducts audits and investigations of all            working cooperatively and collaborative-
                                                  Postal Service operations and activities,            ly toward producing timely, relevant, and
                                                  including ratemaking, contract adminis-              quality work products and services that
                                                  tration, labor management, accepting                 add value to the Postal Service and the
                                                  and processing, transportation, delivery,            OIG.
                                                  financial management, developmental,
                                                  information systems, computer intrusion,
                                                                                                   Leadership—Encouraging each employee to
                                                                                                       be the best they can be regardless of posi-
                                                  electronic commerce, and marketing.
                                                                                                       tion or grade, understanding that all lev-
                                              ◆   Maintains oversight of Inspection Service            els of employees are expected to play a
                                                  operations and performs independent                  role in developing and directing every
                                                  reviews of complaints against its                    effort performed.
The OIG’s values make up the core                 employees.
of its culture and define how it                                                                   Creativity—Cultivating fresh perspectives in
performs its work.                            ◆   Reviews computer security and conducts               the development of new processes and
                                                  computer intrusion activities to identify            techniques that will improve Postal Ser-
                                                  vulnerabilities in postal systems.                   vice and OIG operations.
                                              ◆   Serves as an objective venue for all             Communication—Ensuring cross-level and
                                                  Postal Service employees and other                   cross-functional sharing of all information
                                                  stakeholders to report fraud, waste, abuse,          as well as facilitating honesty, openness,


                                    PAGE 78   ORGANIZATIONAL DYNAMICS
    respect, and consideration of the contri-        similar organizations that traditionally have
    butions and opinions of others.                  more men than women and more non-minori-
Conceptualization—Keeping one’s “eye on              ties than minorities. The Postal Service
    the ball” and recognizing interrelation-         Inspector General Office’s 51 percent female
    ships to accomplish desired results.             ratio is also higher than the 45.7 percent for the
                                                     civilian labor workforce and 45 percent for
OIG CULTURE AND EMPLOYEES                            other federal government offices, as computed
Embracing Best Workplace Practices for               by the Census Bureau. In addition, the 33 per-
OIG Employees                                        cent women in the Office of Inspector General’s
     The OIG’s culture is defined by the diver-      executive service is higher than the 24 percent
sity of its employees, who share the organiza-       women executives at other federal government
tion’s core values of teamwork, leadership,          offices. In fact, comparing the OIG’s diversity to
creativity, communication, and conceptualiza-        others, the OIG would be number one on
tion. The OIG is committed to creating and           Fortune magazine’s 2002 annual list of
maintaining a workplace that is enriched by the      “America’s 50 Best Companies for Minorities.”
talents, contributions, and full participation of    This is as a result of the OIG’s commitment to
all of its employees and reflects the tremendous     hire, promote, and retain the best diverse talent
diversity of the postal community. Diversity is a    available.
tool for achieving the OIG’s mission and                  The OIG continues to be proactive in
enhancing its organizational effectiveness by        ensuring a productive, inclusive, and quality
using the creative energies of employees who         work culture and environment for its employ-
contribute different approaches, solutions, and      ees. The OIG’s employees are the organization’s
innovations.                                         most valuable resource. Therefore, it is essential
     The OIG workforce is diverse in age, race,      the best workplace practices and programs are
ethnicity, gender, and background, as well as        incorporated into business operations to support
education, professional accomplishments, work        employees in doing their best work.
experience, and work style. The OIG workforce             As part of its efforts to build and maintain
                                                                                                                     Comparison of OIG
includes Certified Public Accountants,               an organizational culture that is supportive of its
                                                                                                                     Diversity Statistics to
Certified Internal Auditors, Certified Fraud         employees, in 2003, the OIG launched an                      Federal Civilian Workforce
Examiners, Certified Information Systems             employee resource service called LifeWorks,
                                                     which is designed to help employees manage                                                             OIG
Auditors, Certified Information Systems
                                                     their work and personal lives. LifeWorks is a fast,                                    Federal Workforce
Security Professionals, Certified Government                                                               70%
Audit Professionals, Certified Government            confidential, and easy-to-use resource that pro-
                                                                                                           60%
Financial Managers, and Certified Acquisition        vides services on a wide range of work and life       50%

Auditors. OIG employees also hold law                matters through a company that is a leader in         40%

enforcement specialty certifications in areas        workplace effectiveness. Access to LifeWorks is       30%

such as polygraph examinations. In addition,         available to every employee as well as their          20%
                                                                                                           10%
many OIG employees have undergraduate or             immediate family members at no charge to
                                                                                                             0
advanced degrees, while other employees are          either.                                                     WHITE   BLACK   HISPANIC     ASIAN   NATIVE AMERICAN


continuing to work toward professional and                Moreover, the OIG has a wide array of pro-        OIG exceeds minority representation in
                                                     gressive workplace practices and programs in           nearly every category.
academic achievements. OIG employees work
in teams of auditors, evaluators, criminal inves-    place such as those listed below that reflect the
tigators, lawyers, technicians, and administra-      OIG’s leadership role in acknowledging and
tive personnel. These employees have diverse         appreciating its employees and helping them
backgrounds and experiences from federal and         achieve a quality work/life. These include:
                                                     ◆ Senior management commitment to
state government agencies, private industry,
                                                          employees
non-profit organizations, and the Postal
Service.                                             ◆    Employee Advisory Council
     The OIG’s office boasts a workforce of 720      ◆    Administrative Advisory Council
employees consisting of 51 percent women and         ◆    Alternate work schedules
49 percent minorities. This is highly atypical for


                                                                                                             PAGE 79
                                     ◆   Telework option                                 ADHERING TO THE HIGHEST
                                     ◆   Workplace enhancement seminars                  PROFESSIONAL STANDARDS
                                     ◆   Work-Life Resource Library                           The OIG reports to Congress and the nine
                                                                                         presidentially appointed Governors. The
                                     ◆   Sexual harassment prevention training
                                                                                         Inspector General is under the “general supervi-
                                     ◆   Alternative Dispute Resolution                  sion” of the Governors and is not supervised by
                                         (mediation)                                     the Postmaster General. This independence
                                     ◆   Commitment to workforce diversity               from postal management is crucial to the OIG’s
On July 20, 1969, Astronaut          ◆   Workplace Enhancement Team                      credibility and allows the OIG to objectively
Neil A. Armstrong cancelled the                                                          conduct audits and investigations of program
                                     ◆   Professional training and development
                                                                                         operations and to report its findings to the
first piece of mail carried to the
                                     ◆   Supervisory training                            Governors, Postal Service management, and
moon with a postmark, which
                                     ◆   Recognition and awards program                  Congress. To help respond to the challenges the
read “Moon Landing, USA.”                                                                Postal Service faces, the OIG annually identi-
                                     ◆   All-Hands and Town-Hall Meetings
                                                                                         fies major management issues and indepen-
                                     ◆   Business casual dress option                    dently develops work priorities that assist the
                                     ◆   State-of-the-art technology                     Postal Service in addressing these issues.
                                     ◆   Competitive pay scale                                OIG work is performed in accordance with
                                                                                         professional standards, such as the General
                                     ◆   Promotional and career advancement
                                                                                         Accounting Office’s Government Auditing
                                         opportunities
                                                                                         Standards and the President’s Council on Integrity
                                     ◆   Employee assistance program                     and Efficiency’s Quality Standards for Inspections
                                     ◆   Modern facilities                               and Quality Standards for Investigations.
                                          Another example of the OIG’s commit-                Each audit is subject to supervisory review
                                     ment to a quality work environment is its con-      at each stage of the audit process and must meet
                                     tinuance of an organizational performance           established standards for due professional care,
                                     measure in FY 2003 that focuses on workplace        quality, and independence. Each report is sub-
                                     enhancement. This measure is designed to            ject to review by the OIG’s statisticians, attor-
                                     engage all employees in sharing responsibility      neys, editors, and other experts, and is
                                     for enhancing their work environment and            independently referenced by individuals not
                                     work relationships. This measure required all       associated with the project. Draft reports are
                                     employees to complete at least 20 credits of        submitted to Postal Service management, who
                                     activities intended to enhance their skills in      has the opportunity to provide written com-
                                     areas such as effective communication, resolv-      ments in response to the report’s findings and
                                     ing differences, teamwork, and managing stress.     recommendations. These comments are evalu-
                                     This goal for FY 2003 was increased to achiev-      ated and incorporated in the final report.
                                     ing a 95 percent employee participation rate.            In addition, the OIG ensures the highest
                                          OIG employees have responded favorably         ethical standards by performing full security
                                     to the organization’s concerted actions to          background investigations of its employees.
                                     assume a leadership role in embracing compre-       Nearly all OIG employees are required to pro-
                                     hensive best workplace practices and programs.      vide annual financial disclosure statements for
                                     By building and maintaining a supportive cul-       review to determine potential conflicts of inter-
                                     ture, the OIG has successfully provided the tools   est. All employees are required to complete
                                     and resources necessary to maximize employee’s      ethics training each year and meet the OIG’s
                                     performance and morale; contributed toward          established standards for continuing profes-
                                     enhanced mission accomplishment and produc-         sional education.
                                     tivity; promoted an employee-focused and                 Further, the OIG ensures its own compli-
                                     healthy work environment; and created a com-        ance with professional, legal, and ethical stan-
                                     petitive edge in the recruitment and retention      dards through established processes. Every 3
                                     of a quality workforce.                             years, the OIG is selected for a peer review of its




                           PAGE 80   ORGANIZATIONAL DYNAMICS
audit processes by another Inspector General        management issues that the OIG believes must
organization. The OIG also has an effective         be addressed if the Postal Service is to remain a
quality assurance function that evaluates inter-    viable commercial enterprise. The comments
nal processes, programs, and work performed.        are based on the results of audits and investiga-
Complaints against senior OIG management            tions that examine these major management
officials are handled pursuant to an Executive      issues. They summarize OIG work in these key
Order and are investigated by the Integrity         areas to help the Commission as it prepares its
Committee of the President’s Council on             report to the President.
Integrity and Efficiency, headed by a high-rank-          Based on its work, the OIG believes that
ing official of the Federal Bureau of               regardless of the organizational model, the
Investigation.                                      Postal Service may be sustainable if it is
                                                    accountable for results. As the Postal Service
PUBLIC RELATIONS AND
                                                    works to transform itself for the future, it must
OUTREACH
                                                    rely on performance management principles to
      For the first half of the fiscal year, the
                                                    measure progress and inject accountability into
Public Relations team educated Postal Service
                                                    all programs and operations.
stakeholders by issuing news releases that high-
                                                          The OIG will continue to monitor
lighted OIG work, writing stories targeted for
                                                    Commission activities with great interest and
outside publications, and developing, designing,
                                                    review public comments and testimony, and has
and publishing brochures that clearly and sim-
                                                    offered technical assistance to the Commission
ply explain the function of the OIG. In addi-
                                                    as it prepares its report to the President.
tion, the team provided the Postal Service
Governors and key executives with a monthly         OIG SUPPORTS NATIONAL
                                                                                                         The OIG conducts outreach activities
report of OIG activities and achievements.          SECURITY EFFORTS AND
                                                                                                         throughout the year for recruiting and
      To keep OIG employees informed of criti-      PROTECTS AMERICAN PUBLIC                             educational purposes.
cal news affecting the Postal Service, its com-         The OIG continues to be called upon often
petitors, and the OIG, the Public Relations         to assist and lend staff to other government
team publishes daily a compilation of news clip-    agencies in times of national crisis. For example,
pings called Keeping in the Know Daily, which is    the OIG has provided the following support:
posted on the OIG Intranet. This publication        ◆   An OIG special agent possessing Arabic
assists OIG auditors and investigators in their         language skills was detailed to an FBI
work and sometimes inspires future audits and           Joint Terrorism Task Force. The agent
investigations.                                         participated in the arrests of four mem-
      For the second half of the fiscal year, the       bers of the Palestinian Jihad and related
Public Relations team will focus on obtaining           searches. A computer specialist from the
and coordinating speaking engagements for the           OIG’s Technical Crimes Unit also pro-
OIG Leadership Team. This outreach effort is            vided significant assistance to the Task
geared at delivering key messages to organiza-          Force.
tions within the Postal Service and the             ◆   In an espionage trial in Alexandria, Vir-
Inspector General communities. Groups desir-            ginia, an OIG investigator and former
ing an OIG speaker are invited to contact the           military computer expert demonstrated
OIG’s Director of Public Relations at (703)             to jurors how the defendant obtained
248-2100.                                               classified satellite photos of missile sites
                                                        in China and Iraq from a top-secret net-
NOTABLE OIG ACHIEVEMENTS                                work.
OIG SUBMITS STATEMENT TO                            ◆   Technical crimes experts from the OIG
PRESIDENT’S COMMISSION ON                               have actively supported federal law
THE POSTAL SERVICE                                      enforcement agencies in investigating
    In February 2003, the OIG submitted writ-           terrorist activity.
ten comments to the President’s Commission
on the Postal Service highlighting the 10 major



                                                                                                           PAGE 81
                                          ◆   Criminal investigators from the OIG              General Counsel, for their tremendous support
                                              assisted law enforcement during the              to the OIG throughout the year. The OIG also
                                              search for snipers who murdered citizens         acknowledged four National Aeronautics and
                                              in the Washington, DC, area.                     Space Administration Inspector General
                                               In addition, 12 OIG reservists and              employees for helping the OIG develop its new
                                          National Guard members have been called to           investigative management tracking system. In
                                          active military duty since September 11, 2001.       addition, numerous OIG teams and individuals
                                          Four of the 12 have had their orders extended,       were recognized for their exceptional work.
                                          and two returned to their OIG duties after being
                                                                                               OFFICE OF PERSONNEL
                                          deployed for one year. The OIG is proud of its       MANAGEMENT EXTENDS SENIOR
                                          employees as they serve and protect the nation.      EXECUTIVE SERVICE AGREEMENT
                                          INSPECTOR GENERAL ADDRESSES                               The Office of Personnel Management
                                          MAILCOM CONFERENCE                                   recently reviewed the OIG’s executive person-
                                               Inspector General Karla W. Corcoran             nel system to determine its compliance with a
                                          addressed the fall MAILCOM convention in             2001 agreement that allows executives to move
                                          October 2002. Her speech addressed how the           between the OIG and other federal agencies
                                          OIG’s work assists postal stakeholders. The          without the loss of their Senior Executive
                                          speech also discussed the OIG’s purpose, how it      Service status. The Office of Personnel
                                          decides what to audit and investigate, and how       Management found that the OIG’s system fully
                                          the OIG’s work is in the mailers’ best interest.     complied and extended the agreement. This
                                          The Inspector General also spoke about recent        agreement allows the OIG to continue to
                                          OIG testimonies before Congress and discussed        attract top-level executives.
                                          the OIG’s present and future work that affects       OIG COMPUTER FORENSICS
                                          mailers’ bottom line financially. In addition, she   TEAM WORKS WITH CYBER
Inspector General Karla Corcoran
conducts outreach activities to educate
                                          explained how the OIG’s role differs from that       INTERAGENCY WORKING
stakeholders about the OIG.               of the Postal Inspection Service.                    GROUP
                                               This was a great opportunity to inform               The OIG represented the Postal Service’s
                                          mailers more about the OIG. The Inpector             information infrastructure concerns by working
                                          General was invited back to address                  on the Cyber Interagency Working Group,
                                          MAILCOM’s spring convention in May, where            chartered by the President’s Critical
                                          she will discuss how the OIG is an asset to          Infrastructure Protection Board. As a result of
                                          mailers and how it helps to improve postal           the OIG’s representation on this working group,
                                          operations.                                          the White House designated a new
                                                                                               Postal/Shipping sector within the nation’s criti-
                                          ANNUAL EMPLOYEE
                                          RECOGNITION EVENT                                    cal infrastructure in the President’s new
                                                                                               National Strategy to Secure Cyberspace. The
                                               The OIG’s annual employee training and
                                                                                               OIG Technical Crimes Unit was designated as
                                          recognition conference was held in
                                                                                               the representative for the Executive Council on
                                          Washington, DC, on December 17 and 18,
                                                                                               Integrity and Efficiency to the newly designated
                                          2002. The theme of the event was “TLC3
                                                                                               Interagency Cyber Team, which will be the
                                          Equals Productivity.” It featured presentations
                                                                                               vehicle for initially communicating future
                                          by Governor John Walsh of the Postal Service
                                                                                               national cyber emergencies. The OIG’s contri-
                                          Board of Governors; Jack Canfield, an interna-
                                                                                               butions to the Cyber Interagency Working
                                          tionally recognized author and motivational
                                                                                               Group have become the blueprint for develop-
                                          speaker and author of the “Chicken Soup for
                                                                                               ment of a long-term Cyber Information
                                          the Soul” series; and Patricia McGuire,
                                                                                               Assurance Implementation Plan, which will be
                                          President of Trinity College.
                                                                                               a principal function of the new Department of
                                               The OIG presented awards to two Postal
                                                                                               Homeland Security.
                                          Service managers: Michele Denny, Manager,
                                          Marketing Technology and Channel
                                          Management, and Bill Gilligan, Deputy


                               PAGE 82    ORGANIZATIONAL DYNAMICS
OIG EXECUTIVE BECOMES AN                               cal fund raising activities. The OIG is also pro-
INSPECTOR GENERAL                                      viding computer forensic support.
     The OIG’s Acting Assistant Inspector              OIG RECRUITS AT HARVARD
General for Audit, Robert Emmons, was named            UNIVERSITY FEDERAL JOB FAIR
Inspector General for the Pension Benefit                   During      October    2002,     Harvard
Guaranty Corporation. In his new position, he          University’s John F. Kennedy School of
will be responsible for reviews and investiga-         Government sponsored a federal job fair.
tions of how the agency manages, handles, and          Among the agencies present were the
protects retirement incomes for about 44 mil-          Department of Defense’s Office of Inspector
lion workers in more than 35,000 benefit pen-          General, the Central Intelligence Agency, the
sion plans. Mr. Emmons served in a variety of          General Services Administration, the General
positions at the OIG, including Deputy                 Accounting Office, the Office of Personnel
Assistant Inspector General for Performance            Management, and many others. The OIG
and Assistant Inspector General for eBusiness.         maintained a booth and provided literature and
This is the second OIG executive selected to           recruiting items to an estimated 300 current
serve as Inspector General for another federal         and former students of the Kennedy School.
agency.                                                Specific information about the Inspector
OIG PARTICIPATES IN                                    General Act and Postal Service careers in law
INVESTIGATIVE DIRECTORS                                enforcement, audit, accounting, law, and other
CONFERENCE                                             areas of expertise, was provided by special
     The OIG actively participated in the              agents and evaluators assigned to the OIG’s
annual Association of Directors of                     Boston field office.
Investigations conference, which was held                                                                   In October, the OIG staffed a recruiting
                                                       DEPUTY INSPECTOR GENERAL
March 18-20 in Knoxville, Tennessee. This                                                                   booth at a Harvard University career
                                                       REPRESENTS OIG AT INSPECTOR                          fair.
conference brings together all Assistant               GENERAL CONFERENCE
Inspectors General for Investigations within the             In March 2003, the Deputy Inspector
OIG community to discuss significant inves-            General participated in the Inspectors General
tigative issues. The theme of this year’s confer-      Conference, along with other inspectors gen-
ence was “Working Together to Assure                   eral and executives in the inspector general
Accountability, Security, and Justice.” Inspector      community. The conference looked at current
General Karla Corcoran participated in a panel         trends, accomplishments, and best practices in
discussion with other Inspectors General to dis-       the community. Key topics discussed included
cuss issues such as identifying risk assessments       the possible establishment of a new Inspector
within agencies, the impact of September 11,           General Oversight Agency, criminal indict-
2001, and future challenges faced by Offices of        ments and investigations, engagement meet-
Inspector General. In addition, the OIG pro-           ings, Federal Executive Leadership training, law
vided a briefing on its new case management            enforcement training, peer reviews, the Fugitive
system, POSTIT. This system has been                   Felony Program, information technology secu-
reviewed by many other Offices of Inspector            rity, and ways of measuring return on invest-
General and could possibly be used as a stan-          ment. The conference also included discussions
dard format in the community to input, track,          of several legislative proposals, personnel flexi-
and report investigative information.                  bility, 9-year terms for inspectors general,
OIG SHARES EXPERTISE WITH                              changes in semiannual reporting, and statutes
LAW ENFORCEMENT                                        for Executive orders.
COMMUNITY
                                                       OIG COMPLETES PEER REVIEW
      An OIG evaluator and a special agent             OF NATIONAL SCIENCE
have been detailed to the Federal Housing              FOUNDATION
Finance Board Office of Inspector General to                Every 3 years, federal offices of inspector
assist with a high-level investigation regarding       general are required to undergo a review of their
conflict of interest allegations relating to politi-   quality control system to determine whether


                                                                                                              PAGE 83
                                         they are conducting audits in accordance with             Postal Service’s interest in non-disclosure
                                         government auditing standards. The OIG was                becomes particularly critical as the Postal
                                         selected to review the National Science                   Service enters into new business ventures
                                         Foundation’s Office of Inspector General and              that might involve commercially sensi-
                                         found it had an adequate quality control system           tive information and responds to the
                                         and met government auditing standards.                    threat of terrorism.
                                                                                               ◆   Educating Stakeholders About the
                                         NATIONAL SAFETY AND HEALTH                                OIG’s Role. A continuous challenge for
                                         MEETING                                                   the OIG is to inform stakeholders about
                                              The OIG participated in the Postal                   the OIG’s mission, responsibilities, and
                                         Service’s National Safety and Health meeting.             audit and investigative efforts. The OIG
                                         Postal Service personnel and contractors from             has proactively reached out to stakehold-
                                         headquarters, area offices, injury compensation,          ers regarding how it prevents and detects
                                         and medical programs met to discuss the status,           fraud, waste, abuse, and mismanagement
                                         goals, and new initiatives of these programs.             and otherwise adds value to the Postal
                                         The health care fraud investigation team dis-             Service. The OIG will continue its out-
                                         cussed a number of proactive initiatives to iden-         reach efforts until all stakeholders
                                         tify various fraudulent provider schemes, ways            become familiar with the OIG’s roles and
The OIG’s Administrative Advisory        that the Injury Compensation Specialists,                 responsibilities. As part of those efforts,
Council serves as a liaison between      Medical Directors, and the OIG could partner              the OIG is conducting outreach by deliv-
administrative staff and                                                                           ering presentations at postal management
                                         to combat fraud within the program. In addi-
management.                                                                                        association and postal union state and
                                         tion, a new referral process and form utilized for
                                                                                                   national conventions.
                                         tracking and follow-up on investigative leads
                                         sent from Postal Service personnel were intro-        ◆   Managing OIG Resources to Accommo-
                                         duced. This initiative served to foster a partner-        date Changing Postal Service Priorities.
                                         ship to uncover, report, and address safety, injury       The current environment of the Postal
                                                                                                   Service challenges the OIG to manage its
                                         compensation and medical issues that will add
                                                                                                   resources to accommodate and rapidly
                                         value to the Postal Service.
                                                                                                   respond to changing priorities. In addi-
                                         CHALLENGES FACING THE OIG                                 tion, the urgency of the anthrax threat,
                                              As the OIG moves forward in its efforts to           escalating workers’ compensation costs,
                                         help the United States Postal Service enhance             labor management issues, and other chal-
                                                                                                   lenges facing the Postal Service require
                                         its position as the world’s leading postal service,
                                                                                                   the OIG to use innovative methods to
                                         it must address the following challenges, some of
                                                                                                   assist in addressing these challenges in a
                                         which have an impact on OIG internal opera-
                                                                                                   timely manner. These methods include
                                         tions, and others on OIG oversight of the Postal          using the latest technology, reallocating
                                         Service. These include:                                   staff and financial resources, and main-
                                         ◆   Balancing the OIG’s Responsibility to                 taining a workforce with diverse talents,
                                             Report Information with the Postal Ser-               backgrounds, and experiences.
                                             vice’s Concern About Withholding Pro-             ◆   Overseeing Postal Inspection Service
                                             prietary Data. The OIG carefully weighs               Activities. One of the primary reasons an
                                             the public’s right of access to information           independent OIG was established within
                                             under the Freedom of Information Act                  the Postal Service was to provide over-
                                             against the Postal Service’s commercial               sight of Inspection Service activities. The
                                             and security needs when considering                   OIG’s statutory mandate for providing
                                             whether to release audit reports and                  oversight is comprehensive, and requires
                                             other information. To accurately assess               that it oversee all Inspection Service
                                             the sensitivity of information, the OIG               activities, including the conduct of inter-
                                             works closely with postal management                  nal investigations.
                                             and its law department. The challenge of
                                                                                                   Despite this clear mandate, the OIG con-
                                             balancing the OIG’s responsibility to
                                                                                                   tinues to face challenges in exercising its
                                             keep the public informed against the
                                                                                                   oversight responsibility. Among the most


                               PAGE 84   ORGANIZATIONAL DYNAMICS
    pressing challenges the OIG has faced in       ◆   Providing User-Friendly Results to
    fulfilling this responsibility has been the        Stakeholders. Keeping stakeholders fully
    Inspection Service questioning the OIG’s           and currently informed is the foundation
    oversight authority and not providing              of providing value-added audit and
    unrestricted access to Inspection Service          investigative services. One of the biggest
    personnel and information. The OIG                 challenges the OIG faces is providing
    continues to work with Inspection Ser-             timely, understandable, and useful infor-
    vice and senior postal management to               mation to its stakeholders. To meet this
    resolve these challenges.                          challenge, the OIG will continue to
◆   Protecting OIG Organizational Inde-                explore and utilize new avenues of com-
    pendence and Authority. The Inspector              municating user-friendly information.
    General Act clearly establishes the OIG’s          One such avenue is technology. The
    independence from postal management                OIG’s innovative use of video reports
    and its unrestricted right of access to per-       provides a visual illustration of audit
    sonnel and records. At times, the OIG              results that transcends the limitations of
    encounters individuals who do not clear-           text reports. In addition, the OIG web-
    ly understand this independence and                site provides comprehensive information
    authority. The OIG addresses these                 about the OIG’s mission, culture, and
    instances when they occur and is contin-           work. The OIG also uses an information-
    uing its outreach and education efforts to         al CD to educate stakeholders and
    ensure that management understands the             prospective employees about the OIG.
    OIG’s independence and authority and           ◆   Preparing for a New Inspector General.
    that it is inappropriate to influence OIG          The Postal Service is the only federal
    work.                                              agency where the Inspector General
◆   Recruiting and Retaining Talented                  serves a statutory term. In January 1997,
    Staff. The OIG is committed to attract-            the Inspector General was appointed by
    ing and retaining the best and brightest           the Postal Service Governors to a 7-year
    staff, and continues to promote a diverse          term that expires in less than 1 year.
    workforce. After the attacks of Septem-            The Governors will need to identify a
    ber 11, 2001, other agencies, such as the          successor, and the OIG is preparing for a
    Transportation Security Administration,            change in leadership to ensure a seamless
    have recruited many OIG employees                  transition.
    because of their experience and exper-             In addition, because the Inspector Gen-
    tise. The OIG is challenged to continue            eral’s position is for a 7-year term, some
    to attract and retain talented staff at a          highly qualified candidates, particularly
    time when these agencies and others are            senior executives from other agencies,
    offering thousands of job opportunities to         may be deterred from seeking the posi-
    people with the same qualifications the            tion if they are not eligible to retire at
    OIG is seeking.                                    the end of the term. Also, careful con-
    To respond to the loss of experienced              sideration should be given to the impact
    staff, the OIG has continued aggressive            a candidate will have on the actual or
    hiring initiatives to maintain staffing lev-       perceived independence of the OIG.
    els needed to provide quality audit and            Because the Inspector General is not
    investigative services to stakeholders.            appointed by the President and con-
                                                       firmed by the Senate, congressional over-
    Part of the OIG’s recruiting and reten-            sight of the hiring of the next Inspector
    tion efforts include maintaining a                 General may be limited.
    healthy organizational culture and envi-
    ronment through methods such as                    The OIG has embarked on a communi-
    employee advisory councils, workplace              cation program designed to prepare its
    enhancement training, teambuilding,                employees for the organization’s first
    and career change opportunities.                   change in leadership using a wide variety
                                                       of communication tools, including all-
                                                       hands meetings, video teleconferencing,
                                                       and the employee newsletter.

                                                                                                    PAGE 85
          ◆   Dealing with Negative Press Coverage.
              The OIG has been challenged recently by
              negative media coverage that questions
              how it is managed. These stories refer to
              allegations against the OIG, which are
              currently being investigated by the
              Integrity Committee of the President’s
              Council on Integrity and Efficiency. The
              OIG is cooperating fully with the ongo-
              ing investigation. Unfortunately, these
              stories tend to be sensationalized, unbal-
              anced, and taken out of context. When
              given the opportunity, the OIG has pro-
              vided detailed information to the press.
              Responding to media inquires has
              required the OIG to devote staff time
              and resources to gathering the informa-
              tion necessary to respond fully and accu-
              rately. Unfortunately, the press has
              underutilized this information, presenting
              a skewed impression of the OIG.
              This negative media coverage has chal-
              lenged the OIG to maintain high staff
              morale. However, OIG employees have
              enthusiastically continued working to
              improve postal processes and find ways in
              which the Postal Service can save
              money, eliminate fraud, and stop waste,
              abuse, and mismanagement.
              The OIG understands the need for over-
              sight and has its own Internal Affairs and
              Quality Assurance team. In addition,
              Congress, the General Accounting
              Office, and the President’s Council on
              Integrity and Efficiency and the Execu-
              tive Council on Integrity and Efficiency
              communities watch the OIG. The OIG
              respects the role of each of these groups,
              including the media, and continues to
              cooperate as fully and appropriately as
              possible under the circumstances. The
              OIG appreciates those who reciprocate
              that respect and cooperation.




PAGE 86   ORGANIZATIONAL DYNAMICS
                                                        developing, maintaining and continually
INSPECTION SERVICE                                      upgrading management systems; developing,


T
         he Inspection Service, the traditional         procuring and deploying electronic security and
         law enforcement arm of the Postal              surveillance equipment; publishing policy
         Service, is a highly specialized, profes-      handbooks and consumer awareness guides and
sional organization that performs investigative         brochures; supplying photography and video
and security functions essential to a stable and        services; and facilitating direct communications
sound postal system. Through its security and           with Congress and the public.
enforcement functions, the Inspection Service                 The Internal Affairs Division operates a
provides assurance to businesses for the safe           staff of 10 Postal Inspectors, an Inspector in
exchange of funds and securities through the            Charge and Assistant Inspector in Charge, 5
U.S. mail; to postal customers of the “sanctity of      support employees, and 33 Postal Police
the seal” in transmitting correspondence and            Officers, and has a two-fold mission. First, it
messages; and to postal employees of a safe work        ensures integrity and excellence within the
environment.                                            Inspection Service by conducting independent
      Postal Inspectors are federal law enforce-        internal investigations of its employees.
ment officers who carry firearms, make arrests,         Second, it protects the safety of postal employ-
execute federal search warrants, and serve sub-         ees and customers by providing security and
poenas. Postal Inspectors work closely with             preventive services at national Headquarters.
U.S. Attorneys, other law enforcement agen-                   The Office of Counsel provides legal
cies, and local prosecutors to investigate postal       advice and services in support of Inspection
cases and prepare them for court. There are             Service investigations, programs and goals, and
approximately 1,900 Postal Inspectors stationed         processes requests for access to Inspection
throughout the United States who enforce over           Service records. The Counsel’s office is com-
200 federal laws covering investigations of             posed of 20 Inspector-Attorneys and a support
crimes that adversely affect or fraudulently use        staff of paralegal specialists, information disclo-
the U.S. mail and postal system.                        sure specialists, a labor relations specialist, a
      To assist in carrying out its responsibilities,   program specialist, and an administrative sup-
the Inspection Service maintains a security             port specialist.
force staffed by over 1,400 uniformed Postal                  The Inspection Service’s national infor-
Police Officers, who are assigned to critical           mation technology infrastructure supports
postal facilities throughout the country. The           over 4,300 users at more than 180 sites nation-
officers provide perimeter security, escort high-       wide. Inspection Service offices are linked
value mail shipments, and perform other essen-          nationally via a dedicated frame-relay net-
tial protective functions.                              work, with online connections to the Postal
      The Inspection Service operates four              Service, the National Crime Information
forensic crime laboratories, strategically located      Center, the National Law Enforcement
in cities across the country. The laboratories are      Telecommunications System, and the
staffed with forensic scientists and technical          Internet.
specialists who assist Postal Inspectors in ana-              The Inspection Service extends full coop-
lyzing evidentiary material needed for identify-        eration to all federal, state, and local investiga-
ing and tracking criminal suspects and in               tive and prosecutorial authorities in law
providing expert testimony for cases brought to         enforcement matters to ensure greater protec-
trial.                                                  tion to the public. Working with other agen-
      The Inspection Service’s 800 professional         cies, Postal Inspectors regularly participate in
and technical employees also include program            joint task force cases aimed at curtailing wide-
analysts, financial analysts, information tech-         spread criminal acts of an organized nature.
                                                                                                                  Inspection Service seal and badges
nology experts, and others who play a vital role              More information on the Inspection Service
in supporting the criminal investigation and            can be found at http://www.usps.com/postalin-
security functions of the Inspection Service.           spectors.
They perform a wide variety of tasks, including



                                                                                                              PAGE 87
PAGE 88   ORGANIZATIONAL DYNAMICS
Organizational Structure




  The OIG is committed to excellence through a
  vision of “A Constellation of Talented People
  Making a Difference Through Teamwork,
  Leadership, Communication, Creativity, and
  Conceptualization (TLC3).”




                                           PAGE 89
  Office of Inspector General
   Organizational Structure




PAGE 90   ORGANIZATIONAL STRUCTURE
This section describes the organization of           ensure they are effective and appropriate, and
the OIG and the Inspection Service. In               reviews allegations against OIG employees.
order to differentiate between the OIG and           STRATEGIC VISION AND VALUES TEAM
the Inspection Service, the page concerning
                                                     Director, Linda Libician (Acting) - leads
the Inspection Service has been color
                                                     and facilitates programs and activities to pro-
screened.
                                                     mote and encourage strategic thinking and to
                                                     integrate OIG’s mission, vision, and values in
                                                     daily work; identifies and incorporates Postal
OFFICE OF INSPECTOR                                  Service changes into OIG operations; prepares
GENERAL                                              and updates the OIG strategic plan; develops
                                                     and monitors OIG annual performance mea-


T
          he OIG is a unique, nontraditional,
                                                     sures and conducts special studies, teambuild-
          diverse organization that conducts
                                                     ing, and outreach to ensure accountability and
          audits, evaluations, investigations, and
                                                     excellence in individual and organizational
other core functions identified by the Inspector
                                                     performance.
General Act of 1978, as amended. It is a matrix
organization with a non-hierarchical structure       PUBLIC RELATIONS TEAM
organized into five core business functions.         Director, Thomas Sharkey (Acting) -                         The OIG works in diverse teams to
      The OIG works in teams to maximize the                                                                     conduct audits and investigations.
                                                     plans and directs public relations activities;
abilities of its employees and uses cutting-edge     serves as liaison and responds to requests from
technology and the most advanced manage-             media; plans and directs all OIG outreach
ment principles available to add value to postal     activities; and keeps OIG staff informed of
programs and operations. Teams that focus on         news articles of interest.
improving Postal Service business processes and
overall organizational achievement demon-
                                                     GENERAL COUNSEL
strate the OIG’s values of teamwork, leadership,     Thomas Coogan (Acting)
communication, creativity, and conceptualiza-
                                                     DEPUTY GENERAL COUNSEL
tion.
      This reporting period, the OIG reorganized     Gladis Griffith
both its audit and investigative functions. The      LEGAL SERVICES TEAM
investigative reorganization aligns field inves-
                                                     Director, Marta Erceg - provides legal
tigative operations with postal area offices and
                                                     advice to the Inspector General and OIG staff
allows the OIG to work more effectively with
                                                     in all areas of criminal, civil, and administrative
Postal Service workers’ compensation and con-
                                                     law; processes subpoenas; manages ethics and
tracting officials. The new organizational struc-
                                                     FOIA appeals programs; and reviews existing
ture also reflects the fact that as of December 7,
                                                     and proposed legislation, regulations, and poli-
2002, the OIG assumed responsibility for inves-
                                                     cies affecting the economy and efficiency of the
tigating workers’ compensation fraud cases in
                                                     Postal Service.
the Capitol Metro Area. The OIG reorganized
its audit function to eliminate separate headquar-   OVERSIGHT TEAM
ters and field structures. Staff and projects will   Director, Patrick McKenna (Acting) -
now be aligned under a single supervisory struc-     provides oversight of all Inspection Service
ture. The following section describes the OIG        activities, conducts investigations of miscon-
organizational structure as of March 31, 2003.       duct by senior Inspection Service personnel,
                                                     and monitors the conduct of internal investiga-
DEPUTY INSPECTOR GENERAL
                                                     tions of other Inspection Service personnel.
Thomas Coogan
                                                     CONGRESSIONAL, FOIA, AND
QUALITY ASSURANCE AND INTERNAL                       HOTLINE TEAM
AFFAIRS TEAM
                                                     Director, Carrie Fox - serves as liaison and
Director, George Davis - conducts internal           responds to requests from Congress and the
reviews of OIG operations and procedures to


                                                                                                           PAGE 91
                                    Board of Governors; coordinates Congressional       firm’s annual financial audit opinion and con-
                                    testimony and presentations; responds to all        duct other financial-related audits to identify
                                    Freedom of Information Act requests; and            areas for improvement.
                                    operates the OIG Hotline, providing a vital
                                                                                        INVESTIGATIVE SUPPORT AND
                                    link for reporting fraud, waste, abuse and mis-     FINANCIAL-RELATED TEAM
                                    management.
                                                                                        Director, Darrell Benjamin - provides
                                    ASSISTANT INSPECTOR GENERAL                         audit support to investigations, oversees the
                                    FOR AUDIT                                           Defense Contract Audit Agency audits, and
The dog sled was used to carry
                                    John Seeba                                          conducts financial-related performance
mail in Alaska until 1963, when                                                         reviews.
it was replaced by the airplane.    AUDIT OPERATIONS AND
                                    FOLLOW-UP TEAM                                      DEPUTY ASSISTANT INSPECTOR
                                    Director, Kim Stroud - provides support,            GENERAL FOR CORE
                                    services, and coordination of audit activities;
                                                                                        OPERATIONS
                                    facilitates the development of audit reporting      Wayne Goleski
                                    policy and procedures; develops and oversees        ACCEPTING AND PROCESSING TEAM
                                    implementation of the audit workload plan;
                                                                                        Director, Bob Batta - plans and directs
                                    manages the closure of significant audit recom-
                                                                                        audits and reviews focusing on the economy,
                                    mendations and the audit resolution process;
                                                                                        efficiency, and effectiveness of mail acceptance,
                                    and analyzes statistical audit data to accomplish
                                                                                        collection, and processing operations, as well as
                                    the OIG’s audit mission.
                                                                                        logistics activities supporting these operations.
                                    HUMAN CAPITAL
                                    DEVELOPMENT TEAM                                    LABOR MANAGEMENT TEAM

                                    Director, Debra Pettitt - responsible for           Director, Chris Nicoloff - plans and directs
                                    assessment, formulation, and implementation         audits and reviews focusing on labor relations,
                                    of human capital strategies to ensure full devel-   and labor management issues within the Postal
                                    opment of professional auditing staff. This         Service to assist in maintaining a healthy and
                                    includes: professional development programs,        safe organizational climate for employees and
                                    classroom and on the job training programs,         improving operational economy, efficiency, and
                                    and curriculum development. Also responsible        effectiveness.
                                    for applying the human capital asset and            TRANSPORTATION AND
                                    accountability framework as developed by the        DELIVERY TEAM
                                    Office of Personnel Management.                     Director, Joe Oliva - plans and directs audits
                                    DEPUTY ASSISTANT INSPECTOR                          and reviews focusing on delivery and domestic
                                    GENERAL FOR FINANCIAL                               and international transportation operations,
                                    MANAGEMENT                                          specifically addressing economy, efficiency, and
                                    Colleen McAntee                                     effectiveness of Postal Service fleet operations
                                                                                        and contracts for air, highway, and rail services.
                                    CONTRACTING AND FACILITIES TEAM
                                                                                        HEALTH CARE TEAM
                                    Director, Lorie Siewert - plans and directs
                                                                                        Director, Erica Blackman - plans and
                                    audits and reviews of purchasing and contract-
                                                                                        directs audits and reviews focusing on health
                                    ing activities, as well as all aspects of postal
                                                                                        care issues within the Postal Service to assist in
                                    facility repair, renovation, and new construc-
                                                                                        improving operational economy, efficiency, and
                                    tion.
                                                                                        effectiveness.
                                    FINANCIAL TEAMS
                                                                                        DEPUTY ASSISTANT INSPECTOR
                                    Director, Financial Statements, John                GENERAL FOR TECHNOLOGY
                                    Cihota, and Director, Financial Field,              AND OVERSIGHT
                                    Sheila Bruck - plan and direct work in sup-
                                                                                        Ronald Merryman
                                    port of the independent public accounting



                          PAGE 92   ORGANIZATIONAL STRUCTURE
DEVELOPMENTAL TEAM                                  ongoing health care cases, as well as supervises
Director, Tracy LaPoint - plans and directs         civil, criminal, and administrative remedies for
audits and reviews of new or redesigned Postal      health care fraud; responsible for the OIG’s
Service systems, programs, and operations that      assumption of workers’ compensation fraud
are under development.                              investigations.

ORGANIZATIONAL EFFECTIVENESS                        TECHNICAL CRIMES UNIT
TEAM                                                Director, Ovie Carroll - detects and investi-
Director, Linda Libician - plans and directs        gates computer hacking and other high-tech-
audits and reviews that examine how the Postal      nology crimes involving Postal Service com-
Service’s activities, organization and policies     puters and telecommunications systems, and
relate to its strategic vision and mission.         provides technical support in such areas as sur-
Reviews focus on a variety of areas, including      veillance, evidence recovery, online reconnais-
the Transformation Plan, marketing, eCom-           sance, technical interviews, and computer
                                                                                                         OIG teams utilize communication and
merce, legal operations, stamp operations, retail   forensics.
                                                                                                         creativity to achieve results.
operations, and international business.             INVESTIGATIVE SERVICES AND
INFORMATION SYSTEMS TEAM                            SECURITY TEAM

Director, Gary Rippie - plans and directs           Director, Russ Barbee - provides overall
audits and reviews of major Postal Service          administrative support to all investigative
information systems to determine whether gen-       activities, including training, firearms, inves-
eral and application controls are properly estab-   tigative databases, policy, and other infrastruc-
lished and systems are designed to be secure and    ture matters, as well as OIG personnel and
provide accurate data to management.                physical security.

INSPECTION SERVICE TEAM                             SPECIAL INQUIRIES TEAM

Director, Michael Thompson - plans and              Director, Mimi Band - conducts investiga-
directs audits and reviews of Inspection Service    tions of allegations of reprisal by Postal Service
functions and operations.                           employees and other investigations concerning
                                                    Postal Service executives.
ASSISTANT INSPECTOR GENERAL
FOR INVESTIGATIONS                                  NATIONAL PROJECTS UNIT

Kirt West (Acting)                                  Director, Dennis Riley - coordinates and
                                                    conducts investigations of major projects that
                                                    have significant impact on the Postal Service,
DEPUTY ASSISTANT INSPECTOR
GENERAL FOR INVESTIGATIONS                          which involve multiple postal areas or judicial
                                                    districts. The unit utilizes Postal Service/OIG
Daniel O’Rourke
                                                    field resources, which are temporarily assigned
INVESTIGATIVE OPERATIONS TEAM                       to the unit to expeditiously conduct the identi-
Director, Howard Cox - supervises all field         fied investigations or projects.
and headquarters investigative programs, and        Investigative Directors, Rosa Howard
the development of investigative policy and         (Eastern and Capital Metro), Anthony
procedures, to accomplish the OIG’s investiga-      Cannarella (New York Metro and North-
tive mission.                                       east), William Hencken (Southeast and
CONTRACT FRAUD TEAM                                 Great Lakes), Robert Schultz (Acting)
                                                    (Southwest and Western), and Torri
Director, Michael Everitt (Acting) - mon-
                                                    Piper (Pacific) - plan and direct investiga-
itors all ongoing contract fraud investigations,
                                                    tions in coordination with Headquarters staff
as well as supervises civil, criminal, and admin-
                                                    and responsible for overall investigative field
istrative remedies for contract fraud cases.
                                                    staff development.
HEALTH CARE FRAUD TEAM
Director, Aaron Jordan - monitors all


                                                                                                          PAGE 93
                     ASSISTANT INSPECTOR GENERAL                             writing, editorial, video, and graphic services;
                     FOR INTERNAL BUSINESS                                   coordinates and publishes OIG reports as well as
                                                                             other documents for Congress, the Governors,
                     Ronald Stith
                                                                             and Postal Service management; and manages
                     DEPUTY ASSISTANT INSPECTOR                              development of internal policies and procedures.
                     GENERAL FOR INTERNAL
                                                                             EXPERTS AND COMPUTER-ASSISTED
                     BUSINESS
                                                                             ASSESSMENT TECHNIQUES TEAM
                     Mary Demory
                                                                             This self-directed team provides support to
                     ADMINISTRATIVE SERVICES TEAM                            OIG in the areas of statistical sampling; quanti-
                     Director, Stew Dorris - provides facility,              tative and statistical methods; computer-assist-
                     procurement, financial, budget, and other               ed assessment techniques for data retrieval and
                     internal services necessary to accomplish the           analysis; economic forecasting; cost/benefit
                     OIG’s mission.                                          analysis; estimation of monetary benefits;
                                                                             architectural and engineering expertise; and
                     HUMAN RESOURCES TEAM                                    activity-based costing.
                     Director, Karen Bickle - provides full-ser-
                                                                             INFORMATION TECHNOLOGY TEAM
                     vice human resources support to the OIG in
                     the areas of employee relations, pay and bene-          Director, David Sidransky - provides com-
                     fits, hiring and recruitment, retirement, awards,       puter operations, telecommunications, infor-
                     performance management, counseling, and                 mation systems, computer security, and techni-
                     training.                                               cal support.

                     WORKPLACE ENHANCEMENT TEAM                              OIG FIELD LOCATIONS
                     Director, Sharon Solomon - provides work                     The OIG Headquarters is located in
                     life, organizational climate, diversity, Equal          Washington, DC. In addition, the OIG has
                     Employment Opportunity, and other work-                 15 field offices located in San Francisco and
                     place-related services.                                 Los Angeles, California; Denver, Colorado;
                                                                             Tampa, Florida; Atlanta, Georgia; Chicago,
                     DEPUTY ASSISTANT INSPECTOR                              Illinois; Boston, Massachusetts; Minneapolis,
                     GENERAL FOR TECHNOLOGY                                  Minnesota; St. Louis, Missouri; New York,
                     Vacant                                                  New York; Portland, Oregon; Pittsburgh,
                                                                             Pennsylvania; Raleigh, North Carolina;
                     COMMUNICATIONS & POLICY TEAM
                                                                             Dallas, Texas; and Washington, DC. OIG
                     Director, Jim Nugent - provides report                  locations are depicted in the chart below.



       PORTLAND,
        PORTLAND,OR
                  OR
                                                                                  PITTSBURGH, PAPA
                                                                                     PITTSBURGH,
                                                                                                              BOSTON, MAMA
                                                                                                                BOSTON,
                                                MINNEAPOLIS,
                                                 MINNEAPOLIS,MN
                                                              MN                                            NEW YORK, NY
                                                                                                              NEW YORK, NY
SAN
 SANFRANCISCO,
     FRANCISCO,CA
                CA                                             CHICAGO,
                                                                CHICAGO,IL IL                               WASHINGTON, DCDC
                                                                                                             WASHINGTON,
                                      DENVER,
                                       DENVER,CO
                                               CO                                                             RALEIGH , NC
                                                         ST.ST.LOUIS,
                                                                 LOUIS,MO
                                                                        MO                                      RALEIGH  , NC
     LOS
      LOSANGELES,
          ANGELES,CA
                   CA                                                                                ATLANTA, GAGA
                                                                                                       ATLANTA,



                                                      DALLAS,
                                                       DALLAS,TXTX                                   TAMPA, FL FL
                                                                                                       TAMPA,




                                                                                OIG LOCATIONS NATIONWIDE


     PAGE 94         ORGANIZATIONAL STRUCTURE
INSPECTION SERVICE

T
         he national headquarters offices of the
         Inspection Service underwent a realign-
         ment to ensure the headquarters func-
tional roles and responsibilities continue to be
reflective of the Inspection Service’s business
imperatives in the areas of safety, security, and
                                                               Chief Postal Inspector
integrity, based on the changing needs of our                  Lee R. Heath
Postal Service customers and employees. This
realignment was effective September 7, 2002.
      The new structure established the position
of Deputy Chief Inspector, Headquarters
Operations, to which all headquarters
functional groups report through the positions
of Assistant Chief Inspector, Investigations and
Security (ISES), and Assistant Chief Inspector,
Administrative Operations. Exceptions to this
are the Inspectors in Charge for Internal Affairs
Division, Congressional and Public Affairs, and
Forensic & Technical Services, and the man-
ager, Strategic Planning and Management
Process, who report directly to the Deputy Chief
Inspector, Headquarters Operations. The Office
of Counsel reports directly to the Chief Postal
Inspector as does the newly created position of
Ombudsman. The Inspection Service retained
its field structure, which includes 18 field divi-
sions that report directly to three Deputy Chief
Inspectors for field operations. There are five
Inspection Service Operations Support groups
that support field offices.
      The Inspection Service’s executive
Advisory Committee serves in an advisory
capacity to the Chief Postal Inspector on strate-
gic issues that impact the direction of the orga-
nization. The National Leadership Team
consists of the Deputy Chief Inspectors, all
Inspectors in Charge, and Postal Career
Executive Service employees.




                                                     PAGE 95
      Inspection Service                                                                                            L. HEATH
                                                                                                                Chief Postal Inspector


      Organizational
      Structure                                                                                                                            J. BIRCH
                                                                                                                                    Executive Ombudsman

                                                                                              L.KATZ
                                                                                          Inspector in Charge
                                                                                           Office of Counsel
                                                                                                                                           I. GILLIS
                                                                                                                                         Executive Coach




                                                       J. ROWAN                                                                            K. BURKE              W. MITCHELL                 M. AHERN
                                                    Deputy Chief                                                                     Deputy Chief Inspector     Deputy Chief Inspector   Deputy Chief Inspector
                                                      Inspector                                                                       Field Operations East     Field Operations South    Field Operations West
                                                Headquarters Operations


D. MIHALKO                        R. GEFFEN                          T. DENNENY                 L. SPALLANZANI                           Inspectors in Charge    Inspectors in Charge     Inspectors in Charge
Inspector in Charge             Inspector in Charge                 Inspector in Charge                Manager
  Congressional &               Forensic & Technical                  Internal Affairs           Strategic Planning &                       Mid-Atlantic                Florida                 Detriot
   Public Affairs                     Services                                                   Management Processes                    A.CRAWFORD                   J. BELZ                 Y. ALLEN

                                                                                                                                              Northeast               Gulf Coast                Midwest
                                                                                                                                            K. JONES                 R. DODD               R. BOWDREN
                           R. MUEHLBERGER
                                Laboratory Director                                                                                             North                                        San Francisco
                                                                                                                                                                   Rocky Mountain
                                                                                                                                          Jersey/Caribbean          M. COBOS                   A.KIEL
                                                                                                                                          M. PHANCO
                                                                                                                                                                      Southeast                 Chicago
                                                                                                                                              New York             D. COLLINS              A.DAVIDSON
              A. CLEMMONS                                                        N. JOHNSON                                                 W. KEZER
            Assistant Chief Inspector                                        Assistant Chief Inspector
            Investigations & Security                                              Administrative                                                                     Southwest                Northwest
                                                                                    Operations                                               Phildelphia           A. HOLMES                R. MORGAN
                                                                                                                                            I. CARLE
                                                                                                                                                                                          Southern California
                                                                                                                                             Washington                                    J. SOMERSET
                                                                                 V. BELLINGER                                               T. BRADY
                  K. BOND
                                                                                     Manager
              Inspector in Charge                                                 Human Resources                                        Western Allegheny
                Group 1 - Safety                                                    Performance                                          R. DALGLEISH


                K. ROBERTS                                                       F. TOOGOOD
              Inspector in Charge                                                Inspector in Charge
               Group 2 - Security                                                Career Development



               L. MAXWELL                                                           L. VISOS
              Inspector in Charge                                               Inspector in Charge
               Group 3 - Integrity                                                  Finance &
                                                                               Administrative Services


                      Z. HILL                                                      R. COCCIA
             Inspector in Charge                                                Inspector in Charge
                  Group 4 -                                                    Information Technology
            Emergency Preparedness


                      D. HILL
              Inspector in Charge
                   Group 5 -
              International Affairs


            T. VAN de MERLEN
              Acting Inspector
                 in Charge
             Group 6 - Intelligence




                                      PAGE 96             ORGANIZATIONAL STRUCTURE
Appendices




 Are mailboxes considered federal
 property?
 Yes. Federal law (Title 18 of the United
 States Code, Section 1705) makes it a
 crime to vandalize mailboxes or injure,
 deface, or destroy any mail deposited in
 them. Violators can be fined up to
 $250,000 or imprisoned for up to three
 years for each act of vandalism.




                                            PAGE 97
                                         APPENDIX A

                                         Reports Issued to Postal Service Management
                                         For the period October 1, 2002, through March 31, 2003

                                         OVERVIEW
                                         Office of Inspector General
                                         The OIG audit teams are aligned to conduct performance and financial audits, evaluations and
                                         other reviews to address the business processes of the Postal Service. Each team issues audit
                                         reports (AR) or management advisory reports (MA) in accordance with the identified needs of
                                         the project.

                                         Inspection Service
                                         The Inspection Service provided Postal-wide attention in selected areas until September 30, 2000
                                         when all audit functions were transitioned to the OIG.


                                         SUMMARY
                                         The following is a summary by principal area of reports issued to Postal Service management. The
                                         following pages list each issued report.
Definitions
Questioned Costs - A cost that is                           Number of                                  Recommend                     Additional
                                                              Reports     Questioned   Unsupported    Funds Put to   Unrecoverable    Potential
unnecessary, unreasonable, unsup-        Principal Area        Issued          Costs        Costs1      Better Use           Costs    Revenue
ported, or an alleged violation of
                                         Performance               22             $0            $0    $37,599,052     $20,806,751    $304,664
law, regulation, contract, etc.
                                         Financial Management     183    $13,498,366    $2,000,614             $0              $0          $0
Unsupported Costs - A cost that
is not supported by adequate docu-       Technology                 9             $0            $0             $0              $0          $0
mentation.                               Labor Management          12     $1,265,294    $1,265,294        $75,000              $0          $0
Funds Put to Better Use - Funds          Oversight                  1             $0            $0             $0              $0          $0
that could be used more efficiently      Other Significant Reviews 1              $0            $0             $0              $0          $0
by implementing recommended
actions.                                 Grand Total             228    $14,763,660    $3,265,908    $37,674,052     $20,806,751     $304,664
Unrecoverable Costs - A cost that
perhaps should not have been
incurred and is not recoverable.
Potential Additional Revenue -
Amounts from revenue generating
functions such as retail sales, rent,
leases, or fees that were underpaid
or not realized.




                                         1 Unsupported Costs are included with the amounts shown as Questioned Costs.
                                         2 Represents potential additional revenue.
                                         3 Represents unrecoverable costs.

                               PAGE 98    APPENDICES
REPORT LISTING
The following is a list of each report grouped by core business processes and enabling functions.

PERFORMANCE
                                                                                 Recommend
Report          Subject Title/                       Questioned   Unsupported   Funds Put to                 Issue
Number          Project Type                              Costs         Costs     Better Use       Other      Date
 ACCEPTING AND PROCESSING
AC-AR-03-001       Postal Service’s Total                   $0            $0             $0          $0    1/28/03
                   Factor Productivity
AC-AR-03-002       Mail Product Supplies                    $0            $0     $1,595,702          $0    2/14/03
AC-AR-03-003       Review of Nonprofit Authorizations       $0            $0             $0    $304,6642
                                                                                                           2/14/03
AC-AR-03-004       Inventory Management and                 $0            $0     $9,956,359          $0    3/28/03
                   Maintenance Repair Operations
AC-AR-03-005       Express Mail Product Tracking System $0                $0             $0          $0    3/31/03
CQ-AR-03-001       Work Performed by Business           $0                $0      $588,730           $0    3/28/03
                   Mail Entry Employees in the
                   Seattle, Minneapolis, and Des Moines
                   Bulk Mail Centers
OE-MA-03-002       Consolidation of the San Francisco       $0            $0             $0          $0    1/23/03
                   Mail Recovery Center
OE-MA-03-003       Commercial Internet Companies            $0            $0             $0          $0    2/25/03
                   Offering Change-of-Address Services
MARKETING
OE-AR-03-003       Postal Service’s Involvement             $0            $0             $0          $0    3/31/03
                   in Sponsorships
TRANSPORTATION AND DELIVERY
CQ-MA-03-001       Reno, Nevada Mail Transportation         $0            $0             $0          $0     3/5/03
TD-AR-03-001       New York Metro Area Trailer              $0            $0             $0          $0 10/28/02
                   Acquisition - Safety and Length
TD-AR-03-002       Highway Network Scheduling -             $0            $0      $776,992           $0 11/25/02
                   Northeast Area
TD-AR-03-003       Voyager Card Control Weaknesses -        $0            $0             $0          $0    12/2/02
                   San Antonio District
TD-AR-03-004       Address Change Service                   $0            $0    $14,620,960 $20,806,7513   3/12/03
TD-AR-03-005       Vehicle Maintenance Facilities -         $0            $0             $0          $0    3/19/03
                   Vehicle Inventory Control
                   Weaknesses in the Chicago District
TD-AR-03-006       Transportation Agreement                 $0            $0             $0          $0    3/27/03
                   Capping Report
TD-AR-03-007       Highway Network Scheduling -             $0            $0     $1,144,218          $0    3/28/03
                   Capital Metro Area
TD-AR-03-008       Highway Network Scheduling -             $0            $0      $470,123           $0    3/31/03
                   New York Metro Area
TD-AR-03-009       New York Metro Area Trailer              $0            $0     $4,021,234          $0    3/31/03
                   Acquisition - Lease versus Buy
TD-MA-03-001       New York Metro Area Operational          $0            $0     $4,424,734          $0    1/29/03
                   Use of Trailers
TD-MA-03-002       Delayed Mail - Bridgecreek Station,      $0            $0             $0          $0    3/19/03
                   Wichita Falls, Texas
TD-VR-03-001       New York Metro Area Trailer              $0            $0             $0          $0 10/28/02
                   Acquisition - Safety and Length -
                   Video
PERFORMANCE TOTALS                                          $0            $0 $37,599,052 $21,111,415




                                                                                                                     PAGE 99
                                                                                Un-    Recommend
           Report          Subject Title/                    Questioned   supported   Funds Put to             Issue
           Number          Project Type                           Costs       Costs     Better Use   Other      Date

           FINANCIAL MANAGEMENT
           FINANCIAL OPINION
           FT-AR-03-002    Postal Service Officers’ Travel and      $0          $0             $0      $0     1/9/03
                           Representation Expenses for Fiscal
                           Year 2002
           FT-AR-03-003    Postal Service Board of Governors’       $0          $0             $0      $0     1/9/03
                           Travel and Miscellaneous Expenses
                           for Fiscal Year 2002
           FT-AR-03-004    Fiscal Year 2002 Postal Service          $0          $0             $0      $0    1/22/03
                           Financial Statements Audit -
                           Washington, D.C., Headquarters
           FT-AR-03-005    Accounting for Bulk Fuel Inventories     $0          $0             $0      $0    1/23/03
                           at the San Bernardino Vehicle
                           Maintenance Facility
           FT-AR-03-006    Fiscal Year 2002 Postal Service          $0          $0             $0      $0    1/23/03
                           Financial Statements Audit -
                           San Mateo Information Technology
                           and Accounting Service Center
           FT-AR-03-007    Fiscal Year 2002 Postal Service          $0          $0             $0      $0    1/24/03
                           Financial Statements Audit -
                           Eagan Information Technology and
                           Accounting Service Center
           FT-AR-03-008    Fiscal Year 2002 Postal Service        $0            $0             $0      $0    1/30/03
                           Financial Statements Audit - St. Louis
                           Information Technology and
                           Accounting Service Center
           FISCAL YEAR 2002 FINANCIAL INSTALLATION AUDITS
           FF-AR-03-003    Las Vegas Self-Service Postal Center     $0          $0             $0      $0 10/16/02
           FF-AR-03-005    Southern Maryland Business Mail          $0          $0             $0      $0 10/16/02
                           Entry Unit
           FF-AR-03-006    Rex Post Office                          $0          $0             $0      $0 10/16/02
           FF-AR-03-009    Anchorage Business Mail Entry Unit       $0          $0             $0      $0 10/16/02
           FF-AR-03-013    Philadelphia Business Mail Entry Unit $0             $0             $0      $0 10/16/02
           FF-AR-03-015    Anchorage Stamp Distribution Office $0               $0             $0      $0 10/16/02
                           and Alaska District Accounting Office
           FF-AR-03-026    Dallas Business Mail Entry Unit          $0          $0             $0      $0 10/16/02
           FF-AR-03-001    Skagway Contract Postal Unit             $0          $0             $0      $0 10/17/02
           FF-AR-03-030    Patten Post Office                       $0          $0             $0      $0 10/17/02
           FF-AR-03-002    Oxford Post Office                       $0          $0             $0      $0 10/18/02
           FF-AR-03-016    Texhoma Main Office                      $0          $0             $0      $0 10/18/02
           FF-AR-03-017    Huntertown Main Office                   $0          $0             $0      $0 10/18/02
           FF-AR-03-025    Fresno Business Mail Entry Unit          $0          $0             $0      $0 10/18/02
           FF-AR-03-027    Killingworth Contract Postal Unit        $0          $0             $0      $0 10/18/02
           FF-AR-03-029    Park Hills Post Office                   $0          $0             $0      $0 10/18/02
           FF-AR-03-022    Central Valley Main Office               $0          $0             $0      $0 10/21/02
           FF-AR-03-023    Selma Post Office                        $0          $0             $0      $0 10/22/02
           FF-AR-03-040    Wells Business Mail Entry Unit           $0          $0             $0      $0 10/22/02
           FF-AR-03-041    Farmingdale Post Office                  $0          $0             $0      $0 10/22/02
           FF-AR-03-043    Bajadero Main Post Office                $0          $0             $0      $0 10/22/02
           FF-AR-03-044    Dallas Main Post Office                  $0          $0             $0      $0 10/22/02
           FF-AR-03-007    Cadillac Business Mail Entry Unit        $0          $0             $0      $0 10/23/02
           FF-AR-03-008    Charlotte Stamp Distribution Office      $0          $0             $0      $0 10/23/02
                           and Mid-Carolinas District
                           Accounting Office
           FF-AR-03-010    Little Five Points Post Office           $0          $0             $0      $0 10/23/02
PAGE 100   APPENDICES
                                                                    Un-    Recommend
Report         Subject Title/                    Questioned   supported   Funds Put to            Issue
Number         Project Type                           Costs       Costs     Better Use   Other     Date
FF-AR-03-011   Freedom Post Office                      $0          $0             $0      $0 10/23/02
FF-AR-03-012   Dulles Business Mail Entry Unit          $0          $0             $0      $0 10/23/02
FF-AR-03-014   Spokane Stamp Distribution and           $0          $0             $0      $0 10/23/02
               District Accounting Office
FF-AR-03-020   Summerville Business Mail                $0          $0             $0      $0 10/23/02
               Entry Unit
FF-AR-03-021   Tampa Stamp Distribution Office and $0               $0             $0      $0 10/23/02
               Suncoast District Accounting Office
FF-AR-03-024   Jefferson City Business Mail Entry Unit $0           $0             $0      $0 10/23/02
FF-AR-03-028   Portland Stamp Distribution Office   $0              $0             $0      $0 10/23/02
               and Maine District Accounting Office
FF-AR-03-032   Dallas Stamp Distribution Office and     $0          $0             $0      $0 10/23/02
               District Accounting Office
FF-AR-03-033   Louisville Stamp Distribution Office     $0          $0             $0      $0 10/23/02
               and Kentuckiana District
               Accounting Office
FF-AR-03-034   Collins and Parker Pharmacy              $0          $0             $0      $0 10/23/02
               Contract Postal Unit
FF-AR-03-035   Nebraska City Business                   $0          $0             $0      $0 10/23/02
               Mail Entry Unit
FF-AR-03-037   Macon Stamp Distribution Office          $0          $0             $0      $0 10/23/02
               and South Georgia District
               Accounting Office
FF-AR-03-047   Enfield Post Office                      $0          $0             $0      $0 10/24/02
FF-AR-03-031   Staatsburg Main Office                   $0          $0             $0      $0 10/29/02
FF-AR-03-036   Blythebourne Station                     $0          $0             $0      $0 10/29/02
FF-AR-03-038   Grantville Post Office                   $0          $0             $0      $0 10/29/02
FF-AR-03-042   Bixby Post Office                        $0          $0             $0      $0 10/29/02
FF-AR-03-045   Middlesex-Essex and Shrewsbury           $0          $0             $0      $0 10/29/02
               Stamp Distribution Offices and
               Middlesex-Central District
               Accounting Office
FF-AR-03-046   Fort Wayne, Indianapolis, and Terre $0               $0             $0      $0 10/29/02
               Haute Stamp Distribution Offices and
               Greater Indiana District
               Accounting Office
FF-AR-03-050   Los Angeles Contract Postal Unit # 4 $0              $0             $0      $0 10/29/02
FF-AR-03-051   West Sacramento Business                 $0          $0             $0      $0 10/29/02
               Mail Entry Unit
FF-AR-03-053   Martinsville Main Post Office            $0          $0             $0      $0 10/29/02
FF-AR-03-055   Ilwaco Main Office                       $0          $0             $0      $0 10/29/02
FF-AR-03-004   Wanek Pharmacy Contract Postal Unit $0               $0             $0      $0 10/30/02
FF-AR-03-018   Onyx Main Office                         $0          $0             $0      $0 10/30/02
FF-AR-03-019   Corinth Post Office                      $0          $0             $0      $0 10/30/02
FF-AR-03-039   Prescott Main Office                     $0          $0             $0      $0 10/30/02
FF-AR-03-049   White Plains Stamp Distribution          $0          $0             $0      $0 10/30/02
               Office and Westchester District
               Accounting Office
FF-AR-03-052   Marietta Self-Service Postal Center      $0          $0             $0      $0 10/30/02
FF-AR-03-054   Plano Post Office                        $0          $0             $0      $0 10/30/02
FF-AR-03-057   Rancho Cordova Business                  $0          $0             $0      $0 10/30/02
               Mail Entry Unit
FF-AR-03-048   Little Rock Stamp Distribution           $0          $0             $0      $0 10/31/02
               Office and Arkansas District
               Accounting Office

                                                                                                          PAGE 101
                                                                                Un-    Recommend
           Report          Subject Title/                    Questioned   supported   Funds Put to             Issue
           Number          Project Type                           Costs       Costs     Better Use   Other      Date
           FF-AR-03-056    Ravenna Main Office                      $0          $0             $0      $0 10/31/02
           FF-AR-03-058    Duck Contract Postal Unit                $0          $0             $0      $0 10/31/02
           FF-AR-03-059    Lewiston Business Mail Entry Unit        $0          $0             $0      $0 10/31/02
           FF-AR-03-060    Cascade Post Office                      $0          $0             $0      $0 10/31/02
           FF-AR-03-061    Houston Stamp Distribution Office        $0          $0             $0      $0 10/31/02
                           and District Accounting Office
           FF-AR-03-062    O’Fallon Post Office                     $0          $0             $0      $0 10/31/02
           FF-AR-03-063    Parkway Drugs Contract Postal Unit       $0          $0             $0      $0 10/31/02
           FF-AR-03-064    Romie Lane Contract Postal Unit          $0          $0             $0      $0 10/31/02
           FF-AR-03-065    Danville Main Post Office                $0          $0             $0      $0 10/31/02
           FF-AR-03-066    Grand Island Business Mail Entry Unit $0             $0             $0      $0 10/31/02
           FF-AR-03-067    Norwood Business Mail Entry Unit         $0          $0             $0      $0 10/31/02
           FF-AR-03-068    West Liberty Post Office                 $0          $0             $0      $0 10/31/02
           FF-AR-03-069    K & S Decorah Contract Postal Unit       $0          $0             $0      $0 10/31/02
           FF-AR-03-070    Chicago Main Philatelic Station          $0          $0             $0      $0 10/31/02
           FF-AR-03-073    Green Bay Business Mail Entry Unit       $0          $0             $0      $0    11/7/02
           FF-AR-03-071    Dublin Main Office                       $0          $0             $0      $0 11/13/02
           FF-AR-03-072    Port Washington Business                 $0          $0             $0      $0 11/13/02
                           Mail Entry Unit
           FF-AR-03-074    Indianapolis Business Mail Entry Unit $0             $0             $0      $0 11/19/02
           FF-AR-03-075    Peoria Stamp Distribution Office         $0          $0             $0      $0 11/20/02
                           and Central Illinois District
                           Accounting Office
           FF-AR-03-076    Chicago Business Mail Entry Unit         $0          $0             $0      $0 11/20/02
           FF-AR-03-141    Self-Service Postal Centers              $0          $0             $0      $0    3/21/03
                           Capping Report
           FF-AR-03-142    Contract Postal Units Capping Report $0              $0             $0      $0    3/21/03
           FF-AR-03-146    Post Offices, Branches, and Stations     $0          $0             $0      $0    3/21/03
                           Capping Report
           FF-AR-03-155    Stamp Distribution and District          $0          $0             $0      $0    3/28/03
                           Accounting Offices Capping Report
           FF-AR-03-156    Business Mail Entry Units                $0          $0             $0      $0    3/28/03
                           Capping Report
           FISCAL YEAR 2003 FINANCIAL INSTALLATION AUDITS
           FF-AR-03-093    Philnor Pharmacy Contract Postal Unit $0             $0             $0      $0     1/8/03
           FF-AR-03-094    Howell Mill Self-Service Postal Center $0            $0             $0      $0     1/8/03
           FF-AR-03-084    University of Rochester Contract         $0          $0             $0      $0    1/10/03
                           Postal Unit
           FF-AR-03-078    Chesapeake Self-Service Postal Center    $0          $0             $0      $0    1/17/03
           FF-AR-03-081    Laconia Business Mail Entry Unit         $0          $0             $0      $0    1/17/03
           FF-AR-03-082    Hudson Business Mail Entry Unit          $0          $0             $0      $0    1/17/03
           FF-AR-03-086    Chadds Ford Post Office                  $0          $0             $0      $0    1/21/03
           FF-AR-03-089    Ritter’s Contract Postal Unit            $0          $0             $0      $0    1/21/03
           FF-AR-03-083    Rockville Post Office                    $0          $0             $0      $0    1/23/03
           FF-AR-03-085    McCoy Post Office                        $0          $0             $0      $0    1/23/03
           FF-AR-03-087    Waco Self-Service Postal Center #2       $0          $0             $0      $0    1/23/03
           FF-AR-03-088    Albany Stamp Distribution Office and $0              $0             $0      $0    1/23/03
                           District Accounting Office
           FF-AR-03-090    Lowell Self-Service Postal Unit          $0          $0             $0      $0    1/23/03
           FF-AR-03-092    Syosset Post Office                      $0          $0             $0      $0    1/23/03
           FF-AR-03-096    Kent Business Mail Entry Unit            $0          $0             $0      $0    1/31/03
           FF-AR-03-095    LaGrange Post Office                     $0          $0             $0      $0     2/6/03

PAGE 102   APPENDICES
                                                                    Un-    Recommend
Report         Subject Title/                    Questioned   supported   Funds Put to             Issue
Number         Project Type                           Costs       Costs     Better Use   Other      Date
FF-AR-03-091   Villa Park Contract Postal Unit          $0          $0             $0      $0    2/12/03
FF-AR-03-099   Lebanon Junction Business                $0          $0             $0      $0    2/12/03
               Mail Entry Unit
FF-AR-03-098   North Reading Business                   $0          $0             $0      $0    2/14/03
               Mail Entry Unit
FF-AR-03-104   Fort Collins Contract Postal Unit #5     $0          $0             $0      $0    2/14/03
FF-AR-03-107   Lake Zurich Business Mail Entry Unit $0              $0             $0      $0    2/20/03
FF-AR-03-109   Quakertown Business Mail Entry Unit $0               $0             $0      $0    2/24/03
FF-AR-03-110   Weston Branch                            $0          $0             $0      $0    2/24/03
FF-AR-03-101   Rochester Business Mail Entry Unit       $0          $0             $0      $0    2/26/03
FF-AR-03-100   Aurora Business Mail Entry Unit          $0          $0             $0      $0    2/28/03
FF-AR-03-103   Culpeper Business Mail Entry Unit        $0          $0             $0      $0    2/28/03
FF-AR-03-111   Sidney Business Mail Entry Unit          $0          $0             $0      $0    2/28/03
FF-AR-03-117   First National Center Contract           $0          $0             $0      $0    2/28/03
               Postal Unit
FF-AR-03-115   Suburban Business Mail Entry Unit        $0          $0             $0      $0     3/4/03
FF-AR-03-116   Carol Stream Business Mail Entry Unit $0             $0             $0      $0     3/4/03
FF-AR-03-124   Baltimore Business Mail Entry Unit       $0          $0             $0      $0     3/6/03
FF-AR-03-108   Rimpau Station                           $0          $0             $0      $0    3/11/03
FF-AR-03-118   Tustin Business Mail Entry Unit          $0          $0             $0      $0    3/11/03
FF-AR-03-127   Colorado Springs Self-Service            $0          $0             $0      $0    3/11/03
               Postal Center
FF-AR-03-132   Fort Lauderdale Post Office              $0          $0             $0      $0    3/12/03
FF-AR-03-133   Santa Ana Window Section                 $0          $0             $0      $0    3/12/03
FF-AR-03-122   Post Haste Contract Postal Unit          $0          $0             $0      $0    3/13/03
FF-AR-03-126   Murfreesboro Business Mail Entry Unit $0             $0             $0      $0    3/13/03
FF-AR-03-125   West Cornwall Post Office                $0          $0             $0      $0    3/17/03
FF-AR-03-128   Mahwah Business Mail Entry Unit          $0          $0             $0      $0    3/17/03
FF-AR-03-135   Hartford Business Mail Entry Unit        $0          $0             $0      $0    3/17/03
FF-AR-03-134   Gary Business Mail Entry Unit            $0          $0             $0      $0    3/19/03
FF-AR-03-145   Jersey City Business Mail Entry Unit     $0          $0             $0      $0    3/19/03
FF-AR-03-136   Addison Business Mail Entry Unit         $0          $0             $0      $0    3/20/03
FF-AR-03-149   Irving Self-Service Postal Center        $0          $0             $0      $0    3/20/03
FF-AR-03-138   Nashville Business Mail Entry Unit       $0          $0             $0      $0    3/21/03
FF-AR-03-139   Okeechobee Post Office                   $0          $0             $0      $0    3/21/03
FF-AR-03-143   Megaron Contract Postal Unit             $0          $0             $0      $0    3/21/03
FF-AR-03-113   Austin Post Office                       $0          $0             $0      $0    3/25/03
FF-AR-03-114   Versailles Business Mail Entry Unit      $0          $0             $0      $0    3/25/03
FF-AR-03-120   Memphis Self-Service Postal Center #71 $0            $0             $0      $0    3/25/03
FF-AR-03-123   Rock Hill Business Mail Entry Unit       $0          $0             $0      $0    3/25/03
FF-AR-03-137   Miami Stamp Distribution Office          $0          $0             $0      $0    3/25/03
               and South Florida District
               Accounting Office
FF-AR-03-140   Waterloo Business Mail Entry Unit        $0          $0             $0      $0    3/25/03
FF-AR-03-144   Lancaster Business Mail Entry Unit       $0          $0             $0      $0    3/25/03
FF-AR-03-147   Lisbon Business Mail Entry Unit          $0          $0             $0      $0    3/25/03
FF-AR-03-129   Dodgeville Business Mail Entry Unit      $0          $0             $0      $0    3/26/03
FF-AR-03-131   Bensenville Business Mail Entry Unit     $0          $0             $0      $0    3/26/03
FF-AR-03-148   Rutland Business Mail Entry Unit         $0          $0             $0      $0    3/27/03
FF-AR-03-159   Bellmawr Business Mail Entry Unit        $0          $0             $0      $0    3/28/03
FF-AR-03-162   Brooklyn Business Mail Entry Unit        $0          $0             $0      $0    3/28/03

                                                                                                           PAGE 103
                                                                                 Un-    Recommend
           Report          Subject Title/                     Questioned   supported   Funds Put to             Issue
           Number          Project Type                            Costs       Costs     Better Use   Other      Date
           FINANCIAL RELATED
           FF-AR-03-077    Audit of Statistical Tests for Fiscal     $0          $0             $0      $0    12/2/02
                           Year 2002 - Cost and Revenue
                           Analysis Capping Report
           FF-AR-03-079    Audit of Statistical Tests for Fiscal     $0          $0             $0      $0     1/6/03
                           Year 2003 Cost and Revenue
                           Analysis - Atlanta District
           FF-AR-03-080    Audit of Statistical Tests for Fiscal $0              $0             $0      $0     1/6/03
                           Year 2003 Cost and Revenue Analysis -
                           Northern Virginia District
           FF-AR-03-102    Audit of Statistical Tests for Fiscal     $0          $0             $0      $0    2/13/03
                           Year 2003 Cost and Revenue
                           Analysis - Long Beach District
           FF-AR-03-105    Audit of Statistical Tests for Fiscal     $0          $0             $0      $0    2/13/03
                           Year 2003 Cost and Revenue
                           Analysis - Baltimore District
           FF-AR-03-106    Audit of Statistical Tests for Fiscal     $0          $0             $0      $0    2/13/03
                           Year 2003 Cost and Revenue
                           Analysis - Houston District
           FF-AR-03-112    Audit of Statistical Testing for Fiscal   $0          $0             $0      $0    2/21/03
                           Year 2003 Cost and Revenue
                           Analysis - Central Illinois District
           FF-AR-03-119    Audit of Statistical Tests for Fiscal     $0          $0             $0      $0    2/26/03
                           Year 2003 Cost and Revenue
                           Analysis - San Francisco District
           FF-AR-03-121    Audit of Statistical Tests for Fiscal     $0          $0             $0      $0    2/27/03
                           Year 2003 Cost and Revenue
                           Analysis - South Jersey District
           FF-AR-03-151    Audit of Statistical Tests for Fiscal     $0          $0             $0      $0    3/24/03
                           Year 2003 Cost and Revenue
                           Analysis - Cleveland District
           FT-AR-03-001    Withholdings and Contributions for        $0          $0             $0      $0 11/18/02
                           Health Benefits, Life Insurance,
                           Retirement, and Employee
                           Headcount Data
           FT-MA-03-001    Postal Service Payments to        $1,750,157          $0             $0      $0 11/19/02
                           the Smithsonian Institution
           OE-AR-03-001    Corporate Contact Management              $0          $0             $0      $0 12/26/02
                           Follow up
           CONTRACTING AND FACILITIES
           CA-AR-03-001    Architectural and Engineering             $0          $0             $0      $0     3/7/03
                           Design Fees
           CA-CAR-03-001   Evaluation of Incurred Costs              $0          $0             $0      $0 10/16/02
           CA-CAR-03-002   Post Award Evaluation               $343,759          $0             $0      $0 10/16/02
           CA-CAR-03-003   Evaluation of Incurred Costs              $0          $0             $0      $0 10/16/02
           CA-CAR-03-004   Evaluation of Proposal              $248,680          $0             $0      $0 11/18/02
           CA-CAR-03-005   Evaluation of Incurred Costs              $0          $0             $0      $0 11/18/02
           CA-CAR-03-006   Evaluation of Claimed Costs       $1,143,069    $755,763             $0      $0    12/9/02
           CA-CAR-03-007   Evaluation of Final Voucher               $0          $0             $0      $0    12/9/02
           CA-CAR-03-008   Evaluation of Incurred Costs              $0          $0             $0      $0     1/9/03
           CA-CAR-03-009   Evaluation of Labor Practices             $0          $0             $0      $0     1/9/03
           CA-CAR-03-010   Evaluation of Proposal            $4,469,333    $765,400             $0      $0     1/9/03
           CA-CAR-03-011   Evaluation of Equitable           $4,028,935          $0             $0      $0    2/11/03
                           Adjustment
           CA-CAR-03-012   Evaluation of Proposal            $1,478,596    $479,451             $0      $0    2/26/03
           CA-CAR-03-013   Evaluation of Proposal                    $0          $0             $0      $0    3/12/03

PAGE 104   APPENDICES
                                                                       Un-    Recommend
Report          Subject Title/                    Questioned     supported   Funds Put to             Issue
Number          Project Type                           Costs         Costs     Better Use   Other      Date
CA-MA-03-001    Review of Common Area                    $0            $0             $0      $0    1/27/03
                Maintenance Costs
CA-MA-03-002    Review of Prorated Common           $26,707            $0             $0      $0    2/11/03
                Area Maintenance Costs
CA-MA-03-003    Review of Prorated Common                $0            $0             $0      $0    2/11/03
                Area Maintenance Costs
CA-MA-03-004    Review of Interim Invoice            $9,130            $0             $0      $0    2/11/03
CA-MA-03-005    Review of Incurred Architectural         $0            $0             $0      $0    2/21/03
                Design Expenses
CA-MA-03-006    Deployment Plans for Acquired            $0            $0             $0      $0    3/20/03
                Irradiation Equipment
CA-MA-03-007    Impact of Freezing Capital               $0            $0             $0      $0    3/31/03
                Construction Projects
FINANCIAL MANAGEMENT TOTALS                  $ 13,498,366      $2,000,614            $0       $0


TECHNOLOGY
INFORMATION SYSTEMS
IS-AR-03-001    Network General Controls                 $0            $0             $0      $0 10/24/02
IS-AR-03-002    Review of Controls Over the              $0            $0             $0      $0    1/21/03
                Electronic Travel Voucher System
IS-AR-03-003    Server Security Testing                  $0            $0             $0      $0    3/10/03
IS-AR-03-004    Information Systems Impacted by          $0            $0             $0      $0    3/17/03
                the Postal Service Change to
                Monthly Reporting
IS-CS-03-001    Network General Controls                 $0            $0             $0      $0 11/22/02
OE-AR-03-002    Retail Data Mart System -                $0            $0             $0      $0    3/31/03
                Security Issues
DEVELOPMENTAL
DA-AR-03-001    PostalOne! Phase Two                     $0            $0             $0      $0 10/24/02
DA-AR-03-002    Postal Automated Redirection             $0            $0             $0      $0    2/25/03
                System, Phase 1
DA-AR-03-003    Human Transporter Alpha Test             $0            $0             $0      $0    3/28/03
TECHNOLOGY TOTALS                                       $0             $0            $0       $0


LABOR MANAGEMENT
HUMAN RESOURCE PROCESS REVIEWS
LH-AR-03-001    Sexual Harassment Prevention             $0            $0             $0      $0    1/15/03
                Measures in the Chicago and Detroit
                Districts - Great Lakes Area
LH-AR-03-002    Sexual Harassment Prevention             $0            $0             $0      $0    1/16/03
                Measures in the Long Island and
                Northern New Jersey Districts -
                New York Metro Area
LH-AR-03-003    Sexual Harassment Prevention             $0            $0             $0      $0    1/30/03
                Measures in the Northern Virginia
                and Richmond Districts -
                Capital Metro Operations
LH-AR-03-004    Sexual Harassment Prevention         $0                $0             $0      $0    2/25/03
                Measures in the Albany and Southeast
                New England Districts -
                Northeast Area
LH-AR-03-005    Sexual Harassment Prevention             $0            $0             $0      $0     3/5/03
                Measures in the Central Florida and
                South Georgia Districts -
                Southeast Area


                                                                                                              PAGE 105
                                                                                 Un-     Recommend
           Report         Subject Title/                    Questioned     supported    Funds Put to                   Issue
           Number         Project Type                           Costs         Costs      Better Use         Other      Date
           LH-AR-03-006   Sexual Harassment Prevention             $0            $0              $0            $0     3/5/03
                          Measures in the Greensboro and
                          Harrisburg Districts - Eastern Area
           LH-AR-03-007   Sexual Harassment Prevention         $0                $0              $0            $0     3/5/03
                          Measures in the Dakotas and Portland
                          Districts - Western Area
           LH-AR-03-008   Sexual Harassment Prevention             $0            $0              $0            $0    3/18/03
                          Measures in the Oakland and
                          Santa Ana Districts - Pacific Area
           LH-AR-03-009   Sexual Harassment Prevention          $0               $0              $0            $0    3/25/03
                          Measures in the Arkansas and
                          Rio Grande Districts - Southwest Area
           HK-AR-03-001   Postal Service’s Arrangement With a      $0            $0        $75,000             $0    3/31/03
                          Preferred Provider Organization
           HK-MA-03-001   Retirement Eligible Postal Service       $0            $0              $0            $0    3/21/03
                          Employees on the Workers’
                          Compensation Periodic Rolls
           HK-MA-03-002   Postal Service’s Death          $1,265,294      $1,265,294             $0            $0    3/31/03
                          Benefit Payments to the
                          Decedent’s Survivor(s)
           LABOR MANAGEMENT TOTALS                      $1,265,294       $1,265,294       $75,000              $0


           OVERSIGHT
           SA-AR-03-001   Postal Inspection Service Fraud          $0            $0              $0            $0 03/31/03
                          Against Business and Consumer
                          Programs and the Customer
                          Initiative Group

           OTHER SIGNIFICANT REVIEWS
           OE-MA-03-001   Postal Service Transformation Plan       $0            $0              $0            $0 10/29/02
           OVERSIGHT AND OTHER REVIEWS TOTALS                     $0             $0             $0             $0

           OIG TOTALS                                  $14,763,660                     $37,674,052
                                                                         $3,265,908                    $21,111,415




PAGE 106   APPENDICES
APPENDIX B

Findings of Questioned Costs
For the period October 1, 2002 through March 31, 2003
OFFICE OF INSPECTOR GENERAL AND INSPECTION SERVICE
                                                                                                Unsupported
                                                                                                       Costs
                                                                                      Total       Included in
                                                               Number of        Questioned       Questioned
Description                                                      Reports             Costs             Costs
Reports for which no management decision was made at                 30      $219,617,994     $119,881,658
the beginning of the reporting period
Reports requiring management decision that were issued               10       $14,763,660       $3,265,908
during the reporting period

TOTALS                                                               40     $234,381,654      $123,147,566

Reports for which a management decision was made                     17       $67,726,065         $554,878
during the reporting period (i+ii)*
(i) Dollar value of disallowed cost                                           $35,500,328         $203,843
(ii) Dollar value of cost not disallowed                                      $32,225,737         $351,035

Reports for which no management decision was made                    23      $166,655,589     $122,592,688
by the end of the reporting period.
Negotiations are ongoing.

Reports for which no management decision was made                     6      $121,346,968     $117,650,903
within six months of issuance
(See Note 1 for a list of individual reports)

Reports for which no management decision was made                     9       $30,820,348       $1,675,877
within one year of issuance
(See Note 2 for a list of individual reports)


Note 1 - Reports for which no management decision was made within six months of issuance:

                                                                                                Unsupported
                                                                                                       Costs
                                                                                    Total         Included in
              Report/                                                         Questioned         Questioned
Report Date   Case Number            Project Type                                  Costs               Costs
5/9/02        CA-CAR-02-041          Contract Audit                             $96,324            $20,202
5/9/02        CA-CAR-02-042          Contract Audit                           1,689,663
6/28/02       CA-CAR-02-045          Contract Audit                           1,053,263            134,340
8/2/02        FT-MA-02-004           Terminated Station Contract                 58,248             58,248
9/6/02        CA-CAR-02-050          Contract Audit                         117,828,789        117,250,842
9/13/02       CA-CAR-02-051          Contract Audit                             620,681            187,271

OIG TOTAL                                                                  $121,346,968       $117,650,903



* The reported amounts include $30,630,000 in “disallowed costs” and $7,776,029 in “costs not
disallowed” resulting from a negotiated settlement of current and future contract claims. The
amounts reported were based on OIG calculated allocation percentages that reflected the rela-
tionship of an audit report’s results to the negotiation results.




                                                                                                                PAGE 107
           Note 2 - Reports for which no management decision was made within one year of issuance:

                                                                                                Unsupported
                                                                                                       Costs
                                                                                        Total     Included in
                         Report/                                                  Questioned     Questioned
           Report Date   Case Number         Project                                   Costs           Costs
           2/29/00       TR-AR-00-005        Southwest Area Expenditures for       $848,000
                                             Extra Highway Trips Using Leased
                                             Equipment
           5/17/00       CA-AR-00-001        United States Postal Service           977,598
                                             Warranty Repair of Tractors
           10/12/01      CA-CAR-02-004       Contract Audit                      17,359,760
           2/28/02       CA-CAR-02-026       Contract Audit                         491,590
           3/6/02        CA-CAR-02-027       Contract Audit                       2,217,874
           3/25/02       CA-CAR-02-032       Contract Audit                         772,214

           OIG TOTAL                                                            $22,667,036              $0
                                                                                                Unsupported
                                                                                                       Costs
                                                                                        Total     Included in
                         Report/                                                  Questioned     Questioned
           Report Date   Case Number         Project Type                              Costs           Costs
           11/17/99      181-1294644-AC(1)   Contract Audit                      $7,063,747     $1,675,877
           4/3/00        184-1126310-AC(1)   Contract Audit                         514,696
           8/30/00       184-1210121-AC(1)   Contract Audit                         574,869

           INSPECTION SERVICE TOTAL                                              $8,153,312     $1,675,877


           TOTAL                                                                $30,820,348     $1,675,877




PAGE 108    APPENDICES
APPENDIX C

Recommendations That Funds
Be Put to Better Use
For the period October 1, 2002, through March 31, 2003
OFFICE OF INSPECTOR GENERAL
                                                                                 Number of
Description                                                                        Reports       Dollar Value
Reports for which no management decision was made at the beginning
of the reporting period*                                                                  3   $128,121,000
Reports requiring management decision that were issued during the reporting period       10    $37,674,052

TOTALS                                                                                   13   $165,795,052

Reports for which a management decision was made during the report period                 5    $29,355,786
(i)Value of recommendations agreed to by management                                             $5,971,267
(ii)Value of recommendations that management did not agree                                     $23,384,519
Reports for which no management decision was made by the end of the reporting period.*    8   $136,439,266
Reports for which no management decision was made within six months of issuance
(See Note 1 for a list of individual reports)                                             0               $0
Reports for which no management decision was made within one year of issuance
(See Note 2 for a list of individual reports)                                             3   $126,725,169
Note 1 - Reports for which no management decision was made within six months of issuance:
                                                                                                 Recommend
Report        Report/                                                                           Funds Put to
Date          Case Number                Subject                                                  Better Use
None                                                                                                      $0

TOTAL                                                                                                     $0



Note 2 - Reports for which no management decision was made within one year of issuance:

                                                                                                 Recommend
Report        Report/                                                                           Funds Put to
Date          Case Number                Subject                                                  Better Use
3/29/2002     TD-AR-02-002            Trailer Lease Justification                              $82,349,739
9/29/2000     MK-AR-00-001            Review of Stamp Fulfillment Services Performance          28,457,395
7/27/2001     TR-AR-01-004            Bulk Fuel Purchase Plan                                   15,918,035

TOTALS                                                                                        $126,725,169



*Included are amounts from two reports where management agreed to take the recommended correc-
tive action in a prior reporting period but could not comment on some of the potential savings until
analyses were completed. The majority of identified savings were agreed to and decisions for two
reports were reflected in a prior reporting period.




                                                                                                                PAGE 109
           APPENDIX D

           Reports with Significant Recommendations
           Pending Corrective Actions
           For the period October 1, 2002, through March 31, 2003
           This appendix lists reports containing significant recommendations pending final action by man-
           agement. On October 1, 2000, the OIG assumed complete responsibility for tracking corrective
           actions for all significant recommendations. As a result, the OIG performed an extensive analysis
           to identify reports with significant recommendations requiring confirmation that appropriate cor-
           rective actions have been taken. This appendix identifies those reports. The OIG is working
           with Postal Service management to validate whether appropriate corrective actions have been
           taken, and if so, remove them from this appendix.

           OFFICE OF INSPECTOR GENERAL
           Report             Report                                                   Number of            Issue
           Number             Title                                                    Recommendations       Date
           LM-MA-99-002       Effectiveness of USPS Grievance Arbitration Procedures       2              3/26/99
           LR-MA-99-001       Grievance Arbitration Management Information                 2              3/26/99
           OV-MA-99-001       Review of USPS Personnel Security Program -
                              Process for Updating Sensitive Clearances                    1              3/31/99
           TR-AR-99-003       Emergency and Extra Trip Expenditures on Highway Routes      6              9/29/99
           CA-AR-99-002       Removal of Underground Storage Tanks                         1              9/30/99
           CA-AR-99-003       Responsibilities of Contracting Officers’ Representatives    2              9/30/99
           RP-MA-00-001       Indefinite Quantity Contracts                                1              11/8/99
           TR-AR-00-005       Southwest Area Expenditures for Extra Highway Trips          3              2/29/00
                              Using Leased Equipment
           TR-AR-00-006       Commercial Air Carrier Performance:                          2              3/27/00
                              Payment for Ground Handling Services
           CA-MA-00-001       Contract Audit Practices                                     6              3/31/00
           DA-AR-00-002       Tray Management System                                       5              3/31/00
           TR-AR-00-009       Extra Trips Expenditures within the Mid-Atlantic Area        2              7/27/00
           AC-AR-00-004       Use of Robotic Tray Handling System                          2              9/29/00
           DA-AR-00-006       Point of Service ONE Phase II                                2              9/29/00
           MK-AR-00-001       Review of Stamp Fulfillment Services Performance Measures    1              9/29/00
           OV-AR-00-005       Review of the United States Postal Inspection Service        2              9/29/00
                              Budget Process
           MK-AR-00-002(R)    Management Controls over the                                 3             10/31/00
                              Sales Force Augmentation Program - Revised
           DA-AR-01-004       Postal One! Business Customer Support Systems Phase One      5               4/9/01
           IS-AR-01-001       Network Security                                             1              4/18/01
           OV-AR-01-002       Inspection Service Support to Postal Service Threat          2              4/30/01
                              Assessment Teams
           TR-LA-01-001       Review of a Transportation Agreement                         2              6/26/01
           TR-AR-01-004       Bulk Fuel Purchase Plan                                      5              7/27/01
           TR-MA-01-002       Excise Taxes and Third Party Ground Handling Costs under a   1               8/8/01
                              Transportation Agreement
           IS-AR-01-003       Review of Security Access Controls                           3              8/29/01
           CA-AR-01-005       Supplier Diversity Program for Supplies, Services, and       8               9/6/01
                              Equipment Purchases
           DA-AR-01-006       Singulate, Scan, Induction Unit                              5              9/27/01
           TR-MA-01-003       Security Risks Associated with a Transportation Agreement    1              9/27/01
           OV-AR-01-004       Postal Inspection Service Fraud Against Government Program   1              9/28/01
           FT-AR-02-001       Shared Real Estate Appreciation Loan Program                 5             10/17/01




PAGE 110   APPENDICES
Report            Report                                                    Number of             Issue
Number            Title                                                     Recommendations        Date
EM-AR-02-001      Protection of Internet Users' Information -                    3            10/18/01
                  PostmarkAmerica.com Technical Issues
IS-AR-02-001      Fiscal Year 2001 Information System Controls                   3             11/8/01
CQ-MA-02-001      Review of Letter Contract                                      1            12/28/01
IS-AR-02-003      Review of the Facilities Management System for Windows         4             2/22/02
EM-AR-02-002      Postal Retail Store Operations                                 2             2/28/02
LH-MA-02-003      Review of Decontamination Activities at the Pentagon Station   2             3/12/02
AC-AR-02-002      Certified Mail Processing Operations                           3             3/21/02
DA-AR-02-004      Postal Service Test, Evaluation, and Quality                   3             3/27/02
TD-AR-02-002      Trailer Lease Justification                                    2             3/29/02
EM-AR-02-007      The Role of Marketing in the Postal Service                    3             3/29/02
EM-AR-02-008      PostmarkAmerica.com Financial and Management Issues            4             3/29/02
EM-AR-02-009      Public-Key Infrastructure Initiatives by the Postal Service    2             3/29/02
CQ-MA-02-002      Review of Contracts Associated with Biohazard Threat           1             3/29/02
IS-AR-02-007      Network General Controls                                       2              4/3/02
DA-AR-02-005      Surface-Air Management System                                  1             4/19/02
LH-AR-02-003      Southwest Area's Efforts in Obtaining Appropriate              2              5/8/02
                  Chargeback Credits for Identified Wage Compensation
                  Overpayment and Refundable Disbursements
FT-AR-02-012      Relocation Compilation Report                                  1             5/31/02
OV-AR-02-003(R)   Postal Inspection Service Health Examination Program           3             7/30/02
EM-AR-02-012      Review of eBusiness Agreements                                 7              7/9/02
TD-MA-02-003      New York Metro Area Trailer Acquisition Requirements           2             7/10/02
LH-AR-02-004      Postal Service's Corporate Succession Planning Process         7              9/3/02
DA-AR-02-008      Postal Service's Efforts to Implement Prevention and           1              9/4/02
                  Detection Technology
DA-AR-02-010      Automated Seamless Dispatch Program                            1             9/18/02
DA-MA-02-001      Biohazard Detection System                                     6             9/24/02
DA-MA-02-002      Biohazard Filtration System                                    3             9/24/02
TD-AR-02-003      Highway Network Scheduling - Pacific Area                      3             9/24/02
CQ-AR-02-001      Work Performed by Business Mail Entry Employees in the         1             9/26/02
                  Colorado Wyoming Performance Cluster
FT-AR-02-015      Payments to a Utility Company                                  1             9/26/02
FT-AR-02-016      Advanced Annual Leave                                          1             9/26/02
TD-AR-02-004      Voyager Card Control Weaknesses - Chicago                      1             9/26/02
CA-AR-02-004      Undefinitized Contract Actions                                 1             9/30/02
FT-AR-02-017      Effectiveness of the Postal Service's Asset Locator Program    3             9/27/02
IS-AR-02-015      Fiscal Year 2002 Information System Controls                   2             9/27/02
AC-MA-02-002      Review of Nonprofit Standard Mail                              1             9/30/02
CA-AR-02-005      Use of Noncompetitive Contracting Process for                  3             9/30/02
                  Tabbing Systems Purchases
LH-AR-02-005      Associate Supervisor Program in the Great Lakes Area           6             9/30/02
TD-AR-02-005      Delivery Vehicle Gasoline                                      4             9/30/02
DA-AR-03-001      PostalOne! Phase Two                                           4            10/24/02
IS-AR-03-001      Network General Controls                                       6            10/24/02
TD-AR-03-001      New York Metro Area Trailer Acquisition - Safety and Length    2            10/28/02
FT-MA-03-001      Postal Service Payments to the Smithsonian Institution         3            11/19/02
TD-AR-03-002      Highway Network Scheduling - Northeast Area                    2            11/25/02
TD-AR-03-003      Voyager Card Control Weaknesses - San Antonio District         2             12/2/02
LH-AR-03-001      Sexual Harassment Prevention Measures in the Chicago and       1             1/15/03
                  Detroit Districts – Great Lakes Area
IS-AR-03-002      Review of Controls Over the Electronic Travel Voucher System   2             1/21/03
FT-AR-03-006      Fiscal Year 2002 Postal Service Financial Statements Audit -   2             1/23/03
                  San Mateo Information Technology and Accounting
                  Service Center
TD-MA-03-001      New York Metro Area Operational Use of Trailers                2             1/29/03


                                                                                                          PAGE 111
           Report               Report                                                     Number of            Issue
           Number               Title                                                      Recommendations       Date
           FT-AR-03-008         Fiscal Year 2002 Postal Service Financial Statements Audit -   2             1/30/03
                                St. Louis Information Technology and Accounting
                                Service Center
           LH-AR-03-003         Sexual Harassment Prevention Measures in the Northern          2             1/30/03
                                Virginia and Richmond Districts – Capital Metro Operations
           AC-AR-03-003         Review of Nonprofit Authorizations                             1             2/14/03
           DA-AR-03-002         Postal Automated Redirection System, Phase 1                   2             2/25/03
           LH-AR-03-004         Sexual Harassment Prevention Measures in the Albany and        2             2/25/03
                                Southeast New England Districts - Northeast Area
           CQ-MA-03-001         Reno, Nevada Mail Transportation                               1              3/5/03
           LH-AR-03-005         Sexual Harassment Prevention Measures in the Central Florida   1              3/5/03
                                and South Georgia Districts - Southeast Area
           LH-AR-03-006         Sexual Harassment Prevention Measures in the Greensboro        2              3/5/03
                                and Harrisburg Districts – Eastern Area
           LH-AR-03-007         Sexual Harassment Prevention Measures in the Dakotas           1              3/5/03
                                and Portland Districts - Western Area
           CA-AR-03-001         Architectural and Engineering Design Fees                      2              3/7/03
           TD-AR-03-004         Address Change Service                                         5             3/12/03
           LH-AR-03-008         Sexual Harassment Prevention Measures in the Oakland and       3             3/18/03
                                Santa Ana Districts - Pacific Area
           TD-AR-03-005         Vehicle Maintenance Facilities - Vehicle Inventory Control     4             3/19/03
                                Weaknesses in the Chicago District
           LH-AR-03-009         Sexual Harassment Prevention Measures in the Arkansas          3             3/25/03
                                and Rio Grande Districts - Southwest Area
           TD-AR-03-006         Transportation Agreement Capping Report                        4             3/27/03
           CQ-AR-03-001         Work Performed by Business Mail Entry Employees in the         2             3/28/03
                                Seattle, Minneapolis, and Des Moines Bulk Mail Centers
           TD-AR-03-007         Highway Network Scheduling - Capital Metro Area                2             3/28/03
           HK-MA-03-002         Postal Service’s Death Benefit Payments to                     1             3/31/03
                                Decedent’s Survivor(s)
           OE-AR-03-002         Retail Data Mart System - Security Issues                      4             3/31/03
           OE-AR-03-003         Postal Service’s Involvement in Sponsorships                   3             3/31/03
           TD-AR-03-008         Highway Network Scheduling - New York Metro Area               2             3/31/03
           TD-AR-03-009         New York Metro Area Trailer Acquisition - Lease versus Buy     2             3/31/03


           INSPECTION SERVICE

           CONTRACT AUDITS
           Report Number                      Contractor                         Report Date
           0184-1126310-AC(1)                 Contract Audit                         4/3/00
           0184-1210121-AC(1)                 Contract Audit                        8/30/00




PAGE 112   APPENDICES
APPENDIX E

Investigative Statistics1
For the period October 1, 2002, through March 31, 2003
OFFICE OF INSPECTOR GENERAL
Statistics
Arrests                                                                     6
Information/Indictments                                                     7
Convictions3/Pretrial Diversions                                           20
Suspension/Debarments
    Individuals                                                             2
    Firms                                                                   0
Administrative Actions
    Postal Service Employee                                                 8
    Contractor                                                              0
Fines, Restitution, and Recoveries2                                $1,593,857
Cost Avoidances 2                                                  $6,989,190

INSPECTION SERVICE4
Statistics
Arrests                                                                   213
Convictions3                                                              193
Administrative Actions
    Employees                                                             438
    Contractors                                                            51
Fines, Restitution, and Recoveries                                $16,174,864
Collections                                                                $0
Civil Actions                                                               7




1
    Statistics include joint investigations with other federal law enforcement agencies.
2
    Some of these occurred in the prior semiannual reporting period, however, they were not reported
    until the current reporting period.
3
    Convictions reported in this time frame may be related to arrests made in prior reporting periods.
4
    Statistics for investigations related to fraud, waste, abuse, and mismanagement of Postal Service
    operations.

                                                                                                         PAGE 113
           APPENDIX F

           Summary of Postal Service Investigative
           Activities Under 39 USC § 3013
           For the period October 1, 2002, through March 31, 2003

           The Postal Reorganization Act requires the Postmaster General to furnish information on the
           investigative activities of the Postal Service on a semiannual basis. With passage of the
           Deceptive Mail Prevention and Enforcement Act in December 1999, the Postal Service's report-
           ing obligations were changed.
           The Act requires the Postal Service to submit its semiannual report to the OIG rather than to
           the Board of Governors, expands the subject matter that must be reported, and revises the report-
           ing schedule to coordinate with the OIG Semiannual Report to Congress. The information in
           the report includes actions directed at combating crimes involving the mail; costs and expendi-
           tures devoted to Postal Service investigative activities; use of subpoena power; and any additional
           information the OIG may require.

           ABUSE OF MAILS
           The Postal Service reports to the Office of Inspector General information related to investigative
           activities designed to protect the public against unscrupulous mailers perpetrating fraudulent
           schemes. The following information summarizes the administrative and judicial actions initiated
           and resolved during the reporting period. These actions include the issuance of cease and desist
           orders directed to mailers, actions to intercept payments fraudulently induced, and orders seeking
           to intercept fraudulent mailings.

           INSPECTION SERVICE
                                                                               False            Cease &
           Type of                              Complaints     Consent         Representation   Desist
           Scheme                               Filed          Agreements      Orders           Orders
           Contest/Sweepstakes                   0               2               1                3
           False billings                        3               3               1                3
           Fraud – Internet Schemes              2               2               0                2
           Lotteries (Foreign and Domestic)     30               1              26                1
           Medical                               1               0               0                0
           Miscellaneous                         5               4               1                4
           Work at home                          5               6               2                5
           TOTAL                                46              18              31              18


           OTHER ADMINISTRATIVE ACTIONS
           Administrative Action Requests                       50
           Temporary Restraining Orders Requested                0
           Temporary Restraining Orders Issued                   0
           Civil Injunctions (1345) Requested                    1
           Civil Injunctions (1345) Issued                       1
           Cases Using Direct Purchase Authority                 0
           Refusals of Direct Purchase Authority                 0
           Civil Penalties (Section 3012) Imposed                0
           Expenditures Incurred for:                            0
             Test Purchases                                      0
             Expert Testimony                                    0
             Witness Travel                                      0
           Withholding Mail Orders Issued                       22
           Voluntary Discontinuances                            91




PAGE 114    APPENDICES
POSTAL SERVICE ADMINISTRATIVE SUBPOENA AUTHORITY
The Postal Service reports to the Office of Inspector General information on the number of cases
in which the Postal Service issued administrative subpoenas in connection with deceptive mail-
ing. The following section identifies the number and nature of cases in which the Postal Service
exercised this authority to request relevant business and associated records.
Case Number           Date Issued      Scheme
USPS-02-014           09/13/02         Identity Takeover
USPS-03-001           02/24/03         Work-at-Home
USPS-03-002           03/28/03         Telemarketing
USPS-03-003           03/28/03         Telemarketing
USPS-03-004           03/28/03         Telemarketing
USPS-03-005           03/28/03         Telemarketing
USPS-03-006           03/28/03         Telemarketing


FINANCIAL REPORTING ON INVESTIGATIVE ACTIVITIES
The Postal Service reports to the Office of Inspector General information related to the amount
of financial expenditures and obligations incurred pursuing the investigative activities of the
Postal Service. Information related to these activities is summarized below.
Type                                Semi Annual Report
Personnel                              $160,643,500
Nonpersonnel                            $35,325,500
Total Expenditures                     $195,969,000
Capital Obligations                      $8,932,719


OTHER INVESTIGATIVE ACTIVITIES
The Postal Service also reports to the Office of Inspector General additional information
related to significant investigative activities and other investigative matters. This section
outlines a number of significant investigative activities the Postal Service has initiated and is
pursuing, to include the Mail Task Forces and the Deceptive Mail Enforcement Team.
Inspection Service and Office of Inspector General criminal statistical information is
summarized in Appendix E

MAIL SECURITY TASK FORCE
The Postmaster General established the Mail Security Task Force in October 2001, and appoint-
ed the Chief Postal Inspector to lead the team. The task force is committed to reducing the risks
to the safety and security of postal employees and customers. The Steering Committee, compris-
ing Postal Inspectors, senior level postal executives, and presidents of the labor unions and man-
agement associations, meets on a regular basis. Seven working groups are contained within the
task force including Mail Center Security, Contingency Planning System-Wide, Mail
Preparation, Mail Screening, Communicating/Messaging, Safety and Security in the Workplace
Environment, and Mail Transportation Security. All of the working groups have presented find-
ings to the Steering Committee, which is in the process if issuing an interim status report.




                                                                                                     PAGE 115
           INTERNATIONAL SECURTIY GROUPS
           The Inspection Service is an active participant in two international groups focused on security.
           The International Security Group targets initiatives to improve the safety, security, and reliability
           of international mail products for the U.S. Postal Service. The group also develops strategies and
           initiatives to improve quality of service and security of mail for the 189 member countries of the
           Universal Postal Union. The Postal Security Action Group of the Universal Postal Union focus-
           es on problems and issues affecting the safety, security, and integrity on international communica-
           tions products. This group is chaired by the Chief Postal Inspector.

           DECEPTIVE MAIL PREVENTION
           The Deceptive Mail Prevention and Enforcement Act, which became effective April 12, 2000, sub-
           jects violators to civil penalties in addition to Cease and Desist Orders and False Representation
           Orders. To support this new law, the Postal Inspection Service created the Deceptive Mail
           Enforcement Team to identify violators and ensure swift, appropriate, investigative attention.
           Questionable promotions identified by team, as well as those received as consumer complaints, are
           examined for compliance. During the reporting period 83 promotions were reviewed for possible vio-
           lations, and 12 have been referred for preliminary investigative attention.

           INTERNET FRAUD PREVENTION
           The Internet is teeming with schemes, and swindlers have learned how easy it is to exploit innocent
           victims. Fraud on the Internet often results in mail fraud, as cyber scammers use the mail to receive
           payments or ship items. As a result of the growing trend among fraudsters to use the Internet, the
           Postal Inspection Service participates in a multi-federal project known as the Internet Fraud
           Complaint Center, which was established by the Federal Bureau of Investigation and National White
           Collar Crime Center. The project is aimed at stemming Internet fraud by gathering, analyzing, and
           referring Internet complaints. The Internet Fraud Complaint Center offers a central repository for
           complaints related to Internet fraud.

           DEFINITIONS OF SCHEME
           Contest/Sweepstakes. Schemes in which the respondent is required to pay a fee to obtain prizes
           of money, gifts or other items of value. “Prizes” are either never shipped or are inferior to what
           was promised.
           False billings. Mailing solicitations in the guise of billings.
           Fraud – Internet Schemes. Fraudulent schemes using the Internet with a nexus to the mail.
           Lottery. Advertisements seeking money or property by mail for participation in schemes to win
           prizes through chance.
           Medical. Sales by mail of misrepresented health products or services, including fraudulent med-
           ical degrees.
           Miscellaneous. Any other scheme not described in a specific category.
           Work at home. Schemes, such as envelope stuffing, that do not provide home employment.




PAGE 116   APPENDICES
APPENDIX G

Closed Congressional and Board of Governors
Inquiries
For the period October 1, 2002, through March 31, 2003
This appendix lists the 47 Congressional and Governors inquiries the OIG closed during this
reporting period. The OIG reviewed these inquiries to help identify systemic issues and to
determine the need for future Postal-wide audits.


CONGRESSIONAL
PERFORMANCE
Requestor                  Allegations/Concern                                                     Response Date
White House                Allegation of mismanagement which has resulted in mail delays            06-Nov-02
Senator, Kentucky          Allegation of mail processing mismanagement                              14-Nov-02
Senators, Virginia         Allegation of mishandled mail and mismanagement                          26-Nov-02
Senator, Kentucky          Allegation of mail processing mismanagement                               16-Dec-02
Senator, California        Allegation of delayed and missing mail                                    08-Jan-03
Representative, Texas      Allegation of mishandled mail                                             17-Jan-03
Senator, California        Allegation of poor customer service                                       28-Jan-03
Representative, Texas      Allegation of delayed delivery and destruction of mail                    31-Jan-03
Senator, North Carolina    Allegation of mail tampering                                              31-Jan-03
Senator, California        Allegation of mail delivery problems experienced by disabled customer     11-Feb-03

FINANCIAL MANAGEMENT
Requestor                  Allegations/Concern                                                     Response Date
Representative, Colorado   Allegation of improper pay adjustments                                    29-Oct-02
Representative, Illinois   Allegation of improper garnishment of retirement annuity                 12-Nov-02
Senator, Arkansas          Allegation of failure to comply with arbitration settlement              14-Nov-02
Representative,            Request for review of facility site selection                             16-Dec-02
Pennsylvania
Senators, South Dakota     Allegation of improper collection of stamp shortage                       31-Mar-03

LABOR MANAGEMENT
Requestor                  Allegations/Concern                                                     Response Date
Representative, California Allegation of a hostile work environment                                  09-Oct-02
Senator and                Allegation of managerial harassment                                       23-Oct-02
Representative, Kentucky
Senator and                Allegation of retaliation and hostile work environment                   14-Nov-02
Representative, Virginia
Representative, New Jersey Allegation of managerial harassment                                      26-Nov-02
Representative, New York Allegation of unfair and improper treatment of employees                   27-Nov-02
White House                Allegation of managerial harassment and hostile work environment          09-Dec-02
Senator, California        Allegation of hostile work environment                                    16-Dec-02
White House                Allegation of worker’s compensation fraud and abuse                       24-Jan-03
Senator, California        Allegation of managerial harassment and discrimination                    28-Jan-03
Senator, California        Allegation of various employment issues                                   11-Feb-03
Senator, Oklahoma          Allegation of worker’s compensation claim problems                        20-Feb-03
Senator, Montana           Allegation of hostile work environment, managerial harassment and         14-Mar-03
                           intimidation
Senator, Michigan          Allegation of managerial harassment and retaliation                       24-Mar-03


                                                                                                                   PAGE 117
           OVERSIGHT OF INSPECTION SERVICE
           Requestor                   Allegations/Concern                                              Response Date
           Senators, New York          Allegation of misconduct by Postal Inspectors                      04-Oct-02
           Representative, Florida     Concerns regarding an investigation                               05-Nov-02
           Senator, Michigan           Allegation of improper investigation                               10-Dec-02
           Representative, Ohio        Allegation of improper forgery investigation                       30-Dec-02
           Representative, Florida     Allegation of improper investigation                               29-Jan-03

           OTHER SIGNIFICANT ISSUES
           Requestor                   Allegations/Concern                                              Response Date
           Representative,             Request for investigation on reported contamination levels         10-Oct-02
           Connecticut
           Senator, Maryland           Information concerning OIG employment                              21-Oct-02
           Representative, California Request for assistance in resolving damage claim                    23-Oct-02
           Senator, Maryland           Allegation of incorrect information submitted to Office of        19-Nov-02
                                       Personnel Management
           Representative, California Request for investigation regarding closure of a facility          19-Nov-02
           Representative, Alabama      Request for investigation of misuse of government vehicles       14-Nov-02
           Senator, Illinois            Request for assistance on status of an employment application     17-Jan-03
           Representative, Virginia     Concerns over OIG personnel decisions                             14-Jan-03


           GOVERNORS
           LABOR MANAGEMENT
           Requestor                   Allegations/Concern                                              Response Date
           Governor                    Allegation of hostile work environment                            27-Nov-02




PAGE 118    APPENDICES
THIS PAGE TEARS OUT FOR YOUR CONVENIENCE
Notes
